<html>
<title> - PUERTO RICO</title>
<body><pre>[Senate Hearing 113-76]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-76
 
                              PUERTO RICO

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE NOVEMBER 6, 2012, REFERENDUM ON THE POLITICAL 
        STATUS OF PUERTO RICO AND THE ADMINISTRATION'S RESPONSE

                               __________








                             AUGUST 1, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources





                  U.S. GOVERNMENT PRINTING OFFICE
82-719                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Berrios Martinez, Hon. Ruben, President, the Puerto Rican 
  Independence Party.............................................    21
Garcia-Padilla, Hon. Alejandro, Governor of the Commonwealth of 
  Puerto Rico and President of the Popular Democratic Party......     4
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Pierluisi, Hon. Pedro R., Resident Commissioner to Congress, 
  Puerto Rico, and President of the New Progressive Party........    15
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Additional Material Submitted for the Record.....................    37


                              PUERTO RICO

                              ----------                              


                        THURSDAY, AUGUST 1, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:51 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order.
    Senator Murkowski and I want to welcome our witnesses. This 
morning the committee is going to hear testimony on the results 
of last November's vote on Puerto Rico's political status and 
on the President's response.
    Puerto Rico has been an ``unincorporated territory'' of the 
United States since the conclusion of the Spanish American War, 
115 years ago. After 115 years it is clearly time for Puerto 
Rico to determine what political path it will take. The 
question of whether Puerto Rico should become a State or a 
sovereign Nation and whether there are other options defines 
much of the political debate today on the islands.
    Puerto Rico faces huge economic and social challenges. Per 
capita income is stuck at about half that of the poorest U.S. 
State. The violent crime rate is well above the national 
average and rising. The lack of resolution of Puerto Rico's 
status, not only distracts from addressing these and other 
issues, it contributes to them.
    As the most recent reports from the President's Task Force 
on Puerto Rico's status found and I quote, identifying the most 
effective means of assisting the Puerto Rican economy depends 
on resolving the ultimate question of status.''
    95 years after receiving U.S. citizenship, Puerto Ricans 
have achieved leadership in the U.S. military, in business, in 
the Congress, on the Supreme Court and in many other 
prestigious positions. But for Puerto Rico to meet its economic 
and social challenges and to achieve its full potential, this 
debate over status needs to be settled.
    Puerto Rico must either exercise full self-government as a 
sovereign Nation or achieve equality among the states of the 
Union.
    The current relationship undermines our country's moral 
standing in the world. For a Nation founded on the principles 
of democracy and the consent of the governed, how much longer 
can America allow a condition to persist in which nearly 4 
million U.S. citizens do not have a vote in the government that 
makes the national laws which effect their daily lives? That is 
the question.
    Today the committee will hear testimony about the most 
recent effort to resolve the status question, last November's 
vote.
    I expect to hear two vastly different views about what the 
results of the vote mean. However, there is no disputing that a 
majority of the voters in Puerto Rico, 54 percent, have clearly 
expressed their opposition to continuing the current 
territorial status. Given that fact, I agree with the 
President's proposal to resolve this dispute through a 
federally sponsored referendum.
    I also agree that the ballot questions should be reviewed 
by the Department of Justice to ensure that the options are not 
inconsistent with the Constitution, laws, and policies of our 
country.
    The Justice Department review is essential to ensuring the 
proposed new commonwealth status or a proposal with similar 
features will not be on the ballot.
    The new commonwealth option continues to be advocated as a 
viable option by some. It is not. Persistence in supporting 
this option--after it has been rejected is inconsistent with 
the U.S. Constitution by the U.S. Justice Department, by the 
bipartisan leadership of this committee, by the House and by 
the Clinton, Bush, and Obama Administrations--undermines 
resolution of Puerto Rico's status question.
    The rejection of the current territory status last November 
leaves Puerto Rico with only two options: Statehood under U.S. 
sovereignty or some form of separate national sovereignty.
    The federally sponsored vote should be simple and straight-
forward and reflect these two choices.
    Today we will hear from the Presidents of Puerto Rico's 3 
principle political parties.
    Governor Padilla of the Commonwealth Party.
    Resident Commissioner Pierluisi, of the Statehood Party.
    Former Senator Berrios of the Independence Party.
    The full written statement of all our witnesses will be 
entered into the record. I'm going to ask each of you to 
summarize your oral remarks to not more than 5 minutes.
    But let us first have the opportunity for Senator Murkowski 
to make her opening remarks.
    [The prepared statement of Senator Manchin follows:]

    Prepared Statement of Hon. Joe Manchin, III, U.S. Senator From 
                             West Virginia
    Thank you Chairman Wyden and Ranking Member Murkowski for holding 
this hearing today on the political status of Puerto Rico.
    As a former governor, I am uniquely aware of the great 
responsibility of that office. The voters, through their 
constitutionally granted right to free and fair elections, choose a 
governor to carry out the duties of the office and to handle the needs 
of the state. The governor is accountable and responsible to the people 
of the state. And if those people, the voters, are not happy with the 
governor, the election process grants them the ability to change 
course.
    The issue of Puerto Rican political status is undoubtedly 
important. However, I would bet that most Puerto Ricans would rank job 
creation, education, and strengthening the economy as the most pressing 
needs on their mind. I trust the Governor is dedicated to addressing 
both those needs and the question of political status.
    On this issue of status, any referendum effort should adhere 
strictly to our democratic principles of impartiality and 
inclusiveness. It seems to me the most recent referendum does not meet 
these benchmarks. I understand Governor Garcia Padilla supports a 
referendum process that is fair and open, as would I. If another 
referendum is called in the Commonwealth, the people of Puerto Rico 
should be presented with clear and unambiguous options for such a 
significant decision, so as to match our shared democratic principles.
    I hope that all of our witnesses here today will continue to work 
with this committee so that we can ensure a fair and open discussion on 
the issue of Puerto Rico's political status.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Good morning and to our distinguished panelists, welcome to 
the committee.
    Mr. Chairman, as you noted this hearing is a direct result 
of the November 2012 plebiscite that was held in Puerto Rico on 
their political status. It's an issue that I have taken an 
interest in and perhaps feel a sense of kinship as I believe 
I'm the only sitting United States Senator, who was actually 
born in a territory. So that dates me a little bit, but I'm OK 
with birthdays. It's better than the alternative.
    It's long been my position that the process for determining 
Puerto Rico's preferred political status should come from 
Puerto Rico and not from Washington, DC, just as the residents 
of Alaska and Hawaii did as the last two states that were 
admitted to the Union.
    Now that the plebiscite has been held it's clear to me that 
a majority of Puerto Ricans do not favor the current 
territorial status as evidenced by the first question on the 
ballot. The result of the second question, however, is not as 
clear to me nor is it certain that any of the valid status 
options would receive a majority vote.
    When I use the term valid status options, I'm referring to 
the continuation of the current Commonwealth status, statehood, 
independence and free association similar to what the United 
States has with the Marshall Islands, Micronesia and Palau.
    Back in 2010 I joined with our former Chairman, Senator 
Bingaman in outlining these options to the President as the 
only 4 status options available for Puerto Rico's future 
relations with the United States. It was my preference leading 
up to the November 2012 plebiscite that the ballot have one 
question with each of the 4 options listed. Puerto Rican 
government, however, chose to go with the two question ballot. 
As a supporter of the process being driven by Puerto Rico, I 
respect that decision.
    But what we learned is that the current status does not 
have majority support. Beyond that I don't believe that we can 
draw any definitive conclusions about the plebiscite results.
    The President's FY'14 budget request included 2.5 million 
for another plebiscite in Puerto Rico. But even if a new 
plebiscite is held, it is the Puerto Rican legislature that 
will determine how that ballot will appear. If that path is 
chosen I would encourage a format that is fair to all valid 
options.
    I look forward to hearing from the representatives that we 
have here this morning again, a very distinguished panel on a 
very important issue to the people of Puerto Rico.
    The Chairman. Thank you very much, Senator Murkowski.
    Let us begin with the Governor, Governor Padilla.
    Then let's hear from the Resident Commissioner, Pierluisi.
    Senator Berrios will then proceed.
    So, Governor, welcome.
    We'll make your prepared remarks a part of the hearing 
record in their entirety. Please proceed, if you would for 
maybe 5 minutes or so. I think you'll get questions from 
Senators.

  STATEMENT OF HON. ALEJANDRO GARCIA-PADILLA, GOVERNOR OF THE 
   COMMONWEALTH OF PUERTO RICO AND PRESIDENT OF THE POPULAR 
                        DEMOCRATIC PARTY

    Mr. Padilla. Thank you, Mr. Chairman, Ranking Member 
Murkowski and members of the committee. The stated purpose of 
this hearing is to receive testimony on the status referendum 
that took place in Puerto Rico this past November and the 
Administration's response.
    As Governor I will prefer to testify on measures to create 
jobs or fighting crime or energy which is so important for 
Puerto Rico and the agenda of this committee. The people of 
Puerto Rico feel the same way.
    However, I welcome this opportunity to set the record 
straight.
    The 2012 status referendum was crafted by the Statehood 
Party, then in power in Puerto Rico to force an artificial 
majority for statehood. The process they chose excluding the 
Commonwealth from the ballot is the same suggestion by the 
delegate Pierluisi 4 years ago, Commonwealth was wanted there.
    That process was swiftly rejected in the House and the 
Senate because it's disenfranchised, disenfranchised a majority 
of the voters.
    When the bill came to the Senate, Delegate Pierluisi told 
this very same committee regarding the second vote and I quote. 
``Let's make sure that nobody is left out, nobody who wants to 
support a valid option. The current statute call it the 
Commonwealth is one option.'' End of quote.
    His running mate, former Governor Fortuno, was more 
emphatic. I quote. ``The current statue will stand equally 
alongside the other possible status alternatives.'' End of 
quote.
    Those Democratic values stated in this room were not 
repeated in Puerto Rico. Out of Congress side they delegated to 
exclude the Commonwealth.
    Nevertheless, you can see through the numbers. Almost 1.9 
million voters participated, a little more than 800 thousand 
voted for statehood. Statehood rallied 44.4 percent.
    Blank ballots 26.5.
    What they call sovereign Commonwealth, 24.3 percent.
    Independence 4 percent.
    This is the take away. Statehood received only 44.4 percent 
of the ballots casted because of the way the plebiscite was 
asserted. Many of us ask in the populous to cast the ballots 
blank. Other leaders in my party asked that they vote for 
sovereign Commonwealth.
    Combined ballots cast for sovereign Commonwealth and blank 
ballots were a majority of the votes.
    The White House Task Force report has warned that removing 
the Commonwealth option from the ballot and I quote. ``Would 
rise real questions about the vote legitimacy.'' End of quote.
    Such warning proved to be correct.
    To set the record straight the Puerto Rico legislature 
adopted a current resolution 24 which I'm pleased to submit 
with my statement.
    History, Mr. Chairman, has taught that only consensus 
driven process would succeed in Washington. We welcome the 
Administration's request for a new vote. We look forward to 
working with the Department of Justice to ensure a process that 
is fair, transparent and Democratic.
    I commend President Obama for proposing a new plebiscite 
with fairness to all status options. I also thank the White 
House for working closely with us on the keys that's affecting 
Puerto Rico, fighting crime, energy, health, education, jobs.
    I respectfully urge this Senate to follow President Obama's 
recommendation. What Puerto Ricans want is a true self 
determination process, not political games. What happened in 
November was a political game.
    This, Mr. Chairman, is the way to go. As Governor I defend 
the right of pro-statehooders, pro-independence option and pro-
Commonwealthers to have their option on the ballot. That's the 
way to go.
    [The prepared statement of Mr. Garcia-Padilla follows:]

 Prepared Statement of Hon. Alejandro Garcia-Padilla, Governor of the 
  Commonwealth of Puerto Rico and President of the Popular Democratic 
                                 Party
    Dear members of the Senate Committee on Energy and Natural 
Resources:
    You have requested my opinion on the plebiscite celebrated in 
Puerto Rico on November 6, 2012 and President Obama's proposal for an 
appropriation of $2,500,000 for the celebration of a new plebiscite. I 
will address the aforementioned matter in that order.
     i. the 2012 plebiscite was not a legitimate exercise of self-
                             determination
    On November 6, 2012, the day of the general elections, voters were 
given a ballot with two questions that read as follows:
First Question:
    Do you agree that Puerto Rico should continue to have its present 
form of territorial status? (Emphasis added).
    Yes__ No__
Second Question:
    Regardless of your selection in the first question, please mark 
which of the following non-territorial options you prefer.
    Statehood: Puerto Rico should be admitted as a state of the United 
States of America so that all United States citizens residing in Puerto 
Rico may have rights, benefits, and responsibilities equal to those 
enjoyed by all other citizens of the states of the Union, and be 
entitled to full representation in Congress and to participate in the 
Presidential elections, and the United States Congress would be 
required to pass any necessary legislation to begin the transition into 
Statehood.
    If you agree, place a mark here__.
    Independence: Puerto Rico should become a sovereign nation, fully 
independent from the United States and Congress would be required to 
pass any necessary legislation to begin the transition into the 
independent nation of Puerto Rico.
    If you agree, place a mark here__.
    Sovereign Free Associated State (Estado Libre Asociado Soberano): 
Puerto Rico should adopt a status outside of the Territorial Clause of 
the United States Constitution that recognizes the sovereignty of the 
People of Puerto Rico. The Sovereign Free Associated State would be 
based on a free and voluntary association, the specific terms of which 
shall be agreed upon between the United States and Puerto Rico as 
sovereign nations. Such agreement would provide the scope of the 
jurisdictional powers that the People of Puerto Rico agree to confer to 
the United States and retain all other jurisdictional power and 
authorities.
    If you agree, place a mark here__.
    The pro-Commonwealth Popular Democratic Party opposed this 
plebiscite based on three main facts: (1) the process' biased 
structure, (2) the unfair characterization of the Commonwealth option, 
and (3) the disenfranchisement of pro-Commonwealth voters. This was an 
electoral process rigged in favor of statehood.
            A. The plebiscite's structure was rigged in favor of 
                    statehood
    The plebiscite's structure closely followed the process proposed in 
H.R. 2499 (111th Congress) by Resident Commissioner Pedro Pierluisi in 
2009. H.R. 2499 only differed in that it called for the two separate 
votes to occur on different dates, holding the second vote only if the 
status quo was defeated in the first round. (And if the status quo won, 
the bill would subject it to continuous periodic voting.)
    This structure was severely criticized on the House Floor. The 
Congressional Record shows that criticisms of H.R. 2499 in its original 
form came from both sides of the aisle and focused mainly on the 
exclusion of the Commonwealth option in the second vote.
    As a result of those objections, the bill was amended to include 
the Commonwealth as an option in the second ballot and passed.
    Revealingly, on May 20, 2010 Resident Commissioner Pierluisi came 
before this very Committee and acknowledged the fairness of the 
amendment:

          I should note something. When I introduced this bill 
        originally I did not have that fourth option, the current 
        status. My thinking as a lawyer was like, I was being logical 
        in the sense if the majority of the people reject the current 
        status, why include it in the second--the second time around? 
        But I have to say now on behalf of my federal colleagues in the 
        House, the sentiment in the House was let's make sure that 
        nobody's left out, nobody who wants to support a valid option. 
        And the current status called the Commonwealth, it is one 
        option. We've been living through it for a long time.

          Former Governor Luis Fortuno, did so as well:

    If a second stage vote does take place the current status will 
stand equally alongside the other possible status alternatives that are 
so important in Puerto Rico.

    The 111th Congress ended without Senate action on H.R. 2499. The 
pro-statehood Puerto Rico legislature and Governor vowed to legislate 
it locally but delayed any action in anticipation of the White House 
Task Force Report on Puerto Rico's Status, released on March 16, 2011.
    The report gave them a very strong admonition:

          To move forward, it is critical that the process is accepted 
        by the people of Puerto Rico as fair and that it ensures that 
        even those whose status option is not selected feel fairly 
        treated. (White House Task Force Report on Puerto Rico's 
        Status, p. 26)

    Expressing such a concern is unusual, for fairness as a procedural 
specification should go without saying. Evidently, the Task Force felt 
that need. President Obama himself, during his visit to Puerto Rico in 
June of 2011, reiterated that warning: ``The most important thing is 
that there is a sense of legitimacy to the process here in Puerto 
Rico.'' (Univision TV interview.)
    H.R. 2499, in its original form, led to these admonitions. On this, 
the Task Force pointed out:

          In the original form of the bill, if a majority voted for a 
        different political status, the people of Puerto Rico would 
        then have another plebiscite to vote on three options: (1) 
        Statehood; (2) Independence; or (3) Free Association. There was 
        criticism that, under H.R. 2499 in its original form, if a 
        change of status won the first vote but the vote was close, the 
        second vote would not include an option that perhaps 49 percent 
        of the population supported as a first option and an 
        unspecified number believed was the second best option. In 
        part, for this reason, those supporting certain options 
        objected to the bill, and, as a result, it was amended to 
        include a fourth option in the second plebiscite: the current 
        political status. (Report, pp. 27-28.)

    The then ruling pro-statehood legislature and Governor of Puerto 
Rico disregarded the concerns of both the House and the White House, 
and disregarded what they told this Committee. The inclusion of the 
Commonwealth option in the second round was not given serious 
consideration by the legislative assembly. All the rhetoric about ``not 
leaving anybody out'' or Commonwealth ``standing equally alongside the 
other alternatives'' was not sincere. This is the typical behavior of a 
statehood party that speaks about fairness in Congress but acts 
unfairly in Puerto Rico.
    The Task Force Report had recommended a two round vote where the 
Puerto Ricans would first answer whether they preferred to remain part 
of the United States or separate, and then a run-off between the 
alternatives that fell under the winning category, Commonwealth and 
statehood would be the ``in-union'' options, independence, and free-
association the ``in-separation'' ones. In contrast to the manner the 
statehood party handled this matter, I, then a senator in the minority 
party, introduced legislation adopting the Task Force's 
recommendations.
    The two-question structure sought to conceal the fact that 
Commonwealth is still the preferred option among Puerto Ricans. In the 
1993 plebiscite, Commonwealth got 48.6% of the vote, statehood 46.3% 
and independence 4.4%. Commonwealth won, although it did not pass the 
50% mark. Those same results under the 2012 plebiscite structure, would 
have meant a Commonwealth defeat.
    The results, nonetheless, show that statehood is on the decline and 
suggest that Commonwealth is still the preferred option.
    A full-page ad published earlier this year in Politico by a pro-
statehood group claimed that ``over 75% of registered voters came to 
the polls, and 61% voted for statehood.'' That is a great example of 
how you can lie with numbers. You can only read that phrase one way; it 
is claiming that of those that ``came to the polls,'' 61% voted for 
statehood. That is objectively false.
    The Puerto Rico Elections Commission certified that 1,878,969 
participated and that 834,191 voted for statehood. The truth is that of 
the total of votes cast, only 44.4% favor statehood.
    The statehood group claims the number is 61%, but that is because 
they changed the manner in which the Elections Commission calculates 
percentages. Until this past plebiscite, percentages were calculated 
based on total ballots cast. The 2005 Report by the President's Task 
Force on Puerto Rico's Status calculated the 1993 result percentages 
based on total participation including blank and void ballots. Using 
that method, the Report states that statehood got 46.3% and 46.49% in 
those plebiscites. Statehooders recognize these percentages as valid.
    However, the November 2012 plebiscite was the first election in 
which the Commission could no longer include blank and void ballots 
when calculating percentages. When blank and void ballots are excluded, 
the statehood percentage jumps from 44.4% to 61%. There has not been a 
surge in statehood support, just a change in how votes are counted or, 
should I say, excluded.
B. The plebiscite ballot had a serious language problem
            i-The plebiscite did not refer to Commonwealth by its name
    The Committee should wonder why the Puerto Rico legislature chose 
not to refer to the Commonwealth option in the ballot by its rightful 
and legal name, as used more than one thousand times in the US code, 
but instead used a derogatory ``present form of territorial status.''
    The reference to Commonwealth as ``present form of territorial 
status'' was meant to offend its supporters and deter them from voting 
``Yes''. This is sometimes overlooked in Washington where the term 
``territory'' is used in a more general sense as an umbrella term that 
includes all US non-state entities. A memo from the Clinton years 
regarding ``Mutual Consent Provisions in the Guam Commonwealth 
Legislation'' acknowledges, in the first footnote, the pejorative sense 
that the term ``territory'' carries:

          Territories that have developed from the stage of a classical 
        territory to that of a Commonwealth with a constitution of 
        their own adoption and an elective governor, resent being 
        called Territories and claim that that legal term and its 
        implications are not applicable to them. We therefore shall 
        refer to all Territories and Commonwealths as non-state areas 
        under the sovereignty of the United States or briefly as non-
        state areas.

          In the particular case of Puerto Rico, the United States Code 
        recognizes that:

          Fully recognizing the principle of government by consent, 
        sections 731b to 731e of this title are now adopted in the 
        nature of a compact so that the people of Puerto Rico may 
        organize a government pursuant to a constitution of their own 
        adoption. 48 U.S.C. Sec. 731b.

    Those who seek to justify using the ``present form of territorial 
status'' terminology resort to the case of Nat. Bank v. County of 
Yankton, 101 U.S. 129, 133 (1879), for the proposition that ``[a]ll 
territory within the jurisdiction of the United States not included in 
any state must necessarily be governed by or under the authority of the 
Congress.'' But that only reveals their ill-intent. County of Yankton 
reflects nineteenth century a state of mind, when the United States was 
expanding westward and incorporating territories for eventual 
statehood. It was understood that the Constitution provided for 
Congress to hold plenary powers over those territories until admission 
as a state. Two decades after Yankton County, however, the United 
States began to acquire territories not intended for eventual 
statehood. Through the years and decades, these new territories would 
evolve, to use the Clinton administration's terminology, from ``classic 
territories'' into other forms of relationship. Felix Frankfurter 
recognized this as far back as 1914 when he was a law officer in the 
U.S. Department of War:

          The form of the relationship between the United States and 
        [an] unincorporated territory is solely a problem of 
        statesmanship. History suggests a great diversity of 
        relationships between a central government and [a] dependent 
        territory. The present day shows a great variety in actual 
        operation. One of the great demands upon creative statesmanship 
        is to help evolve new kinds of relationship[s] so as to combine 
        the advantages of local self-government with those of a 
        confederated union. Luckily, our Constitution has left this 
        field of invention open. The decisions in the Insular cases 
        mean this, if they mean anything; that there is nothing in the 
        Constitution to hamper the responsibility of Congress in 
        working out, step by step, forms of government for our Insular 
        possessions responsive to the largest needs and capacities of 
        their inhabitants, and ascertained by the best wisdom of 
        Congress.

    Constitutional law has evolved to create this type of creative 
statesmanship. In the case of Puerto Rico, the United States Supreme 
Court recognized the change in the nature of the relationship between 
the United States and Puerto Rico that occurred in 1952:

          By 1950. . .  pressures for greater autonomy led to 
        congressional enactment of Pub. L. 600, 64 Stat. 319, which 
        offered the people of Puerto Rico a compact whereby they might 
        establish a government under their own constitution. Puerto 
        Rico accepted the compact, and on July 3, 1952 Congress 
        approved, with minor amendments, a constitution adopted by the 
        Puerto Rican populace [...] Pursuant to that constitution the 
        Commonwealth now ``elects its Governor and legislature; 
        appoints its judges, all cabinet officials, and lesser 
        officials in the executive branch; sets its own educational 
        policies; determines its own budget; and amends its own civil 
        and criminal code.'' (citing Leibowitz, The Applicability of 
        Federal Law to the Commonwealth of Puerto Rico, 56 GEO. L. J. 
        219, 221 (1967)).\1\
---------------------------------------------------------------------------
    \1\ Calero Toledo v. Pearson Yacht Leasing Co., 416 U.S. 663 
(1974).

    The Court then provided a general sense of what Puerto Rico had 
become with the transformation of its status from that of a mere 
territory into a Commonwealth by quoting at length, and with approval, 
---------------------------------------------------------------------------
from Chief Judge Magruder's observations in Mora v. Mejias:

    Puerto Rico has thus not become a State in the federal Union like 
the 48 States, but it would seem to have become a State within a common 
and accepted meaning of the word . . . It is a political entity created 
by the act and with the consent of the people of Puerto Rico and joined 
in union with the United States of America under the terms of the 
compact.\2\
---------------------------------------------------------------------------
    \2\ Mora v. Mejias, 206 F.2d 377 (1st Cir. 1953).
---------------------------------------------------------------------------
    The process followed for Puerto Rico in 1952 resembled that of the 
admission of States, with the adoption of a constitution and assumption 
by Puerto Rico of all responsibilities of local government. Unlike 
regular laws or organic acts, here an act of Congress came into effect 
only after the people of Puerto Rico gave their consent, therein its 
nature as a compact.
    Two years later, the Court explained that ``the purpose of Congress 
in the 1950 and 1952 legislation was to accord to Puerto Rico the 
degree of autonomy and independence normally associated with States of 
the Union [. . .].''\3\ The Court reasoned, moreover, that through the 
establishment of the Commonwealth, ``Congress relinquished its control 
over the organization of the local affairs of the island and granted 
Puerto Rico a measure of autonomy comparable to that possessed by the 
States.'' The Supreme Court describes the 1950-52 process as an act of 
relinquishment and not as a mere delegation of powers. To ``delegate'' 
means ``to entrust'' which is inherently reversible. To ``relinquish'' 
is ``to cease,'' which denotes irreversibility.
---------------------------------------------------------------------------
    \3\ Examining Board v. Flores de Otero, 426 U.S. 572 (1976).
---------------------------------------------------------------------------
    The concept of ``relinquishment'' in the territorial policy context 
appears earlier in the memorandum by then Assistant Attorney General 
William H. Rehnquist:

          [T]he Constitution does not inflexibly determine the 
        incidents of territorial status, i.e., that Congress must 
        necessarily have the unlimited and plenary power to legislate 
        over it. Rather, Congress can gradually relinquish those powers 
        and give what was once a Territory an ever-increasing measure 
        of self-government. Such legislation could create vested rights 
        of a political nature, hence it would bind future Congresses 
        and cannot be ``taken backward'' unless by mutual agreement.\4\
---------------------------------------------------------------------------
    \4\ Re: Micronesian Negotiations (Office of Legal Counsel, Aug. 18, 
1971).

    In 1980 the U.S. Supreme Court issued a brief per curiam opinion in 
Harris v Rosario, stating that Congress could, under the Territory 
Clause, treat Puerto Rico differently in the application of the Aid to 
Families with Dependent Children program.\5\ The case has often been 
misread as negating the Court's previous--and posterior--assertions 
that Puerto Rico has attained sovereignty similar to that of the States 
over its local affairs and as a snub to the claim that the relationship 
is based on a compact. But the case has nothing to do with any of that. 
It holds that generally Congress may treat Puerto Rico differently from 
the States if it has a rational basis to do so. But that pertains 
strictly to matters that fall under the federal sphere of powers, in 
that particular case to a federal assistance program.
---------------------------------------------------------------------------
    \5\ Harris v. Rosario, 446 U.S. 651 (1980).
---------------------------------------------------------------------------
    Some claim that Harris v. Rosario shows that Puerto Rico is still a 
territory of the United States and, thus, that using the tag is 
appropriate. That debate is more semantic than substantial.
    There is no contradiction between Congress having power under the 
Territory Clause and those powers being limited by compact. This was 
squarely addressed by the Ninth Circuit in the context of the 
Commonwealth of the Northern Mariana Islands, by saying: ``Even if the 
Territorial Clause provides the constitutional basis for Congress' 
legislative authority in the Commonwealth, it is solely by the Covenant 
that we measure the limits of Congress' legislative power.''\6\
---------------------------------------------------------------------------
    \6\ U.S. ex rel. Richards v. De Leon Guerrero, 4 F.3d 749 (9th Cir. 
1993).
---------------------------------------------------------------------------
    The U.S. Supreme Court has long recognized that Congress can limit 
or restrict its powers under the Territory Clause. In Cincinnati Soap 
Co. v. U.S., the Court addressed the nature of the changes in status of 
the Philippine Islands upon the approval and adoption of a constitution 
for the Commonwealth of the Philippine Islands. The Court recognized 
that ``these acts have brought about a profound change in the status of 
the islands and in their relations to the United States'' and 
acknowledged that the power of the United States over the new 
Commonwealth had been so modified.\7\
---------------------------------------------------------------------------
    \7\ Cincinnati Soap Co. v. U.S., 301 U.S. 308 (1937).
---------------------------------------------------------------------------
    Whatever confusion Harris may have provoked regarding the nature of 
the Commonwealth relationship was addressed by the Court in Rodriguez 
v. Popular Democratic Party, where it unambiguously stated that: 
``Puerto Rico, like a state, is an autonomous political entity, 
`sovereign over matters not ruled by the Constitution.''' \8\ The Court 
in Rodriguez cited with approval from Cordova & Simonpietri Ins. Agency 
Inc. v. Chase Manhattan Bank N.A., a decision authored by then Circuit 
Judge, and now Supreme Court Justice, Stephen Breyer. Cordova seminally 
sums up the nature of the Commonwealth relationship:
---------------------------------------------------------------------------
    \8\ Rodriguez v. Popular Democratic Party, 457 U.S. 1 (1982).

          [In 1952] Puerto Rico's status changed from that of a mere 
        territory to the unique status of Commonwealth. And the federal 
        government's relations with Puerto Rico changed from being 
        bounded merely by the territorial clause, and the rights of the 
        people of Puerto Rico as United States citizens, to being 
        bounded by the United States and Puerto Rico Constitutions, 
        Public Law 600, the Puerto Rican Federal Relations Act and the 
        rights of the people of Puerto Rico as United States 
        citizens.\9\
---------------------------------------------------------------------------
    \9\ Cordova & Simonpietri Ins. Agency Inc. v. Chase Manhattan Bank 
N.A., 649 F. 2d 36, 39-42 (1st Cir. 1981).

    When adopted, the Commonwealth of Puerto Rico was hailed as major 
example of that creativity. Chief Justice Earl Warren, in a speech 
given in 1956 on the occasion of the inauguration of the new Puerto 
---------------------------------------------------------------------------
Rico Supreme Court Building, put it eloquently:

          In the sense that our American system is not static, in the 
        sense that it is not an end but the means to an end; in the 
        sense that it is an organism intended to grow and expand to 
        meet varying conditions and items in a large country; in the 
        sense that every governmental effort of ours is an experiment-
        so the new institutions of the Commonwealth of Puerto Rico 
        represent an experiment--the newest experiment and perhaps the 
        most notable of American governmental experiments in our 
        lifetimes.\10\
---------------------------------------------------------------------------
    \10\ Speech on the occasion of the inauguration of the new Puerto 
Rico Supreme Court Building, 1956.

    The reference to the Commonwealth of Puerto Rico as ``present form 
of territorial status'' in the ballot was ill intended. It sought to 
deny the achievements of the compact created by the United States and 
Puerto Rico in 1952
            ii. The plebiscite disenfranchised pro-Commonwealth voters 
                    because it failed to recognize the possibility of 
                    an enhanced Commonwealth
    Referring to the Commonwealth as territorial in nature is only part 
of the problem. From its inception, the Commonwealth concept has always 
been conceived as a dynamic relationship subject to development and 
growth. However, the 2012 ballot limited the Commonwealth option to its 
``current'' form only, thus excluding from the ballot those who believe 
that the best option for Puerto Rico is a further developed form of 
Commonwealth. This option appeared in the 1967 and 1993 plebiscites and 
won. What happened in 2012 was the disenfranchisement of pro-
Commonwealth voters.
    The establishment of the Commonwealth status was undoubtedly a 
significant achievement. Until then, no territory or possession had 
been allowed to adopt is own constitution and elect its own governor 
and legislature. Until then, Congress had delegated to some extent the 
administration or governance of local affairs to territories through 
organic acts, but it had not relinquished those powers and granted 
state-like sovereignty.
    The creation of the Commonwealth of Puerto Rico was not the 
culmination of an innovative process of self-determination and US 
federalism. From the very beginning, Commonwealth adherents recognized 
the need to address certain issues. One of these issues was the 
applicability of certain Federal Laws in Puerto Rico. For instance, 
under this innovative relationship nothing prevents Congress and Puerto 
Rico from agreeing on mechanisms for the exemption of Puerto Rico from 
specific Federal laws and wherein the Commonwealth is authorized to 
submit to the United States proposals for the entry of Puerto Rico into 
international agreements, in order that Puerto Rico may govern matters 
necessary to its economic, social, and cultural development.
    Puerto Rico's first elected governor and main architect of the 
Commonwealth, Luis Munoz Marin, in a letter to President Kennedy wrote 
the following:

          In planning the growth of the Commonwealth, we should, I 
        believe, proceed along the following lines:

          (1) The indispensable principle of the Commonwealth is self-
        government for Puerto Rico in permanent association with the 
        United States on the basis of common loyalty, common 
        citizenship, mutual dedication to democracy and mutual 
        commitment to freedom.
          (2) The moral and juridical basis of the Commonwealth should 
        be further clarified so as to eliminate any possible basis for 
        the accusation, which is made by enemies and misguided friends 
        of the United States and Puerto Rico, that the Commonwealth was 
        not the free choice of the people of Puerto Rico acting in 
        their sovereign capacity, but was merely a different kind of 
        colonial arrangement to which they consented.
          (3) The governmental power and authority of the Commonwealth 
        should be complete and any reservations or exceptions which are 
        not an indispensable part of the arrangements for permanent 
        association with the United States should be eliminated. 
        Methods should be devised for forms of participation, 
        appropriate to the Commonwealth concept, by the people of 
        Puerto Rico on federal functions that affect them.

          Certainly, the interests of the United States and of Puerto 
        Rico would be greatly served by reaffirmation of our compact--
        including the guarantees of permanent association and common 
        citizenship which practically all Puerto Ricans prize deeply--
        in a form which will leave no room for doubt as to the 
        sovereign capacity of the people of Puerto Rico to give and 
        receive these commitments.

    In response to Munoz's letter, President Kennedy said: ``I am 
aware, as you point out, that the Commonwealth relationship is not 
perfected and that it has not yet realized its full potential. . .I am 
in full sympathy with this aspiration.''
    Since 1952 there have been several efforts, taking various forms, 
to further develop Commonwealth. Three merit discussion for they show 
that a further development of Commonwealth status is a matter of 
political will and statesmanship.
    (i) 94th Congress: The New Compact.--In October, 1975, an Ad Hoc 
Advisory Group on Puerto Rico appointed by President Nixon and Governor 
Hernandez Colon presented a ``Compact of Permanent Union Between Puerto 
Rico and the United States.'' The Advisory Group included U.S. Senators 
and Members of Congress, the founder of the Commonwealth of Puerto Rico 
and former Governor, Luis Munoz Marin, and a number of other 
distinguished individuals from the U.S and Puerto Rico. The proposed 
compact was the result of a process of studies, inquiries, public 
hearings, reports and discussions over a two-year period.
    The group concluded that:

          It must be noted finally that the relationship between Puerto 
        Rico and the United States since its inception in 1898, and 
        especially since 1950-1952, has been unique within the American 
        Federal system. However, because this association is unique and 
        exists within a dynamic social and economic system, much debate 
        has surrounded it during the twenty-three years since the 
        Puerto Rican Constitution was adopted. Public Law 600 primarily 
        recognized the right of self-government by the people of Puerto 
        Rico and established the process by which their 
        representatives, freely and specifically elected for that 
        purpose, drafted a constitution which the people of Puerto Rico 
        adopted.

          Public Law 600 and the Constitution of Puerto Rico were 
        noteworthy advances in the progress toward the maximum of self-
        government and self-determination by the people of Puerto Rico. 
        However, Public Law 600 retained an accumulation of previous 
        statutory provisions. These included several provisions from 
        the Foraker Act of 1900, which established the first political 
        and economic association between the United States and Puerto 
        Rico after its cession from Spain to the United States in 1898. 
        Also many were retained from the Jones Act of 1917 and some 
        from the Elective Governor's Act of 1947. The Jones Act of 1917 
        improved the political relationship, bestowed United States 
        citizenship on the people of Puerto Rico, and retained ultimate 
        Congressional control over Puerto Rico. This accumulation of 
        provisions is in many ways anachronic. It is the belief of the 
        Advisory Group on Puerto Rico that the time is appropriate to 
        draft a new compact as a substitute for the Federal Relations 
        Act.

    The proposed new compact would define Commonwealth as follows:

          The people of Puerto Rico constitute an autonomous body 
        politic organized by their own, free and sovereign will and in 
        common agreement with the United States under the juridical 
        structure and official name of the Free Associated State of 
        Puerto Rico . . . The right of the Free Associated State of 
        Puerto Rico to govern itself is hereby recognized as well as 
        the right to exercise all the necessary powers and authority to 
        govern the people of Puerto Rico according to its own 
        Constitution and laws and to make a compact with the United 
        States as to the nature of its present and future political 
        relations . . . In order to respect the right of self 
        government guaranteed by this compact, the United States agrees 
        that the provisions of this Compact may be modified only by 
        mutual agreement between the government of the United States 
        and the government of the Free Associated State of Puerto 
        Rico.'' [Arts 1, 2, 21 New Compact]

    The proposed ``New Compact'' dealt with matters such as legal title 
to lands and navigable waters, citizenship, internal revenue, 
immigration, representation (proposing one non-voting representative in 
the Senate in addition to the one it has since 1900 in the House of 
Representatives), assignment of federal functions to Puerto Rico (if 
Puerto Rico agrees to assume the ``expenses and responsibilities''), 
labor, and the environment.
    The proposal further provided a solution to one of Commonwealth's 
most vexing problems: the automatic application of federal laws to 
Puerto Rico. The compact proposed an objection mechanism wherein Puerto 
Rico could protest the application of a given legislation triggering a 
process whereby Congress, following certain criteria, could exclude 
Puerto Rico from the application of a given law. While this has always 
been contemplated as an exceptional mechanism that would be used very 
sparingly, it helps resolve the current democratic fault of having the 
governed automatically ruled by laws adopted without their 
participation. Regarding this proposal for an enhanced Commonwealth, 
then Acting Assistant Attorney General for Legislative Affairs, A. 
Mitchell McConnell, Jr., commented:

          The proposed Compact would, without altering the fundamental 
        nature of Puerto Rico's Commonwealth status, provide 
        substantially increased autonomy to the island government and 
        its people . . . Such autonomy may be granted to Puerto Rico 
        because Congress under the Constitution (Article IV, Sec.  3) 
        has plenary power over the territories of the United States and 
        Puerto Rico remains a territory as that word is used in the 
        Constitution. Cf. Detres v. Lions Building Corp., 234 F. 2d 596 
        (7th Cir. 1956). In this light, it is possible for Congress to 
        bind future Congresses with respect to Puerto Rico by means of 
        a ``compact.'' This may be viewed either as the vesting of 
        certain rights, see, e.g., Downes v. Bidwell, 182 US 244, 261-
        71 (1901), or as the granting of a certain measure of 
        independence which once granted cannot be retrieved. Thus, 
        specifically, Article 21 of the proposed Compact, requiring 
        mutual agreement for amendment of the Compact, would, in our 
        belief, be constitutional. Indeed, its explicit statement would 
        appear to be an improvement over the situation under the 
        present Compact where there is some question as to the ability 
        of Congress to change its provisions.\11\
---------------------------------------------------------------------------
    \11\ A. Mitchell McConnell to Marlow W. Cook, Department of 
Justice, Washington, D.C. 12 May 1975.

    A bill incorporating the compact was introduced in the House, H.R. 
11200 (approved in subcommittee), and Senate, S. Res. 215, but the 
Commonwealth party's defeat in the 1976 elections for reasons unrelated 
to the status issue, put an end to such effort.
    (ii) H.R. 4765, 101th Congress.--Another significant effort to 
enhance Commonwealth occurred during the 101th Congress, where the 
House of Representatives unanimously passed H.R. 4765, a bill calling 
for a plebiscite on status. The House Report on the bill included the 
following definition of a ``New Commonwealth'':

          A NEW COMMONWEALTH RELATIONSHIP.--(A) The new Commonwealth of 
        Puerto Rico would be joined in a union with the United States 
        that would be permanent and the relationship could only be 
        altered by mutual consent. Under a compact, the Commonwealth 
        would be an autonomous body politic with its own character and 
        culture, not incorporated into the United States, and sovereign 
        over matters governed by the Constitution of Puerto Rico, 
        consistent with the Constitution of the United States.

          (B) The United States citizenship of persons born in Puerto 
        Rico would be guaranteed and secured as provided by the Fifth 
        Amendment of the Constitution of the United States and equal to 
        that of citizens born in the several States. The individual 
        rights, privileges, and immunities provided for by the 
        Constitution of the United States would apply to residents of 
        Puerto Rico. Residents of Puerto Rico would be entitled to 
        receive benefits under Federal social programs equally with 
        residents of the several States contingent on equitable 
        contributions from Puerto Rico as provided by law.

          (C) To enable Puerto Rico to govern matters necessary to its 
        economic, social, and cultural development under its 
        constitution, the Commonwealth would be authorized to submit 
        proposals for the entry of Puerto Rico into international 
        agreements or the exemption of Puerto Rico from specific 
        Federal laws or provisions thereof to the United States. The 
        President and the Congress, as appropriate, would consider 
        whether such proposals would be consistent with the vital 
        national interests of the United States on an expedited basis 
        through special procedures to be provided by law. The 
        Commonwealth would assume any expenses related to increased 
        responsibilities resulting from the approval of these 
        proposals.

    As with the 1975 compact proposal, this definition of New 
Commonwealth provided for the ``exemption of Puerto Rico from federal 
laws and for the entry of Puerto Rico into international agreements, so 
long as the proposals are consistent with the vital national interests 
of the United States.''
    (iii) S. 224, 102nd Congress.--The Senate did not consider H.R. 
4765. Instead, Senator Johnston, the Chairman of the Energy Committee, 
and Senator Wallop, the Ranking Minority Member, introduced their own 
bill, S.224, in the 102nd Congress. This bill also promoted a 
referendum in the various status alternatives, with a Commonwealth 
definition that made explicit some of its characteristics and 
established its further enhancement as a policy of the United States:
                   sec 401.principles of commonwealth
          a. The Commonwealth of Puerto Rico is a unique juridical 
        status, created as a compact between the People of Puerto Rico 
        and the United States, under which Puerto Rico enjoys 
        sovereignty, like a State to the extent provided by the Tenth 
        Amendment to the United States' Constitution and in addition 
        with autonomy consistent with its character, culture and 
        location. The relationship is permanent unless revoked by 
        mutual consent.
          b. The policy of the United States shall be to enhance the 
        Commonwealth relationship enjoyed by the Commonwealth of Puerto 
        Rico and the United States to enable the people of Puerto Rico 
        to accelerate their economic and social development, to attain 
        maximum cultural autonomy, to seek fair treatment in Federal 
        programs, and in matters of government to take into account 
        local conditions in Puerto Rico.
          c. The United States citizenship of persons born in Puerto 
        Rico shall continue to be guaranteed and indefeasible to the 
        same extent as that of citizens born in the several states.

    S.224 was defeated in mark up by members of the Energy Committee 
because some had objections to the inclusion of statehood as an option 
in the self-executing bill.\12\ None had objections to the enhanced 
Commonwealth definition.
---------------------------------------------------------------------------
    \12\ Senate Comm. On Energy and Natural Resources, 102d Cong, 1st 
Session, Business Meeting (February 20, 1991) and Business Meeting 
February 27, 1991.
---------------------------------------------------------------------------
    The U.S. Supreme Court has pointed out that ``modify[ing] the 
degree of autonomy enjoyed by a dependent sovereign that is not a 
State--is not an unusual legislative objective.''\13\ History shows 
that Congress has engaged in far more radical adjustments to the 
autonomy of non-States (e.g. the Philippines) than those required for 
the enhanced Commonwealth formulations discussed above.
---------------------------------------------------------------------------
    \13\ U.S. v. Lara, 541 U.S. 193, 203-04 (2004).
---------------------------------------------------------------------------
    By failing to present the option of Commonwealth with enhancement 
potential, supporters of Commonwealth status were denied the 
opportunity to vote for their choice of association. They were unable 
to reiterate their desire that Puerto Rico continue to pursue 
enhancements of the Commonwealth for the benefit of both Puerto Rico 
and the United States.
            iii-The plebiscite wrongful and ill-intentionally applied 
                    the term Commonwealth to the Free Association 
                    option
    In Spanish, Commonwealth is known as Estado Libre Asociado, which 
translates literally to ``Free Associated State''. The term 
``Commonwealth'' was chosen over ``Free Associated State'' because of 
its familiarity among members of Congress in 1952.
    In the November plebiscite, while pro-statehood legislators avoided 
using the term Commonwealth in reference to the Commonwealth option 
itself, they unabashedly used the term in the ballot to denominate the 
free association option, calling it ``Estado Libre Asociado Soberano'' 
or ``Sovereign Free Associated State.'' There are marked differences 
between the concepts of free association and Commonwealth. The U.S. 
defined both in the 1980s when it offered them to its protectorates in 
the Pacific. The Mariana Islands chose to become a Commonwealth while 
the Republic of Palau, Micronesia and the Marshall Islands chose free 
association.
    Free association, as applied in those three cases, is a form of 
independence. Those compacts of association are for a specific term 
subject to renewal and renegotiation. The residents of the associated 
country are not U.S. citizens. In contrast, residents in a Commonwealth 
are citizens by birth and the compacts do not have an expiration date 
subject to renegotiation. Their sovereignty is not that of an 
independent nation but similar to that of the States.
    The ballot's definition for ``Sovereign Free Associated State'' was 
that of free association. It specifically describes the relationship 
between the U.S. and Puerto Rico as between sovereign nations and makes 
no mention of U.S. citizenship.
    During legislation, the statehood party fended off criticism that 
they were deliberately trying to confuse voters claiming that 
``Sovereign Free Associated State'' was taken from the PDPs 2008 
platform. ``Sovereign Free Associated State'' in such platform did not 
refer to an independent Puerto Rico in association with the U.S., as 
would be the case under free association and as asserted in the ballot. 
The term ``sovereign,'' as used in the platform, referred to the 
relationship resulting from specific consent by the people of Puerto 
Rico.
            iv. The Popular Democratic Party voted in protest
    The PDP charged the statehood party with deliberately stacking the 
deck against Commonwealth with the two question structure and seeking 
to exclude and divide Commonwealth supporters by manipulating the 
ballot's language.
    In February 2012, the party's governing board passed a resolution 
recommending that voters disregard the reference to Commonwealth as the 
``present form of territorial status'' and vote ``yes'' in the first 
question. Since Puerto Rico's Supreme Court recently stated that a 
blank ballot ``expresses an inconformity with the presented 
proposals,''\14\ the Party asked voters to leave the second question 
blank as a form of protest.
---------------------------------------------------------------------------
    \14\ Suarez Caceres v.Comision Estatal de Elecciones,176 D. P.R. 31 
(2009)
---------------------------------------------------------------------------
    Some party leaders, including a former governor, argued that 
leaving a ballot blank was susceptible to fraud and would allow 
statehood supporters to claim an artificial victory with an inflated 
percentage. They openly recommended voting for ``Sovereign Free 
Associated State,'' although under the pledge that it would not be 
interpreted as a vote for free association.
    The unusually high number of blank ballots and votes for free 
association demonstrate an inconformity with the ballot. In the 
previous plebiscite, only 0.1% cast blank ballots and 0.3% for free 
association. That is less than half of a percentage point combined. But 
in the November plebiscite, 26.5% cast blank ballots and 24.2% voted 
for free association. Combined, their numbers rose from 0.4% in the 
previous plebiscite to 50.7%. One could disingenuously interpret that 
as a massive shift in voter preference. But the most reasonable 
explanation is that those were the two options where Commonwealth 
supporters sought refuge.
        ii. we are optimistic about the administration's efforts
    The Administration has recommended an appropriation of:

          $2,500,000 for objective, nonpartisan voter education about, 
        and a plebiscite on, options that would resolve Puerto Rico's 
        future political status, which shall be provided to the State 
        Elections Commission of Puerto Rico.

    The appropriation includes several provisions:

          Provided, that funds provided for the plebiscite under the 
        previous provision shall not be obligated until 45 days after 
        the Attorney General notifies the Committees on Appropriations 
        that he approves of an expenditure plan from the Commission for 
        voter education and plebiscite administration, including 
        approval of the plebiscite ballot;

          Provided further, that the notification shall include a 
        finding that the voter education materials, plebiscite ballot, 
        and related materials are not incompatible with the 
        Constitution and laws and policies of the United States.

    While under normal circumstances the Department of Justice's 
participation in this process is unnecessary--historically this type of 
referenda have been conducted locally--there are at least two 
justifications for the Department of Justice's involvement this time 
around. One is the mistrust caused by all matters surrounding the last 
plebiscite. Two, while the Department of Justice's involvement is not 
legally a commitment to the results, I understand the President would 
become morally obligated to support the result.
    Some claim that the language in the budget proposal that says ``not 
incompatible with the Constitution and laws and policies of the United 
States'' is a reference to precluding the enhanced commonwealth 
concept. This is not the case. There is no blanket rejection there, but 
rather an assurance that the ``enhanced commonwealth'' proposal that 
ends up in the ballot is constitutionally viable.
    That becomes clear when read in conjunction with Report by the 
President's Task Force on Puerto Rico's Status, published on March 
2011.
    On page 32, the report addresses some areas of enhancement that are 
not constitutionally problematic, and that Puerto Rico would need to 
negotiate with Congress:

          If they selected Commonwealth, would Congress enact 
        legislation to define what, if any, possible changes could be 
        made to the Commonwealth status? Advocates for increases in 
        Puerto Rican autonomy within the Commonwealth framework have 
        argued for congressional legislation that would establish a 
        process by which Puerto Rico could obtain relief from specific 
        Federal laws, or enhance authority for the government of Puerto 
        Rico to join certain international organizations and to engage 
        in international cultural and economic outreach efforts so long 
        as such activities were authorized by the Federal Government as 
        consistent with the foreign relations of the United States. 
        When the people of Puerto Rico vote among the status options, 
        they should not assume such modifications unless legislation 
        specifically provides that such a modification would occur upon 
        selection of that status.

    Since the Administration has not expressed an objection to enhanced 
Commonwealth per se, only to some aspects of it, we welcome the 
opportunity of discussing the enhancement potential of the Commonwealth 
with the Department of Justice.
    In sum, I am optimistic that the Administration and Congress will 
act in a fair and balanced manner. I hope that the proposal put forth 
by the President is an opportunity to hold a plebiscite that is 
transparent, democratic and respectful of all self-determination 
options, including the pursuit of a more perfect compact between the 
United States and the Commonwealth.

    The Chairman. Governor, thank you very much.
    Let's go next to the Resident Commissioner Pierluisi.
    Mr. Pierluisi and Commissioner, please proceed.

STATEMENT OF HON. PEDRO R. PIERLUISI, RESIDENT COMMISSIONER TO 
  CONGRESS, PUERTO RICO, AND PRESIDENT OF THE NEW PROGRESSIVE 
                             PARTY

    Mr. Pierluisi. Chairman Wyden, Ranking Member Murkowski, 
Senator Heinrich, Senator Flake, I am particularly pleased to 
see my former colleagues here serving in the Senate. I'm glad 
to address the committee on this important issue.
    Last November Puerto Rico held a free and fair vote on its 
political status. The ballot had two questions.
    Voters were first asked if they want Puerto Rico to remain 
a territory and 54 percent said no while 46 percent said yes.
    I have the official certification of the State Elections 
Commission of Puerto Rico to confirm this.
    A party in Puerto Rico, the PDP urged a yes vote. 
Nevertheless, voters rejected territory status by a wide 
margin. The current status has now lost its Democratic 
legitimacy to the extent that the people of Puerto Rico ever 
consented to this status, such consent has been withdrawn.
    This result should not be surprising. I represent more U.S. 
citizens than 42 Senators. My constituents have fought side by 
side with your constituents from Korea to Afghanistan. They can 
move to the states for the price of a plane ticket. But if they 
stay in Puerto Rico they cannot vote for President, have no 
representation in the Senate and elect one member to the House.
    I can only watch as my colleagues cast Floor votes on bills 
affecting every aspect of life on the island. I depend on the 
good will of Senators elected to protect the interest of their 
constituents, not mine. I request assistance from a President 
who is not required to earn a vote in Puerto Rico.
    To expect a Presidential Administration to feel the same 
obligation to support Puerto Rico as it does the states is to 
substitute hope for experience. The failure of the current 
Administration to send the witness to testify today is a sad 
reminder of this point.
    Moreover, territory status gives the Federal Government 
license to discriminate against Puerto Rico. The island is 
treated unfairly under numerous Federal laws including most 
safety net programs.
    There is consensus that territory status is the root cause 
of the economic problems that have persisted in Puerto Rico for 
at least 4 decades. The best evidence that the status quo has 
failed is this, in the brief period from 2004 to 2012, Puerto 
Rico's population decreased by 4.2 percent with hundreds of 
thousands of residents leaving for the states in search of 
improved quality of life.
    I turn now to the second question in the referendum which 
asked voters to express their preference among the 3 valid 
alternatives to the current status. Of those who chose an 
option, 61 percent voted for statehood. The State Elections 
Commission so certifies as well.
    For the first time ever, this is important. For the first 
time ever, the number of votes for statehood exceeded the 
number of votes for the current status.
    Before the vote the PDP complained that the second question 
was unfair because it did not include its status proposal, 
known as enhanced Commonwealth. Party leaders urged voters to 
leave the question blank and some did. They now cite this 
abstention as the basis for their argument that statehood, 
somehow, lost the vote.
    That is nonsense.
    Self determination is a choice among options that can be 
implemented not an exercise in wishful thinking. The PDP's 
proposal has been repeatedly rejected by Federal officials 
including this committee on legal and policy grounds. 
Therefore, it could not have appeared on the ballot.
    Ultimately, those blank ballots do nothing to detract from 
the main point which is that a majority of voters reject 
territory status. A super majority favors statehood among the 
alternatives. More voters want statehood than any other status 
option.
    No Senator would accept territory status for their 
constituents. So you must respect that my constituents do not 
accept it either.
    With my support the Administration requested an 
appropriation to conduct the federally authorized status vote 
in the territory's history. With a declared goal of resolving 
the issue that funding was approved by the House Appropriations 
Committee confirming that the effort to secure justice for 
Puerto Rico is not and should not be a partisan issue. For 
Puerto Rico to resolve its ultimate status it must become a 
State or a sovereign Nation either independent from or in 
association with the U.S.
    Territory status should not be an option because it has 
failed. An enhanced Commonwealth cannot be an option because it 
is fiction.
    I have filed legislation that outlines the rights and 
responsibilities of statehood provides for an up or down vote 
in Puerto Rico on the territory's admission as a State and 
prescribes the steps the Federal Government would take if 
statehood obtains the majority. Those supporting statehood and 
those opposing it would have equal opportunity to express their 
views.
    My bill already has 105 co-sponsors. It is my hope that a 
Senator will introduce a companion bill that U.S. citizens of 
Puerto Rico deserve. Now they have demanded it, a Democratic 
and dignified status. Congress must take action.
    Thank you.
    [The prepared statement of Mr. Pierluisi follows:]

Prepared Statement of Hon. Pedro R. Pierluisi, Resident Commissioner to 
   Congress, Puerto Rico, and President of the New Progressive Party
    Chairman Wyden, Ranking Member Murkowski, and Members of the 
Committee: Thank you for inviting me to testify about the status 
referendum Puerto Rico held last November, and about the federal 
government's response.
    To summarize, the results of the referendum demonstrate that a 
solid majority of the U.S. citizens of Puerto Rico want to end the 
island's current status as a territory; that a supermajority prefer 
statehood among the three possible alternatives to the current status; 
and that more voters favor statehood than any other status option, 
including the current status. The Administration responded by proposing 
a $2.5 million appropriation to conduct the first federally-sponsored 
status vote in Puerto Rico's history, to be held among one or more 
options that would ``resolve'' the territory's future status. The House 
Appropriations Committee has approved that proposal. In addition, I 
introduced bipartisan legislation in the House--cosponsored by over 100 
of my colleagues--that proceeds from the irrefutable premise that 
statehood obtained more votes than any other status option in the 
November referendum. The bill, H.R. 2000, outlines the rights and 
responsibilities of statehood, provides for an up-or-down vote on 
statehood, and prescribes the steps that the president and Congress 
would take in the event of a majority vote for statehood. Those who 
support statehood and those who oppose it will have equal opportunity 
to express their views. Reduced to its essence, the message I want to 
convey to the Committee is this: On November 6th, Puerto Rico withdrew 
its consent to territory status. The federal government must respect--
and respond to--the democratically expressed will of its own citizens.
                                  ***
    Status is the central issue in Puerto Rico's political life. One 
party, the New Progressive Party, or PNP, favors statehood. Another 
party, the Puerto Rico Independence Party, or PIP, supports 
independence.
    The third party, the Popular Democratic Party, or PDP, prefers the 
current status to either statehood or independence. At the same time, 
the PDP champions a proposal that its leaders often describe as an 
``enhanced'' version of the current status, but that is in fact 
fundamentally different than the current status. This proposal has been 
repeatedly rejected by federal officials in the executive and 
legislative branches on both constitutional and policy grounds, 
including by former Committee Chairman Jeff Bingaman and Ranking Member 
Murkowski in a December 2010 letter to President Obama.
    I am honored to speak on behalf of the U.S. citizens from Puerto 
Rico who seek equal rights and equal responsibilities through 
statehood, a status we believe would be in the best interest of both 
Puerto Rico and the United States. The PNP is unique among the island's 
parties because it draws support from across the political spectrum, 
from liberal Democrats to conservative Republicans. The goal of the PNP 
is to perfect our union with the United States, rather than to dilute 
or dissolve the bonds we have forged over the past 115 years. I view 
the struggle for statehood as a fight for civil and political rights, 
economic progress, and a better standard of living for the people I 
represent. The fact that this aspiration is not universally shared in 
Puerto Rico does not diminish the nobility of the aspiration itself.
    I appeared before this Committee in May 2010, when a hearing was 
held on my status bill, H.R. 2499, which had been approved by the 
House. During the hearing, Senator Murkowski noted: ``As someone who 
was born in Alaska when we were still a territory, I do have great 
sympathy for the desire of the people of Puerto Rico to resolve their 
political status. It took Alaska 92 years. . . . Puerto Rico has been 
working on it for 112.'' Senator Murkowski also noted that the process 
to determine Alaska's future was ``driven from Alaska, not from 
Washington, DC,'' and expressed her view that the same should hold true 
for Puerto Rico.
    I agree--and I want to underscore that Puerto Rico is, indeed, 
driving this process. In December 2011, the duly elected government of 
Puerto Rico enacted a local law providing for a status referendum to be 
held. Several million dollars in public funds were spent to support 
voter outreach and to administer the referendum. On November 6, 2012, a 
free and fair vote was conducted, with turnout exceeding 75 percent of 
registered voters. The results of the vote were certified by the Puerto 
Rico Elections Commission and transmitted to the President and 
Congress. All of this took place at Puerto Rico's initiative.
                                  ***
    The referendum consisted of two questions. The first question asked 
voters if they want Puerto Rico to maintain its current territory 
status. Puerto Rico is an unincorporated territory of the United 
States, subject to Congress's broad powers under the Territory Clause 
of the U.S. Constitution. The term ``unincorporated'' indicates that 
Puerto Rico has the potential to become either a state or a sovereign 
nation. The federal government has enacted measures that, in the 
aggregate, have allowed Puerto Rico to exercise about the same degree 
of authority over its local affairs that the states are entitled to 
exercise under the Constitution. But these measures have not changed 
Puerto Rico's status, and Congress could rescind the autonomy it has 
delegated to Puerto Rico if it chose. Today's hearing is being held 
because this Committee has jurisdiction over ``territorial policy . . . 
including changes in status.''
    Of the nearly 1.8 million voters who answered the first question, 
970,910 voters--53.97 percent--voted ``No'' to maintaining the current 
territory status, while 828,077 voters--46.03 percent--voted ``Yes.'' 
This is the official result certified by the Elections Commission, 
which consists of representatives from each of the territory's status-
based parties.
    There is no legitimate basis upon which to challenge the fairness 
or the outcome of the first question, and such efforts by PDP leaders 
do not survive even the slightest scrutiny. Moreover, there are 100 
members of the U.S. Senate and 435 voting members of the U.S. House. 
None of you would accept territory status for your own constituents, so 
I know you will respect that my constituents do not accept it either.
                                  ***
    Before turning to the second question on the referendum, I want to 
outline the three fundamental defects of territory status, because it 
is important to understand what the people of Puerto Rico rejected, and 
why they rejected it.
    First, territory status deprives my constituents of political 
rights. I represent more U.S. citizens--3.6 million--than 42 senators. 
My constituents have fought shoulder-to-shoulder with your 
constituents, under the same flag, on battlefields from Korea and 
Vietnam to Iraq and Afghanistan. Residents of Puerto Rico can relocate 
from Puerto Rico to the states without any obstacle save the cost of a 
one-way plane ticket. But, if they choose to remain in Puerto Rico, 
they cannot vote for their president, have no representation in the 
Senate, and elect one member to the House--the Resident Commissioner--
with limited voting rights. In the 21st century, in the most democratic 
nation on earth, this is astonishing. And it should be unacceptable.
    Federal law is supreme in Puerto Rico, yet I can only watch as my 
House colleagues cast floor votes on bills that affect, for better or 
for worse, every aspect of life on the island. I must rely on the 
goodwill of senators like you. But you were elected to protect the 
interests of your constituents, not mine--so, understandably, our needs 
are not always your highest priority. I must request assistance from a 
president who is not obliged to seek or earn our vote. To expect the 
administration to feel the same urgency to produce positive results for 
Puerto Rico as it does for the states is to substitute hope for 
experience.
    In addition, territory status gives the federal government a 
license to discriminate against Puerto Rico. It should come as no 
surprise, given our lack of political power, that the federal 
government often uses that license. Puerto Rico is excluded from--or 
treated unfairly under--various federal laws, including nearly every 
social safety-net program. The territory receives fewer federal funds 
per resident than any state or the District of Columbia. In 2010, 
Puerto Rico received about $5,300 per capita from the federal 
government, which is half the national average.
    It has been argued that Puerto Rico should receive fewer federal 
funds than the states because territory residents are not required to 
pay federal taxes on their local income. Among its other deficiencies, 
this argument overlooks that residents of Puerto Rico pay all federal 
payroll taxes, that nearly half of all households in the states do not 
pay federal income taxes, and that--through refundable tax credits--
federal law actually provides a substantial benefit to working families 
in the states that it denies to working families in Puerto Rico. To 
illustrate, consider a married couple with two children living in the 
states that earns $25,000, and then consider an identical family living 
in Puerto Rico. Both families owe the same payroll taxes. But the 
stateside family would receive over $6,000 in credits under the Earned 
Income Tax Credit and Child Tax Credit programs, for a final income of 
over $30,000. The Puerto Rico family, because it is ineligible for the 
EITC or the CTC, takes home less than $24,000. This is a useful example 
to bear in mind the next time you hear someone extol the supposed 
``advantages'' of territory status.
    Finally, territory status--and the unequal playing field it 
creates--has harmed Puerto Rico's economy and, therefore, quality of 
life on the island. Between 2004 and 2012, Puerto Rico's population 
decreased by 4.2 percent, nearly all through migration to the states. 
This is the sort of exodus that one typically sees only in the wake of 
a natural disaster. In the nearly 40 years that the federal government 
has published statistics, Puerto Rico's unemployment rate has averaged 
15.5 percent, risen as high as 24 percent, and almost never dipped 
below 10 percent. At no point in time in the last 450 months has a 
state ever had an unemployment rate as high as Puerto Rico's. The data 
on household income reveal a similar pattern. Indeed, whatever economic 
metric we use, the numbers tell the same narrative: Puerto Rico has 
lagged far behind the states for at least four decades, and the gap is 
only increasing.
    Political leaders in Puerto Rico, in an effort to spur economic 
activity, have generally resorted to a policy of offering tax and other 
incentives to large multinational corporations, but this policy has 
failed to produce substantial and sustained results. It is clear that 
territory status serves as a perpetual economic headwind, slowing or 
stopping forward progress by the ship of state, regardless of who is at 
the helm.
                                  ***
    The second question on the referendum asked voters to express their 
preference among the three possible alternatives to territory status. 
The certified results show that, of the nearly 1.4 million voters who 
chose an option, 834,191 voters--61.16 percent--chose statehood, 33.34 
percent chose nationhood in free association with the United States, 
and 5.49 percent chose independence. Of critical importance, the number 
of votes for statehood on the second question (834,191) exceeded the 
number of votes for the current status on the first question (828,077). 
For the first time in history, more voters in Puerto Rico want the 
territory to become a state than to continue its current status.
    PDP leaders seek to downplay the result of the second question by 
noting that close to 500,000 voters did not provide an answer. In the 
run-up to the referendum, some PDP leaders encouraged voters to leave 
the second question blank, though other PDP leaders encouraged voters 
to choose the free association option, aware that blank ballots ``shall 
not be deemed to be a vote cast'' under Puerto Rico election law and 
general election practice. Although it is impossible to divine voter 
intent from a blank ballot, we can speculate that some--but by no means 
all--of the voters who did not answer the second question were 
responding to this appeal. If blank ballots are included in the vote 
total, the PDP's theory runs, statehood's supermajority victory becomes 
a plurality victory, though a victory nonetheless.
    This argument is thin and, ultimately, beside the point. The 
purpose of the second question was to ascertain the voters' preference 
among the valid alternatives to territory status. And it is well-
established that there are only three alternatives to territory status. 
Each of those options was included.
    Nevertheless, PDP leaders continue to insist that the party's 
proposal--called ``New Commonwealth'' or ``Enhanced Commonwealth''--
should have been on the ballot. Simply to describe this proposal--which 
PDP leaders dutifully avoid doing in public--is to discredit it. Under 
this proposal, residents of Puerto Rico would retain their U.S. 
citizenship, and Puerto Rico would receive at least as much federal 
funding as it does now. In addition, Puerto Rico would be able to 
decide which federal laws apply on the island and to limit federal 
court jurisdiction, and to enter international organizations and 
international agreements as if it were a sovereign nation. Finally, 
Congress--once it agreed to this arrangement--could not modify its 
terms or withdraw without the consent of Puerto Rico.
    In a March 2011 report, the Obama administration--concurring with 
the two prior administrations, former Chairman Bingaman and Ranking 
Member Murkowski, and the House Natural Resources Committee, among 
others--rejected the core of this proposal on constitutional grounds, 
reiterated that the only alternatives to territory status are statehood 
and nationhood, and confirmed that, under any ``Commonwealth'' proposal 
advanced by the PDP, ``Puerto Rico would remain, as it is today, 
subject to the Territory Clause of the U.S. Constitution.'' 
Accordingly, to the extent that PDP leaders argue that the second 
question was unfair because it should have included their preferred 
status proposal, that argument is without merit.
    In the final analysis, the fact that some voters left the answer to 
the second question blank does nothing to detract from the broader 
point, which is that a majority of voters in Puerto Rico do not support 
the current territory status, a supermajority favor statehood among the 
three valid alternatives, and more voters want statehood than any other 
option, including the current status. These results are now part of the 
historical record, and they cannot be dismissed or diminished by those 
who find them inconvenient.
                                  ***
    Now that American citizens living in an American territory have 
informed the federal government, in a free and fair vote, that they do 
not consent to a political status that deprives them of the right to 
choose the leaders who make their national laws and the right to equal 
treatment under those laws, it is imperative that the federal 
government take steps to facilitate Puerto Rico's transition to a 
democratic and dignified status.
    It is true that Puerto Rico should drive the self-determination 
process--and we are. But it is equally true that Congress has a 
constructive role to play in this process for both legal and moral 
reasons.
    As a legal matter, the Constitution vests Congress with broad 
authority over its territories, including the power to decide whether, 
when and how to ``dispose of'' a territory. For Puerto Rico to become a 
state or sovereign nation, it is not enough for Puerto Rico to seek 
such a change; Congress--and the president--must act to enable that 
change.
    As a moral matter, the federal government rightfully prides itself 
as a champion of democracy and self-determination around the world. It 
should--indeed, it must--adhere to those principles with respect to its 
own citizens.
    I am encouraged by what I have seen to date, but believe that more 
needs to be done. In April, the Administration requested an 
appropriation of $2.5 million, which would be provided to the Puerto 
Rico Elections Commission to conduct the first federally authorized 
status vote in the territory's history, with the express goal of 
``resolving'' the issue. Last month, that funding was approved by the 
Republican-controlled House Appropriations Committee, confirming that 
the effort to secure fair treatment for Puerto Rico is not, and should 
never become, a partisan issue.
    The Appropriations Committee endorsed a condition proposed by the 
Administration, stating that federal funding will not be obligated 
until the Department of Justice has certified that the ballot and voter 
education materials are compatible with U.S. law and policy. This 
language was included for the specific purpose of ensuring that any PDP 
effort to include ``New Commonwealth'' as an option will not succeed. 
True self-determination is a choice among options that can be 
implemented, not an exercise in wishful thinking.
    Moreover, the wording of the appropriation is key. The only way to 
``resolve'' the island's ultimate status is through statehood or 
nationhood. Puerto Rico cannot resolve its status by maintaining the 
same undemocratic status that my people have endured since 1898 and 
that they rejected in November. Since the current status is the root 
cause of Puerto Rico's political and economic problems, it cannot also 
be the solution to those problems.
    If the appropriation is enacted into law, I believe the leaders of 
this Committee can play a role in ensuring that any vote conducted 
pursuant to the appropriation is structured in a way that is designed 
to accomplish Congress's stated purpose in making the appropriation, 
which is to resolve the status issue once and for all.
    On another front, I have introduced standalone legislation, H.R. 
2000, which proceeds from the indisputable premise that statehood 
obtained more votes than any other option in the November referendum. 
The bill outlines the rights and responsibilities of statehood, and 
asks voters in Puerto Rico whether they accept those terms. Those who 
support statehood and those who oppose it--for whatever reason--will 
have equal opportunity to express their views. If there is a majority 
vote for statehood, the bill provides for the President to submit 
legislation to admit Puerto Rico as a State after a transition period. 
As of this writing, the bill enjoys support from 102 representatives 
from both parties and every region of the country, and it is my hope 
that a senator will introduce a companion bill.
    In closing, I want to make this point. In June, I testified before 
the United Nations. I expressed faith that the U.S government would 
follow through on its legal and moral obligation to facilitate Puerto 
Rico's transition to a democratic and dignified status, but I also 
noted that my faith was not blind. As the leader of a party that wants 
Puerto Rico to become a full and equal member of the American family, I 
have no desire to publicly criticize the United States. But as I told 
the U.N., and as I reiterate now, it is more important for me to secure 
justice for my people than it is for me to be polite.
    On November 6th, Puerto Rico withdrew its consent to territory 
status and expressed a preference for statehood. Congress must 
respect--and provide a constructive response to--the democratically 
expressed aspirations of its citizens.

    The Chairman. Thank you very much, Commissioner.
    Let's now go to Senator Berrios. Welcome.

STATEMENT OF HON. RUBEN BERRIOS MARTINEZ, PRESIDENT, THE PUERTO 
                    RICAN INDEPENDENCE PARTY

    Mr. Berrios. Mr. Chairman, members of the committee, in 
1990 the late Senator Patrick Moynihan introduced in the 
Congressional record an article of mine published in the 
Washington Post. The article warned that under territorial 
status Puerto Rico would inevitably become either a 
Commonwealth ghetto or a ghetto State. We're almost there.
    Puerto Rico is [speaking Spanish.] Whereas under statehood 
Puerto Rico will become a ghetto State.
    Last November 78 percent of eligible voters participated in 
a plebiscite on the political status in Puerto Rico. Two 
questions were posed.
    The first asked voters whether or not they supported the 
present territorial status. 54 percent voted no, a solid and 
undisputable majority.
    The second question asked whether they preferred 
independent statehood or sovereign free associated State. The 
result of the second question was neither clear nor 
irrefutable. Statehood obtained 45 percent of ballots casted 
and 25 percent in reference to a second question were cast 
blank.
    Subsequently President Obama proposed a 2.5 million 
appropriation bill for a new status which could include the 
already rejected territorial status. Under the guise of 
inclusiveness the President of the United States has proposed 
political subordination as an alternative future status, the 
same as Senator Murkowski. This is as absurd as offering 
involuntary servitude or jobs below the minimum wage as 
remedies for unemployment.
    International law demands respect for the right of self 
determination and Congress is empowered by the Constitution to 
dispose of the territory. But international law and 
Constitutional law, notwithstanding, Congress will not approve 
a plebiscite that includes a statehood option for that would be 
tantamount to an indirect statehood offer. A statehood offer is 
the death mark of any federally approved plebiscite simply 
because Puerto Rico's statehood is contrary to U.S. national 
interest.
    Before last year's plebiscite the U.S. consistently argued 
that Puerto Rico had consented to colonial rule. Since then 
maintaining territorial rule always undemocratic has mutated 
into despotism. But the U.S. will only act to decolonize Puerto 
Rico when it has no other alternative.
    It is therefore up to us Puerto Ricans to create a 
political crisis that will compel you to act.
    If the statehood forces win the next election they will 
most probably legislate a statehood yes or no referendum.
    In another scenario the present Commonwealth government 
could convene a Constitutional convention to negotiate a non-
territorial alternative to the present status.
    Inevitably, in any case, Congress will soon have to face 
its responsibility and make real self determination possible. 
Such self determination demands an informed choice between our 
inalienable right to independence as a distinct and separate 
nationality and the terms and conditions of any other non 
territorial alternative which the U.S. is willing to consider.
    As to those terms and conditions you should recall the 
words of the late Patrick Moynihan on the Senate Floor in May 
1990. I quote. ``In the end the great issues here presented are 
civic, not economic. Do Puerto Ricans want to become Americans? 
Because that is what statehood inevitably means. Or do they 
wish to preserve a separate identity.'' I end quote.
    Moreover, you must ask yourselves whether you wish the U.S. 
to continue as a unitary Federal State, E pluribus Unum or 
rather become a multinational State ruled by the motto E 
pluribus duo.
    To conclude I bring your attention to the case of Oscar 
Lopez Rivera, a Puerto Rican political prisoner who has 
languished in U.S. prisons for more than 32 years, 32 years, 
longer than Nelson Mandela. Puerto Ricans, of all political 
persuasions, have demanded his liberation including the 3 party 
Presidents present here today. Surely a Nation that prides 
itself as a champion of human rights should take the executive 
decision to liberate Oscar Lopez Rivera. Justice and a sense of 
decency demand it.
    I hope that none present over here doesn't mean that he 
cares so little about Puerto Rico that he's not even willing to 
consider making an appearance here through one of your agencies 
or liberate Oscar Lopez Rivera. The 3 of us demand such 
liberation.
    [The prepared statement of Mr. Berrios Martinez follows:]

   Prepared Statement of Hon. Ruben Berrios Martinez, President, the 
                    Puerto Rican Independence Party
    A quarter of a century ago, when the Senate was considering Puerto 
Rico's status issue, the late Senator Patrick D. Moynihan introduced a 
Washington Post article of mine in the congressional record. The 
article warned that, without independence, Puerto Rico would inevitably 
become either a commonwealth ghetto or a ghetto state.\1\
---------------------------------------------------------------------------
    \1\ The Spanish version appears in, PUERTO RICO: NACIONALIDAD Y 
PLEBISCITO (1991, Editorial Libertad), p. 87-94, specifically p. 94. In 
1982, in a conference in the Woodrow Wilson Center, I had already 
warned of that danger. See RAZON Y LUCHA (1983, Editorial Linea), p. 
450.
---------------------------------------------------------------------------
    Today, with the history of the last two decades as evidence, I can 
sadly state that we are almost there. Puerto Rico is rapidly becoming a 
commonwealth ghetto; whereas under statehood Puerto Rico would become a 
ghetto state.
    In 1990 the warning went unheeded. In 2013 Puerto Rico's unresolved 
status can no longer be postponed. If no action is taken, territorial 
status will persist. The economy, already in permanent recession, will 
collapse. Drug related activities and social decomposition will 
continue to grow, as will Puerto Rican migration to the U.S.--
particularly that of our middle class and professionals. Territorial 
status is spent.\2\
---------------------------------------------------------------------------
    \2\ I have extensively elaborated on this matter in two Foreign 
Affairs articles; See ``Independence for Puerto Rico, the Only 
Solution'' (1977); and ``The Decolonization of Puerto Rico'' (1997).
---------------------------------------------------------------------------
    Faced with this reality, many in Puerto Rico believe that statehood 
could reverse such a tendency. But a recently published article 
regarding the Mississippi Delta region should dispel any such 
illusion.\3\ Although the region, embedded in 3 states, is represented 
in Congress by 6 senators and several congressmen corresponding to the 
three states in question, market laws and the economic straightjacket 
of the commerce clause of the U.S. constitution have turned the 
Mississippi Delta into a permanently depressed and marginalized zone--a 
regional ghetto.
---------------------------------------------------------------------------
    \3\ See, The Economist (June 8-14, 2013), p 33-34: ``Since 1940 the 
region's population has fallen by almost half''. . . Farm jobs have 
also disappeared for the most part. . . Local factories have been 
closing. . . Average income is just over $10,000, half the level of 
Mississippi as a whole and 40% of the population lives below the 
poverty line. The unemployment rate is 17% more than twice the national 
rate''.
---------------------------------------------------------------------------
    Last November, a plebiscite on political status was held in Puerto 
Rico. Seventy eight percent (78%) of eligible voters participated. Two 
questions appeared on the ballot.
    The first question asked voters whether or not they agreed to 
maintain the present territorial relationship with the United States. A 
solid and indisputable majority of 54% rejected the current territorial 
relationship.
    In the second question, voters were asked to express a preference 
for Independence, Statehood, or Sovereign Free Associated State. 
However, the result of the second question was neither clear nor 
irrefutable. Statehood obtained 45% of all ballots cast. There were 
approximately 25% blank ballots on the second question; and only by 
factoring those ballots out--which were definitely not in favor of 
statehood--can it be argued that statehood obtained 61% of the vote.\4\
---------------------------------------------------------------------------
    \4\ As a matter of law, Puerto Rico's Electoral Code requires that 
blank votes be counted. The Supreme Court of Puerto Rico has recognized 
since 1993 ``the right [of a voter] to deposit his blank ballot in the 
ballot box, as a means to express that he or she does not a favor any 
of the proposed status options''. Sanchez y Colon v. ELA, 134 DPR 445 
(1993); and 134 DPR 503 (1993). More recently, in 2009, the Supreme 
Court of Puerto Rico ruled that, ``[w]e may reasonably conclude that 
the voter who voluntarily. . . deposits his blank ballot. . .had the 
clear intention not to favor any of the options. . .on the ballot''. 
Suarez Caceres v. CEE, 176 DPR 31 (2009).
---------------------------------------------------------------------------
    Subsequently, President Obama submitted a budget proposal of $2.5 
million dollars for ``voters education,'' if the Puerto Rican 
government legislated another status vote. Furthermore, the President 
openly invited the Puerto Rican government to include the resoundingly 
rejected territorial status among the options. Under the guise of 
inclusiveness, the President has proposed political subordination as an 
alternative future status. Such a recommendation is no more justifiable 
and no less absurd and undemocratic than offering jobs below the 
minimum wage or involuntary servitude as remedies for unemployment.
    Congress, empowered by the Constitution to dispose of the 
territory, has yet to act. Moreover, International law has recognized 
the right of all peoples to self-determination which, under treaty 
obligations assumed by the United States, is part of U.S. law. Thus the 
U.S. could, ideally, fulfill its obligations under U.N. Res 1514 (XV). 
However, it could also ignore international law and pass legislation 
for a federally sponsored plebiscite among non-territorial options.
    I am well aware, however, that international and constitutional law 
notwithstanding, Congress will not approve a plebiscite which includes 
a statehood option. The reason is simple. To offer such an option would 
tantamount to an indirect statehood offer, were that option to prevail 
in a plebiscite. A statehood option is the death mark of any federally 
sponsored plebiscite simply because Puerto Rican statehood is contrary 
to U.S. national interests.
    You should, therefore, speak frankly and tell Puerto Ricans which 
alternatives you will consider to comply with your decolonization 
obligation. But unfortunately, at this stage, you are not willing to 
frankly discard statehood as an alternative for fear of seeming racist 
or undemocratic.
    Consequently, no status legislation will be approved by Congress. 
U.S. policy therefore remains undemocratically clear: to perpetuate a 
territorial status which the majority of Puerto Ricans repudiate.
    In the end, however, you will not be able to avoid the difficult 
decisions regarding Puerto Rico's unresolved status. U.S. policy 
promoting dependence under the existing territorial status, coupled 
with a long history of anti-independence repression, has inevitably led 
many of our compatriots to think that two senators and six 
representatives would suffice to ensure an eternal cornucopia of 
federal funds.
    Time is running out. Before last November's plebiscite, the US 
government consistently argued that Puerto Rico had consented to 
colonial rule. Since then, territorial rule--always undemocratic--has 
mutated into despotism.
    We are well aware, that the U.S. Government will act to decolonize 
Puerto Rico only when it has no other alternative. It is therefore up 
to us, in Puerto Rico, to create a political crisis that will force you 
to act.
    Different scenarios are possible. The statehood forces may win the 
2016 elections and enact legislation calling for a ``Statehood Yes or 
No'' referendum, similar to the one they are now proposing, and try to 
secure a majority vote for statehood.
    Another possible scenario is that the present Commonwealth 
government would muster the necessary political will to convene a 
Status Convention to negotiate a non-colonial alternative to the 
present status.
    The Puerto Rican people have rejected the territorial relation. 
Inevitably, Congress will have to make true self-determination 
possible. Self-determination demands that the U.S. spell out a fair and 
equitable transition so that the Puerto Rican people can exercise an 
informed choice between independence, which is our inalienable right as 
a distinct and separate nationality, and the terms and conditions of 
any other non-territorial alternative the U.S. is willing to consider.
    That time will come soon. And when it does, it would be wise to 
recall the words of the late senator Patrick D. Moynihan (D-NY) on the 
Senate floor in May 1990: ``In the end, the great issues presented here 
are civic, not economic. Do Puerto Ricans wish to become Americans? 
Because that is what statehood ineluctably implies. Or do they wish to 
preserve a separate identity?''\5\
---------------------------------------------------------------------------
    \5\ See also, Letter by President-Elect Bill Clinton, to Governor-
Elect of Puerto Rico, Pedro J. Rossello, December 30, 1992, recognizing 
``the distinct identity which Puerto Ricans have developed since the 
first encounter with Hispanic culture and the Island.''
---------------------------------------------------------------------------
    You should then frankly tell the Puerto Rican people that to become 
a state they must be willing to become Americans and renounce their 
identity as a separate and distinct nationality. You must also ask 
yourselves, whether you wish the U.S. to continue as a unitary federal 
state under the guiding maxim of E pluribus unum; or whether you want 
your country to become a multinational state ruled instead by the motto 
of E pluribus duo.\6\
---------------------------------------------------------------------------
    \6\ For a more elaborate discussion of this issue, see my statement 
before the Senate Energy and Natural Resources Committee, January 30, 
1991.
---------------------------------------------------------------------------
    Since actions speak louder than words, I want to conclude by 
bringing to your attention the case of Oscar Lopez Rivera, a Puerto 
Rican political prisoner who has languished in U.S. prisons for more 
than 32 years--longer than Nelson Mandela. Puerto Ricans of all 
political persuasions have demanded his liberation, including the three 
party presidents present here today. Surely a nation that prides itself 
as champion of human rights should, through executive action, liberate 
Oscar Lopez Rivera.
    Justice and a sense of decency demand it.

    The Chairman. Thanks. Thank you all for eloquent 
presentations.
    Let me just ask a few questions. I'm going to, in effect, 
ask them to the panel and then I know my colleagues are anxious 
to ask questions as well.
    In November, a majority of voters opposed continuation of 
the current territory status. Looking forward to the plebiscite 
proposed by the President, do you, and we can just go down the 
row, believe that the Election Commission should agree that the 
current territory status should not be on the ballot?
    Let us just go right down the row. We start with you, 
Governor. Each one of you if you can answer yes or no that 
would be helpful.
    Mr. Padilla. OK.
    Thank you, Chairman.
    First, Commonwealth wasn't there. Commonwealths cannot be 
defined as governed territorial statute. That's a mistake 
because we called the Commonwealth a territory is a question of 
law.
    Being a question of law I want to state in this committee a 
word of a sitting judge of the United States of America, Mr. 
Justice Breyer when he was in the first Circuit Court. The case 
is Caldav versus Chase. I quote. ``In sum Puerto Rico's status 
change from that of mere territory----
    The Chairman. Governor, I want to be respectful. But my 
time is going to go by very quickly. I have other questions.
    Do you believe that the Election Commission should agree 
that the current territory status should not be on the ballot?
    Mr. Padilla. It's a mistake to call Commonwealth governed 
territorial status. The Commonwealth wasn't there. The 
Commonwealth wasn't it.
    Imagine, Senator, and that's why it's only a paragraph.
    When the Federal Government relation with Puerto Rico 
changed from being bounded merely by the Territory Act laws and 
the right of the people of Puerto Rico as United States 
citizens to being bounded, listen carefully, to being bounded 
by the United States and Puerto Rico Constitution. Public loss 
in hundreds, 600. Puerto Rico Federation Act and the rights of 
the people of Puerto Rico as U.S. citizens.
    I cannot call the United States of America the Empire of 
the West because it is a mistake.
    I cannot place in a ballot Commonwealth independence and 
Federal taxes and losing Olympic Committee and losing our 
national identity because that does the name of statehood. 
Commonwealth have and needs to be----
    The Chairman. Governor, again, my time is going to run out 
even before we get through one question.
    I think what you're telling me is you want another option 
on the ballot.
    Mr. Padilla. No, commonwealth needs to be there and as 
Felix Frankfurter says, address the issue of a non-State 
jurisdiction of the interstate is an issue of statesmanship, 
creative statesmanship.
    The Chairman. But we're just going to have to move on.
    Let's see, let's now go to the Commissioner.
    Commissioner, do you believe that the Election Commission 
should agree that the current territory status should not be on 
the ballot?
    Mr. Pierluisi. I take it you're basing the question on the 
pending appropriation request from the President which calls 
for a process to, I quote. ``Solve Puerto Rico status.''
    You cannot solve the problem of our status by including the 
very option that was rejected by our people. Elections, as well 
as plebiscites, have consequences. The people were asked very 
simply, do you want Puerto Rico to continue having its current 
status?
    They said, resoundingly, no.
    So the options should be statehood, free association and 
independence. The 3 alternatives we have to the current status.
    The Chairman. Senator, same question.
    Do you believe the Election Commission should agree that 
the current territory status should not be on the ballot?
    Mr. Berrios. Of course not.
    First because----
    The Chairman. You said no. Oh my goodness. I got an answer.
    [Laughter.]
    The Chairman. Thank you.
    Mr. Berrios. I'm very straight forward.
    The Chairman. You are indeed.
    Mr. Berrios. I'm for independence.
    The Chairman. Thank you. Very good.
    Alright.
    I am a little curious. I would like to be respectful; would 
you like to amplify on your no answer?
    Mr. Berrios. No. We already said no. To ask us again would 
be as absurd as asking to accept involuntary servitude already 
rejected by Puerto Rican people, it's absurd.
    The Chairman. Alright.
    Let me see if I can get one other question in with respect 
to translating this issue of free association.
    One of the choices on the November ballot was sovereign 
free association. In English, this phrase would be taken to 
mean the current free association relationship between the U.S. 
and the 3 nations of the former U.S. administered trust 
territory of the Pacific.
    However, some are concerned that when this phrase is 
expressed in Spanish voters may confuse it with the Spanish 
phrase for the current Commonwealth or the proposed enhanced 
Commonwealth.
    So my question here is for each of you gentlemen. Do you 
think that this concern about confusion through translation is 
a valid one?
    Mr. Padilla. Yes.
    The Chairman. Very good.
    [Laughter.]
    The Chairman. Your colleagues.
    Mr. Pierluisi. No, I do not believe that that creates much 
confusion. In Puerto Rico our voters are well educated about 
the options we have.
    The Chairman. Senator.
    Mr. Pierluisi. We have debated this topic long enough.
    The Chairman. Very good.
    Mr. Berrios. That phrase was invented by Puerto Rican 
colonists in 1952. They call it Commonwealth here so in the 
past as a Commonwealth of Pennsylvania or Massachusetts. They 
call it free associated State there in order to confuse the 
people thinking it was some sort of a sovereign association.
    But now, 60 years later.
    The Chairman. You think----
    Mr. Berrios. Obviously no one is going to be confused by 
that.
    The Chairman. So people are not going to be confused in 
your view?
    Mr. Berrios. Of course not.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Since we're talking about definitions 
here and whether or not they cause some confusion.
    Governor, can you define exactly what enhanced Commonwealth 
really means because I'm not sure that I understand it.
    Mr. Padilla. Thank you, Senator, for that question. It is a 
very valid one.
    A good example of serious consideration by Congress of the 
enhanced development of Commonwealth may be found in the 
legislative process between 1989 and 1991 and during the 1975 
ad hoc procedure.
    But in 1975 a young fellow of the Department of Justice 
quote in a letter. ``The proposed compact would without 
altering the fundamental nature of Puerto Rico's Commonwealth 
status provides substantially increased autonomy to the 
island's government and its people.''
    We can talk about for example, that those processes that 
have been already studied by Congress and by the Commonwealths 
to see what's last parallels apply to Puerto Rico that cannot 
damage the possibility of economic development of Puerto Rico 
or the language in further, in courts in Puerto Rico that 
should be Spanish. That young fellow, the name of that young 
fellow back in 1975, Mitchell McConnell, Jr., Minority Leader 
in the Senate.
    Senator Murkowski. Governor, what I'm trying to understand 
is exactly what enhanced Commonwealth is and the question 
really here is whether or not it's consistent with the U.S. 
Constitution.
    Now I understand that your legislature has passed this 
resolution that, when we're talking about the plebiscite it 
says, incorporates all options including the enhanced 
Commonwealth. But if our Department of Justice should determine 
that enhanced Commonwealth does not, in fact, meet with the 
definitions within our U.S. Constitution, doesn't fit within 
that. We've got a situation here where you're going to have a 
plebiscite that, again, is not going to be followed or upheld.
    So what I'm trying to understand is how we're defining this 
and is it consistent with our Constitution.
    Mr. Padilla. Again----
    Senator Murkowski. Because we recognize that there is a 
challenge there.
    Mr. Padilla. Again, great question.
    But is something that all of us know. Whoever write the 
Constitution--of something is the Supreme Court. The Supreme 
Court already resolve this issue.
    Let's see U.S. versus Latta, the same judge, Mr. Justice 
Breyer.
    Third, Congress statutory goal to modify the degree of our 
autonomy and joy by the dependent sovereigning that is not a 
State, is not unusual the--objective. The political branches 
drawing upon another one's Constitutional authority. Authority 
have made adjusting to the autonomous statutes of other such 
dependent entities sometimes making far more radical 
adjustments than those at issue here.
    That the Supreme Court decision, you can, of course it's 
Constitutional. The Supreme Court has stated that every time 
that have been asked.
    Senator Murkowski. I would suggest that there is still an 
issue there in terms of the Constitutionality. This is part of 
what we're dealing with in trying to understand here.
    Let me ask you a question here, Commissioner Pierluisi.
    I mentioned in my opening statement that when Alaska was 
seeking statehood it was Alaskans engaged, very, very engaged 
in pushing toward statehood. In fact, at the time that the case 
was successfully made it was about over 80 percent of the 
Alaskan electorate supported that, an overwhelming majority.
    Do you think that Congress should consider a statehood 
petition if the status does not have a majority, let alone a 
super majority of the voters?
    Mr. Pierluisi. Let me answer this way.
    We are driving the process the same way Alaska did back in 
the 1950s. Different times, though. This is the 21st century. 
But we're driving the process.
    We just held a vote in Puerto Rico. As I said, plebiscites, 
as elections, have consequences. The people rejected the 
current status.
    This is the most Democratic Nation in the world and you 
cannot ignore that vote. You need to respond to that vote.
    One way of responding is the way that I am proposing in the 
House, H.R. 2000. It calls, it basically lays out statehood for 
the voters of Puerto Rico and asks for an up or down vote on 
the admission of Puerto Rico as a State. Then provides the 
steps that the Federal Government would take to admit Puerto 
Rico as a State if that's the wish of the majority of the 
people of Puerto Rico.
    But that's driven by Puerto Rico because I represent Puerto 
Rico in Congress.
    Now, by the way, you asked the question. If you allow me, 
let me quickly answer. What the PDP has been proposing for a 
long time now is that the relationship between Puerto Rico and 
the U.S. be based on a compact or treaty that cannot be changed 
by either party, must be changed by mutual agreement. That, in 
and of itself, is unconstitutional.
    In addition, what you're proposing is that Puerto Rico 
would keep the same level of Federal funding, yet have the 
ability to decide with Federal laws apply in Puerto Rico and 
which do not. I am sure that many colleagues representing the 
states would like to have that power as well.
    That's why consistently, among other reasons the Federal 
Government, the OJ, as well as this committee and the 
counterpart committee in the House have said that such proposal 
isn't Constitutional. It violates public policy. The name 
doesn't change the nature of the status.
    Puerto Rico is, as a matter of law, an unincorporated 
territory of the United States. It is called a Commonwealth 
because the Constitution of Puerto Rico which was approved by 
the U.S. Congress, calls the government of Puerto Rico the 
Commonwealth of Puerto Rico. I try to be brief, but I believe 
that answers your question.
    They're proposing unconstitutional, an unconstitutional 
relationship with the U.S. That's why it cannot be on the 
ballot. But the current status, call it as you may, 
Commonwealth, unincorporated territory, Puerto Rico, call it 
whatever. It was rejected by the people of Puerto Rico.
    We've waited long enough. We want Congress to take action.
    Senator Murkowski. Mr. Chairman, my time is expired.
    The Chairman. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    I want to ask Governor Garcia Padilla, under what you're 
calling an enhanced Commonwealth would Puerto Rico be subject 
to all the Federal laws that the Congress, House and Senate, 
signed by the President are passed or would you pick and choose 
which laws under----
    Mr. Padilla. No, no one is trying to mislead you. If anyone 
tell you that we want to pick. What had been studied in 1975 
process, with approval of the Department of Justice, but what 
state to Congress in 1989 to 1991 process and passed the House 
unanimously was the process between Congress and Puerto Rico. 
Both will agree if there's any Federal law that can damage in a 
different way without damaging the effect of that law in the 
states, damage the possibility of the economy of Puerto Rico to 
move on. So it's the process between the Congress and the 
people of Puerto Rico, not a picking process.
    Senator Heinrich. So, Governor, what exactly is an enhanced 
Commonwealth?
    Mr. Padilla. Let's go for example. It has been studied very 
well. As I told you it passed the House already once in the 
state here, in the Senate.
    We can arrange that way where Federal laws which apply to 
Puerto Rico, but in a mutual, working together, with Congress 
not Puerto Rico alone.
    We can talk about Federal courts in Puerto Rico not about 
the application of the Federal court to Puerto Rico, but the 
language there. The Federal courts in Puerto Rico is struggling 
with the language in Puerto Rico because most of Puerto Ricans 
speak Spanish.
    There you have two examples.
    But let me tell you something, Senator. To take 
Commonwealth out of the ballot is----
    Senator Heinrich. I think we've already established that.
    Mr. Padilla. But I didn't answer that.
    Senator Heinrich. There's a very clear question on the 
ballot in November. People made a decision. I think we have to 
respect that decision.
    Mr. Padilla. I know, but the Commonwealth wasn't there.
    Senator Heinrich. Is there----
    Mr. Padilla. That's a disenfranchisement.
    Senator Heinrich. I would submit that there are 4 
constitutionally valid options here, the Commonwealth, 
independence, statehood and free association.
    Mr. Padilla. I agree.
    Senator Heinrich. In my reading of this ballot it's fairly 
clear that the voters rejected Commonwealth status.
    Mr. Padilla. Commonwealth was there?
    Senator Heinrich. That gives us 3 remaining choices. I 
think, you know, we sort of danced semantically around this for 
long enough that we have to move forward and begin to make some 
decisions here.
    I want to move on to Commissioner Pierluisi.
    you introduced a bill in the House, I understand, that 
would just hold a straight up or down vote on statehood. If 
what people are saying about the intent of voters who left 
their ballots blank that's a fairly risky proposition. But 
obviously you believe that that's the best way to get a very 
clear idea of how people feel on statehood.
    Say that vote comes out favorably to what you want to see 
and the voters in Puerto Rico vote yes. Walk us through the 
next steps because obviously that doesn't result immediately in 
statehood, of all the steps we'd have to walk through to 
actually see that come to fruition and see Puerto Rico become a 
State.
    Mr. Pierluisi. The bill provides that the President shall 
submit an admission bill admitting Puerto Rico as a State 
within the period of 180 days. The bill should include a 
transition period during which additional Federal moneys would 
flow into Puerto Rico and Federal contributions would be 
gradually applied.
    The Congress, the bill, then provides that Congress is 
committed to act on the legislation and so and admit Puerto 
Rico.
    The bill, as it says in its first sentence, sets forth the 
process for admitting Puerto Rico as a State of the Union. So 
it is an admission bill. It provides that process that I just 
laid out for you.
    Senator Heinrich. OK.
    Thank you, Chairman.
    The Chairman. Thank you very much.
    Mr. Berrios. Mr. Chairman.
    The Chairman. Yes, indeed.
    Mr. Berrios. I would like to add a couple of points.
    The Chairman. Please.
    Mr. Berrios. They've had plenty of time.
    The Chairman. Please.
    Mr. Berrios. Mr. Chairman, nobody knows what enhanced 
Commonwealth means. They've been trying to define it for half a 
century. Nobody knows. So the answer is nobody knows.
    This is just political hocus pocus, political bull, to put 
it in plain English. So you shouldn't stress the point anymore 
because they won't define it. In definition it is their name 
for the territory. The territory has been repudiated by 54 
percent of the Puerto Rican people. Now it has to--itself into 
tyranny.
    So it seems to me here since you want information to take 
positive steps ahead. We're in the middle of a discussion 
similar to those held in the Middle Ages where people ask how 
many angels fit into a needles head.
    You won't approve anything that says, even indirectly, you 
will accept statehood. So as long as statehood is in his bill 
or your bill, nothing will happen. As long as Commonwealth 
remains, we remain a colony, a territory. It's about time you 
start speaking frankly to the Puerto Rican people. Telling them 
what are the conditions under which you would accept, if you 
could accept statehood. Refuse to consider colonialism any 
longer and make a reasonable offer between our inalienable 
right to govern ourselves either under independence or any 
other formula of a non territorial relation.
    If it's statehood, state the conditions for statehood.
    If it's free association, state the conditions of free 
association.
    That's the way to go. If not, we're losing our time once 
more in this, the Senate's time and our time.
    The Chairman. Recognizing the perils of asking for a yes or 
no answer.
    [Laughter.]
    The Chairman. I'm going to try once more on an issue that I 
do think there is some common ground. I hope that there is.
    Governor, we'll start with you.
    Should the ballot question under the President's proposal 
be simplified to statehood, yes or no or sovereignty, yes or 
no?
    Mr. Padilla. No. I want to tell you why.
    First, take commonwealth out of the ballot is a way to 
disenfranchise the majority of the people of Puerto Rico that 
have vote for the Commonwealth every time the Commonwealth has 
been in the ballot. This time the Commonwealth wasn't there.
    Second, I'm not for independence, as you know. But I have 
to protect the right of the pro-independence people to have 
their option on the ballot.
    Mr. Berrios. Thank you.
    Mr. Padilla. You're welcome.
    [Laughter.]
    Mr. Padilla. I'm not pro-statehood that will make Puerto 
Rico a Latino ghetto. I have to defend pro-statehooders to have 
their option on the ballot.
    I cannot disenfranchise them. It's not pay back time for me 
because I want to disenfranchise in November. What the pro-
statehood party is asking you, Chairman and this committee, is 
to be accomplish of that Democratic crime, crime against 
democracy.
    Take the one who won. Always the people have been ask out 
of the ballot because if the Commonwealth is in the ballot, 
they have no way to win.
    The Chairman. Governor, the reason that I asked the 
question was leaders in your party have endorsed statehood, yes 
or no, for this committee in 2010 and in hearings before the 
House Resources Committee in 2009. That's why it's relevant.
    Let me get----
    Mr. Padilla. Let me add something.
    The Chairman. Let me get your colleagues----
    Mr. Padilla. Let me add something, Senator.
    People in pro-statehood party have expressed that they are 
not agree with the yes or no for statehood process. So that's a 
democracy.
    The Chairman. What your leaders in the past endorsed was 
framing the issue around statehood, yes or no. That's a matter 
of public record.
    So let me just get your colleagues into this. And let me 
have the other Senators ask any remaining questions.
    Mr. Pierluisi. I'll be brief.
    By definition when you pose a question that's a yes or no 
question you're not excluding anybody because whoever is in 
support of the proposition can vote yes. Whoever is against can 
vote no. So, to talk about excluding anybody when you're posing 
an up or down question, it's just nonsensical.
    Now whether we can use the $2.5 million for consulting the 
people of Puerto Rico on the admission of Puerto Rico, 
potential admission of Puerto Rico, as a State, of course, we 
can. It is consistent with the language of the appropriation 
because it is directed to resolving the issue of Puerto Rico 
status and definitely one of the options through which you can 
solve this problem is by admitting Puerto Rico as a State.
    The other option I do not support because there's no 
support for, majority support. You cannot even argue there's 
anything close to it for Puerto Rico becoming a national--
treated as a sovereign Nation.
    But again, I would say that if somebody proposes that vote 
what's going to happen is that the overwhelming majority of 
Puerto Ricans will vote against. So I wouldn't say that I'm 
being excluded as a state-hooder. I would simply vote no if the 
question is the second one that you post.
    The Chairman. Senator.
    Mr. Berrios. If statehood yes or no----
    The Chairman. Or sovereignty, yes or no.
    Mr. Berrios. Statehood first. If statehood yes or no 
referendum stemming from this Congress is an impossible 
proposition. You will never get it passed through even this 
committee. I can assure you that through 30 years of 
experience.
    The United States will never make such an offer. So that's 
out of the question.
    Now, regarding the second question.
    We have an inalienable right to independence under 
international law. If you are willing to make statement 
publicly and push through a status referendum where you offer 
independence with a reasonable transition, as it should be for 
your benefit and for our benefit, of course I would accept 
independence, independence yes or no referendum.
    The Chairman. Let's do this.
    I'm going to let my colleagues ask any additional questions 
and then give my assessment of where we are at this point. I 
will tell you I thought it was particularly noteworthy giving 
some of the history of Senator Murkowski. In fact, the current 
Senator Murkowski knows a little bit about this because in 2001 
the U.S. Department of Justice wrote to the former Chairman of 
this committee, who was Senator Murkowski's father, Frank 
Murkowski, with the finding that enhanced Commonwealth is 
inconsistent with the Constitution.
    So this debate has been running a little while.
    Senator Murkowski. A long while.
    The Chairman. Senator Murkowski, the current Senator 
Murkowski.
    Senator Murkowski. Let me ask you a question, Senator 
Berrios, because you brought up the issue of self 
determination.
    Mr. Berrios. Yes.
    Senator Murkowski. The right of all peoples to self 
determination. But then in response to another colleague here, 
you indicated that look, we here in Congress should just set 
out these conditions.
    You've said territorial status is out. It should be 
dropped.
    That the option for statehood is unrealistic.
    But if we were to basically provide these conditions to 
you, isn't that just another form of Washington, DC, dictating 
to Puerto Rico whether it's the level of status or the 
conditions. How does that address this right of self 
determination that you've spoken of?
    Mr. Berrios. Senator Murkowski, when you came into Puerto 
Rico in 1998 you asked nobody. You just invaded. I don't mean 
you. You were a territory.
    Senator Murkowski. Thank you.
    Mr. Berrios. The United States invaded Puerto Rico and 
consulted nobody. Under the law, international law you should 
devolve our powers so we can exercise our free determination. 
That is not going to happen, of course.
    You would only do that when you have no other option.
    We accept that statehood be put in a plebiscite in the 
future after the United--if it's through a congressional--if 
the United States is willing to spell out the conditions for 
statehood.
    Senator Murkowski. You don't think that that's them 
dictating in violation of your right to self determination?
    Mr. Berrios. No, no, no. No because the only right you have 
as a Nation, as a Nation, not as Alaskans, not as Hawaiians, 
nor as Texas, as a Nation, the only right is the right to 
independence juridically.
    We know we are not the majority in Puerto Rico. What we say 
is that if a referendum was going to be held through an act of 
Congress, independence has to be included with a transitional 
period which should be included independence. If any other 
options is going to be included through an act of Congress, 
free association or statehood, then you should spell out 
whether you are willing to grant that, once it is approved 
because once independence wins a referendum there's an option.
    You have to act upon a petition for independence. We're in 
the 21st century, not in 1898. That's what I mean.
    Senator Murkowski. Mr.----
    Mr. Pierluisi. Could I comment?
    Senator Murkowski. Commissioner, go ahead.
    Mr. Pierluisi. I want to try to be brief.
    The same way you cannot impose statehood on Puerto Rico, 
we, the American citizens of Puerto Rico, cannot impose 
statehood on you. Definitely you can lay out the terms and 
conditions for statehood. But by the way, we're not seeking a 
special statehood for Puerto Rico. It would be statehood on 
equal footing with the 50 other States.
    The only terms and conditions you would be laying out would 
be, for example, the transition period because this doesn't 
have to happen overnight. You can provide for a 6 year 
transition period, 8-year transition period, in which you would 
gradually give us parity. We don't have parity, equal treatment 
in Federal programs.
    At the same time you would gradually impose Federal taxes 
on the island, income taxes. So that's the only aspect that 
under which we could have a different treatment than the 
states. It would only last during the transition period.
    But, of course, you're not, it's like for a change of 
status to happen two things must happen.
    Congress must provide for it.
    The people of Puerto Rico must accept it.
    So you cannot detract yourself from the process. You have 
to be engaged. We're driving the process in the sense that we 
already held a plebiscite. We can, very much so, morally and 
legally do it. We're telling you, act on it. Respond to it.
    Mr. Berrios. Senator, if you permit me for a moment?
    Senator Murkowski. Senator.
    Mr. Berrios. There's one condition for statehood which the 
Resident Commissioner hasn't mentioned. It's Senator Moynihan's 
questions.
    Do Puerto Ricans know they have to become Americans in 
order to become a State of the Union or do they want their own 
separate identity? That's the undemocratic transition. It deals 
with the way of being, the Nation of being Puerto Rican. That's 
called a nationality under international law.
    We are a distinct nationality. Do we want to continue as a 
distinct nationality? Congress should be clear like Senator 
Moynihan who was an expert on these matters.
    You want to become a State of the Union you have to become 
Americans. You cannot maintain your separate identity in the 
long run. That's a condition also which should be spelled out.
    The Chairman. Senator Heinrich.
    Senator Heinrich. Senator Berrios, following up on that 
idea what would you think of a ballot that first asks up front, 
you know, should Puerto Rico be part of the United States?
    Yes or no?
    If the answer is yes than you choose on the second tier 
between statehood and the current status, Commonwealth status.
    Mr. Berrios. Of course not because you cannot exclude 
independence in any valid plebiscite.
    Senator Heinrich. But if they say no.
    Mr. Berrios. No, but you can----
    Senator Heinrich. You go and choose independence and free 
association.
    Mr. Berrios. It's been part of the United States does not 
include independence. Independence means independence.
    Senator Heinrich. Right, no, I know. I recognize that.
    I agree with you. But if so, if the people of Puerto Rico 
vote no, we should not be part of the United States then----
    Mr. Berrios. No, no. It's not being part of the United 
States. It's independence. It's as positive as--like the United 
States. You are independent. You have a right as a Nation to be 
independent.
    We are a colony of the United States. What you can ask us 
is whether we want to become independent or not, that you can 
ask, not whether we want to be part of the United States.
    Of course we don't want to be part of the United States as 
a colony. The Federalists don't want it. Neither do we want it.
    Senator Heinrich. Commissioner, do you have an opinion on 
that?
    Mr. Pierluisi. My reaction is that if you pose a question 
like that probably 80 to 90 percent of the people will say that 
they want Puerto Rico to continue to be part of the United 
States actually. Legally, if we go by the Supreme Court 
precedent, it's not technically part. It's just----
    Mr. Berrios. Belongs to.
    Mr. Pierluisi. It belongs to. It is possession or a 
territory of the United States. But the answer would be 
overwhelming. The same way, as I said before, if you pose a 
question national sovereignty, yes or no?
    I'm telling you the overwhelming majority are going to vote 
against national sovereignty.
    To react to something that Senator Berrios just told you. 
We are proud American citizens. I know, I respect my fellow 
independent from Puerto Rico. I do respect them and their 
ideal.
    But you know, we're proud American citizens. If you poll in 
Puerto Rico whether people want to continue having their 
American citizenship, it's going to be like 80 or 90 percent 
again. So the votes should be meaningful.
    That question to me is not meaningful because we already 
know the answer to it.
    Mr. Berrios. Senator, of course we respect independent 
people. Everybody in the world does, you know.
    [Laughter.]
    Mr. Berrios [continuing]. Or Commonwealthers and I'm very 
glad that after 60 years of persecution of independent forces 
now we have the right to speak, like, you know.
    This is all--we could blabber on for--nothing is going to 
happen here. Nothing. You will not act. I repeat.
    Do not fool yourself. You will not act as long as there is 
a possibility offered. You will not act. But you have to act to 
decolonize.
    Think about it. How do you do it? How do you decolonize 
without including statehood as one of the alternatives.
    Senator, Pierluisi said, Resident Commissioner's bill will 
go nowhere. This means I am grateful that it will go nowhere.
    Senator Heinrich. Governor, you wanted to add something?
    Mr. Padilla. Yes, Senator, thank you.
    Precisely on the White House Task Force report they suggest 
the idea of a two question referendum on if we want to remain 
part of the United States, be in the Commonwealth and 
statehood, the alternative and not independence of sovereign 
being not part. The two options that win will go to a second 
question. We endorse that.
    But let me go farther. To exclude--let's say for the sake 
of argument that Commonwealth and what they call current 
territorial status the same. We have to exclude that.
    Statehood lose in 1993, in 1998 in 1967. We are not 
proposing to exclude statehood because they lose. Exclude the 
Commonwealth from the ballot is disenfranchisement. That's why 
I am in favor of including all the formulas, all the ballot 
formulas, all the ballot options in the ballots. I think that's 
fairness.
    The majority of the people of Puerto Rico have been voting 
for the Commonwealth every time the Commonwealth is in the 
ballot. Now they want to take it, disenfranchise the majority 
of Puerto Rico.
    I know that you, Senator, not the Chairman, not the Senator 
Murkowski will take place and that will be taking place.
    Mr. Berrios. Talking what?
    Mr. Padilla. Talking place on----
    The Chairman. Let me give you my assessment of where we 
are.
    First, gentlemen, you should know that this committee has 
made a special focus on trying to resolve issues that I usually 
characterize as running longer than the Trojan War. They just 
kind of go on and on and on. We've had some success in a number 
of areas.
    A few weeks ago there was a report in one of the newspapers 
that we had sent more bills to the Floor of the U.S. Senate 
than all the other Committees together. So that's because we 
try to find common ground.
    We are going to need your leadership here in order to do 
that.
    Let me give you my take in terms of where we are.
    I think we made some progress.
    Two out of 3 of you seem to believe that the current status 
and enhanced Commonwealth are no longer options. They're no 
longer options on the table, two out of 3 of you.
    So looking forward it seems to me that it's especially 
important to see if the 3 of you can come to an agreement on 
the language of a ballot that, in effect, has 2 remaining 
options: statehood, or sovereignty as an independent or freely 
associated State.
    Absent an agreement of the 3 of you it seems that this will 
just go round and round some more. So we very much look forward 
to working with you. I'm sure the people of Puerto Rico want 
this resolved. We are interested in working constructively and 
closely with you.
    So unless Senator Murkowski wants to add anything else, or 
Senator Heinrich, I'll let Senator Murkowski have the last 
word.
    Senator Murkowski. I don't mean to have the last word.
    The Chairman. No, sure.
    Senator Murkowski. But I wanted to share with you a thought 
that I just shared with the Chairman here in reflecting on 
Alaska's statehood fight. It was a 90-plus year fight. I'm 
reminded that it took us 90 years to get to statehood and for 
us the only decision was up or down on statehood.
    The fact that Puerto Rico has been engaged in this issue 
for also, many, many decades, but the fact that you have as 
many options as you do makes it perhaps, even more difficult 
than Alaska faced when it was just an up or down. As I would 
agree with the Chairman that the process for determining what 
the options will be on the ballot and how they are defined, is 
as critical as anything that we have discussed here today.
    So it's a challenge to you and those that you represent to 
try to address how we define what the options are and then how 
they would therefore be defined on this ballot moving forward.
    So, I thank the Chairman. Certainly thank you, gentlemen, 
for leading the discussion here this morning.
    The Chairman. Gentlemen, thank you.
    As you can see, the Senators here and both political 
parties want to work closely with you and get this resolved.
    With that the Energy Committee is adjourned.
    [Whereupon, at 10:58 a.m. the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

             Alianza pro Libre Asociacion Soberana,
                 (Alliance for Sovereign Free Association),
                                       Mayaguez, PR, July 18, 2013.
Hon. Ron Wyden,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Senator Wyden

    The Committee on Energy and Natural Resources (CENR) has scheduled 
a Status Hearing Session to be held on August 1, 2013 ``to receive 
testimony on the November 6, 2012 referendum [plebiscite] on the 
political status of Puerto Rico and the Administration's response.'' As 
publicly announced, the three political parties that participated in 
the plebiscite in representation of one or two of the questions to be 
answered during the vote were invited to depose before the CENR. To my 
knowledge, no other groups or organizations were invited. 
Unfortunately, this leaves out the Alliance for Sovereign Free 
Association (ALAS, by its Spanish acronym), which I am honored to 
represent as its acting president.
    As you probably know, although not a political party ALAS is a 
citizens organization that was certified by the Puerto Rico Elections 
Commission to represent the option of Sovereign Free Associated State 
(Estado Libre Asociado Soberano or ELA Soberano), one of the status 
alternatives in the aforementioned referendum. This option obtained 
454,768 votes (33.34% of total votes). Therefore, by excluding ALAS, 
the CENR in fact leaves these voters without a legitimately recognized 
voice during the Hearing.
    The CENR's actions with respect to ALAS might be construed as an 
unintentional oversight, but many view it as disrespectful--or at the 
least, inconsiderate--towards the only organization that has official 
recognition as the defender of Free Association, an option that may 
very well become the status preference of the majority of Puerto 
Rican's, and probably the most convenient for the United States of 
America as well. I stress this point because future congressional 
actions may require the representation of the free association option 
and, at present, that representation falls upon ALAS. This fact should 
not be overlooked by the CENR if its procedures are truly to be dressed 
in the cloth of democracy.
    Be it as it may, ALAS still wants to make its case before the CENR 
and, therefore, asks that this letter and the enclosed written 
statement be accepted by the Committee and included in the CENR's 
record of the Status Hearing Session. We believe this to be of 
sufficient importance as to merit mention during the Hearing, at least 
to the extent that you publicly state a reasonable and accurate 
synopsis of our position which, we stress once again, is the position 
of the 33.4% of the voters we represent.
            Sincerely,
                                            Jose L. Arbona,
                                            ALAS, Acting President.
                                 ______
                                 
Statement of Jenniffer A. Gonzalez-Colon, New Progressive Party Leader 
        and Former Speaker, Puerto Rico House of Representatives
    Mr. Chairman, Ranking Minority Member Murkowski, and other 
Distinguished Members:

    Thank you for holding this hearing on Puerto Rico's plebiscite on 
the territory's political status last November and the Obama 
Administration's response.
    The territory's status is the central issue of the islands, which 
have a population of nearly 3.7 million. It is fundamental: whether 
Puerto Ricans will continue to be Americans and obtain equality within 
the country or become the people of a separate nation, and whether 
there is another alternative other than temporary, powerless, and 
unequal territory status. The issue defines our politics and political 
parties. It is a basic issue of democracy, which requires 
representative government--a right we lack at the national government 
level. It raises questions about the appropriate Federal as well as 
territorial policies on many issues. It retards our economic and social 
development.
    Puerto Rico has been under the U.S. flag since the United States 
took the islands in connection with the Spanish-American War and 
Congress has granted U.S. citizenship since 1917, but Congress has not 
yet determined the ultimate status of the territory.
    The Federal government has professed a policy of `self-
determination' for decades. But Congress has unintentionally enabled a 
minority in Puerto Rico to confuse and frustrate a local decision among 
Puerto Rico's status options. Congress has let this happen by not 
acting clearly and as a whole on the questions of Federal law and 
policy that are the primary issues raised by the alternative to 
statehood, nationhood, and territory status for which a minority still 
hopes.
    The plebiscite and some presidential and congressional actions 
since have made important strides towards resolution of the issue--but 
the Obama Administration and the Congress need to do more in the 
interests of the Nation as well as of the territory.
    According to the U.S. Supreme Court, Puerto Rico is an 
unincorporated territory under the broad powers of Congress to govern 
territories except to the extent that the fundamental rights of 
individuals would be infringed. Our people have been permitted to 
exercise self-government on local affairs similar to the authority that 
States possess.
    But we are only represented in the government that makes our 
national laws by a sole resident commissioner in the House of 
Representatives who can only vote in committees to which she or he is 
assigned.
    Additionally, although Puerto Rico is considered to be a State 
under most laws, it--and its residents--can be--and are--treated 
differently than the States and the District of Columbia in some major 
programs. The differences disadvantage most Puerto Ricans, although 
there are some tax benefits for companies and individuals from the 
States and for the wealthy.
    The United States did not make clear during the first half of the 
last century that Puerto Rico would eventually obtain equality within 
the Nation. It discouraged independence. Meanwhile, Puerto Ricans grew 
close to the United States and prized U.S. citizenship and other 
benefits of being a U.S. area.
    These factors resulted in some nationalists seeking to create a new 
political status: a hybrid of statehood, nationhood, and territory 
status. Proposals for such a status have been made in every decade 
beginning in the 1950s.
    Federal Executive and/or Legislative branch officials have always 
seriously considered the proposals. But, ultimately, the proposals have 
always been rejected as conflicting with the Constitution and basic 
laws and policies of the United States and impossible for structure of 
government reasons.
    The proposals are called words in Spanish that literally translate 
as ``Associated Free State'' and are referred to as ``Commonwealth'' in 
English. The names come from the names of Puerto Rico's local 
government adopted with the territorial constitution.
    In authorizing the constitution, Congress and the Federal Executive 
branch said that the territory's basic status and congressional powers 
regarding the territory would not change with the constitution. And 
Puerto Rico's governor and resident commissioner acknowledged this in 
congressional hearings at the time.
    The confusion about an alternative to statehood or nationhood 
really began with the constitution giving the territorial government 
different official names in Spanish and English and language used in 
documents related to the constitution's approval.
    The Spanish name strongly suggested to Puerto Ricans that there was 
a new status. Indeed, as you know, a freely associated state is very 
different from a territory--and from Puerto Rico's status--in U.S. and 
international law. A freely associated state is a nation that 
associates with another in a joint governing arrangement that either 
can end. It has usually been a territory that associates with its 
former national governing power as it attains nationhood.
    The constitution's English name has no real status meaning. Four 
States use ``Commonwealth'' in their official names. Another territory 
does as well.
    Federal officials could accept the meaningless English name of 
``Commonwealth'' but would certainly not have approved ``Associated 
Free State,'' which would have misleadingly suggested nationhood.
    After the constitution was adopted, officials who controlled Puerto 
Rico's government from the political party that did not want true 
nationhood or statehood told Puerto Ricans that a new status had been 
established. Federal officials did not agree that Puerto Rico was no 
longer a territory or no longer subject to Congress' territory 
governing power, but they did not publicly contradict and, sometimes, 
contributed to the misimpression to counter foreign `Cold War' 
criticism of U.S. colonialism.
    The `commonwealthers' also began to try to get Federal agreement to 
create a new status. Thus, the Federal rejections in every decade 
beginning with the Fifties that I noted.
    All of the ``Commonwealth'' proposals had the same or similar 
constitutional and other deficiencies, leading to the Federal 
rejections.
    So, ``Commonwealth'' and the words that literally translate as 
``Associated Free State'' in Puerto Rico misleadingly have three 
distinct meanings in the islands--the territorial government, Puerto 
Rico's current status, and the `Commonwealth' party's proposal for a 
new status. The different meanings confuse Puerto Ricans as well as 
people outside the territory.
    Under the `Commonwealth' party's definition since 1998 for the new 
status, the United States would be bound to an arrangement with Puerto 
Rico under which the insular government could nullify the application 
of Federal laws and Federal court jurisdiction and the insular 
government could enter into international agreements and organizations 
that require national sovereignty.
    The Federal government would also be obligated to grant the insular 
government a new subsidy and most of its lands in the islands and 
required to continue to grant all current program benefits to Puerto 
Ricans, U.S. citizenship, and free access to goods shipped from Puerto 
Rico.
    Executive branch officials and congressional committee leaders--
including you, Mr. Chairman, and Senator Murkowski--have said that this 
proposal is impossible for constitutional and other reasons during each 
the Clinton, George W. Bush, and Obama Administrations.
    Each of these administrations recommended that Puerto Ricans choose 
among the Federally recognized status options. These include: 
statehood; independence; true nationhood in a free--that is, 
unilaterally terminable--association with the U.S.; and continuing 
territory status for a while longer.
    Territory status, whether called ``Commonwealth'' or not, cannot 
resolve the status issue because it cannot provide for equal voting 
representation in the Federal government. As long as Puerto Rico is 
subject to congressional Territory Clause power, its U.S. citizens will 
have the right to petition for statehood. And as long as Puerto Rico is 
an unincorporated territory, Puerto Ricans will have the right to 
petition for nationhood.
    Further, territory status is not supported by any of Puerto Rico's 
political parties or status factions. Even the ``Commonwealth'' party 
wants a fundamentally different governing arrangement than the present 
one; it just wants one that the Federal government cannot agree to 
under the Constitution and does not want to agree to because of basic 
United States policies and concepts. The party will only say that it 
accepts the current status until it can have what it wants under its 
false assumption that Puerto Rico is not subject to Congress' 
constitutional authority under the Territory Clause.
    Puerto Ricans had voted on status before the past three Federal 
administrations recommended Puerto Ricans choose among the Federally 
recognized status options, but all of the votes were confused by 
impossible ``Commonwealth'' proposals.
    With boycotts by the statehood and independence parties, a 
plebiscite in 1967 resulted in a 60% majority for a ``Commonwealth'' 
proposals different than the current governing arrangement. But, when 
its proposals were written as Federal legislation in the early 1970s, 
the bill was opposed by the President of the United States and defeated 
in the House subcommittee.
    A second plebiscite was held in 1993. No proposal won a majority 
but another ``Commonwealth'' proposal different than the current 
governing arrangement obtained a slight plurality over statehood. It, 
too, however, was judged to not be viable by the President and U.S. 
House leaders.
    Statehood won the most votes among the status options of a third 
vote in 1998 but a bare majority of the vote chose no status option. 
There were campaigns for not making a choice led by advocates of the 
current ``Commonwealth'' status proposal and by other neo-nationalists.
    The confusion about a ``Commonwealth'' option other than territory 
status prompted President Clinton to take several actions.
    One was to establish the President's Task Force on Puerto Rico's 
Status to make recommendations and answer questions regarding the 
options and process for determining the territory's ultimate status 
until that status is determined.
    Another measure was to propose $2.5 million for a plebiscite on 
options proposed by Puerto Rico's tri-partisan Elections Commission 
that the Federal Executive branch determined were not incompatible with 
the Constitution and basic laws and policies of the United States. 
Despite quiet lobbying against the legislation by the ``Commonwealth'' 
party, it was enacted into law in 2000. The plebiscite intended for 
2001 was not held, however, because a ``Commonwealth'' party 
administration in Puerto Rico knew from positions of the Clinton and 
Bush Administrations that the new ``Commonwealth'' status proposal 
could not be an option.
    So, the President's Task Force under President Bush recommended 
that Congress authorize a two-question Puerto Rican referendum status 
choice. The threshold question was to be whether Puerto Ricans wanted 
the current territory status to continue. If we did not, the second 
question would be whether we wanted statehood or independence, with 
nationhood in a free association with the U.S. an additional option if 
Congress wanted to add it.
    Under the leadership of Resident Commissioner Pierluisi, now also 
president of our statehood party, the House in 2010 passed a bill for a 
referendum similar to that recommended by the Bush Task Force. There 
would have been a free association option, and territory status would 
have been an option on the second question as well as the first.
    The ``Commonwealth'' party opposed the legislation, calling instead 
for a referendum on statehood--including in testimony to this 
Committee.
    For the past quarter century, congressional leaders and Federal 
Executive branch officials have consistently responded to Puerto Rican 
requests for legislation to enable a Puerto Rican status choice by 
trying to enact such a bill. All efforts--except for President 
Clinton's in 2000--have been blocked in Congress at the request of the 
``Commonwealth'' party. It has ultimately lobbied to prevent any law 
from being enacted because all bills have chipped away at the myth that 
a Puerto Rican statehood petition would be rejected because of who 
Puerto Ricans are and because none of the bills held the potential for 
becoming a law that would validate the idea of a new ``Commonwealth'' 
status.
    In March 2011, President Obama's Task Force on Puerto Rico's Status 
recommended that Puerto Ricans be enabled as soon as possible to choose 
among Puerto Rico's options: continued territory status; statehood; 
independence; and nationhood in a free association with the U.S. The 
Obama Task Force did not recommend a choice process but expressed ``a 
marginal preference'' for one somewhat different from that recommended 
by the Bush Task Force, although still in a two-question format to 
increase the likelihood of a definitive result.
    After trying to obtain a tri-partisan agreement on a plebiscite 
that proved to be unachievable because of ``Commonwealth'' party 
obstructionism, Governor Luis Fortuno proposed a vote similar to that 
recommended by the Bush Task Force with a true free association option 
labeled ``Sovereign Associated Free State'' out of deference to the 
``Commonwealth'' party. As Speaker of Puerto Rico's House of 
Representatives, I sponsored the final legislation for the plebiscite, 
which was enacted into law by the elected representatives of the people 
of Puerto Rico.
    The ``Commonwealth'' party urged a vote for continuing territory 
status although it argued that Puerto Rico is not a territory despite 
determinations that it is subject to Congress' territory governing 
powers by the U.S. Supreme Court, successive presidential 
administrations--including the Justice and State Departments, the full 
U.S. House of Representatives, the leaders of both national political 
parties of this Committee, the Government Accountability Office, and 
the American Law Division of the Congressional Research Service.
    The plebiscite was held in conjunction with the territory's 
quadrennial elections. The results were 54% against continuing 
territory status and 61.2% for statehood among the alternatives to it. 
Nationhood in a free association with the U.S. obtained 33.3% and 
independence 5.5%. The vote petitioned Congress and President Obama to 
begin the transition of Puerto Rico to equality within the country.
    Having lost the plebiscite and the representative to the Federal 
government position, ``Commonwealth'' party leaders, who very narrowly 
won control of the governorship and Puerto Rico's Legislative Assembly 
in the elections, are trying to subvert the democratic process by 
contending that the plebiscite was unfair and arguing that it was 
inconclusive.
    They say that the plebiscite was unfair because it termed the 
current status ``territorial'' and because it did not include their 
proposed new ``Commonwealth'' status. But these complaints fly in the 
face of the Federal determinations I have referenced.
    They say it was inconclusive because a minority of voters did not 
choose among the alternatives to territory status and they assert that 
these blank ballots should be counted in the percentage results 
although the blank ballots can represent no possible status option.
    The percentage results I have cited were certified by the tri-
partisan Puerto Rico Elections Commission in accordance with law and 
common election practice. The Supreme Court of Puerto Rico, in Suarez 
Caceres v. Comision Estatal de Elecciones (CEE), 176 DPR 31, as 
recently as 2009, decided that blank ballots and void or not-
adjudicated ballots are not to be counted for the purpose of 
determining majorities and the results of a race. The Court declared 
that

          ``. . . such a vote may in no way be counted in order to 
        influence or affect the result of an election, referendum or 
        plebiscite, among other electoral events. As stated in Burdick 
        v. Takushi, [504 U.S. 428 (1992)], `[a]ttributing to elections 
        a more generalized expressive function would undermine the 
        ability of States to operate elections fairly and efficiently'. 
        '' (Suarez Caceres v. CEE, Page 74).

    In fact, the idea of counting blank ballots in the determination of 
the results of a status plebiscite was specifically rejected in a 
concurrent majority opinion:

          ``In a future plebiscite it is reasonably possible that one 
        proposal for a change of political status may gain over 50% of 
        the vote total. Adjudicating blank ballots and fictional votes 
        artificially enlarges the electoral universe and diminishes the 
        proportion of votes validly cast for the contending proposals. 
        This hinders and interferes with the verification of a majority 
        mandate for a change of status in the vote canvassing. 
        Meanwhile it would only grant the advantage of inertia to the 
        existing condition, which would remain in place by frustrating 
        the majority will through a distorted vote count'' (Suarez 
        Caceres v. CEE, Page 91).

    The ``Commonwealth'' party's argument is that those who do not 
participate in a free and fair election should overrule those who do. 
Open elections are not determined by those who do not vote.
    The Obama Administration has agreed with the people of Puerto Rico 
rather than the ``Commonwealth'' party. The President's spokesman 
embraced the plebiscite and recognized that there were majority votes 
to resolve the issue and for statehood. He also said that the Congress 
should act to enable the Puerto Rican self-determination and that the 
Administration would work with Congress to this end.
    Understanding that ``Commonwealth'' party government opposition 
would probably prevent the Congress as a whole from implementing the 
plebiscite choice, the White House and the Justice Department proposed 
another vote but under Federal auspices so that it would be more 
difficult to dispute the will of the people.
    The proposal is modeled after the plebiscite legislation that the 
Clinton White House got enacted in 2000. $2.5 million would be provided 
for a plebiscite on options that would ``resolve'' the status issue 
proposed by the tri-partisan Elections Commission to the extent that 
the Federal Justice Department agrees with the proposed options. This 
would exclude the current status because a territory status cannot 
resolve the issue and it would, of course, exclude the proposed new 
``Commonwealth'' status.
    As a Puerto Rican, I am deeply appreciative of the actions that the 
Obama White House has taken on Puerto Rico's status issue. But it is 
very disappointing and curious that the Administration has chosen to 
not testify at this hearing on the plebiscite and its response despite 
your request, Mr. Chairman. The Administration not testifying at any 
congressional hearing on the issue that the President's Task Force on 
Puerto Rico has reported is the territory's most important and key to 
addressing many of the islands' toughest challenges is a failure to 
fulfill a responsibility of office.
    Executive branch advice and perspectives are essential to the 
legislative process in our system of government, which separates 
powers. Every previous Federal administration that has been called upon 
to appear at hearings on the status issue has done so. The President's 
Task Force is co-chaired by a designee of the attorney general who can 
testify if it is desired that the White House co-chair not do so. The 
Executive order establishing the Task Force, which President Obama 
endorsed, requires the Task Force to answer questions and advise on the 
options and process for resolving Puerto Rico's status issue. The 
President's spokesman said that the Administration would work with the 
Congress to respond to the plebiscite. The Administration has a good 
story to tell. And there is no real political downside. It would 
embarrass Governor Garcia Padilla--but telling the truth about issues 
is an obligation of government.
    Mr. Chairman and Members, the Puerto Rico status issue is a basic 
question of democracy, equality, and justice. Puerto Ricans have served 
side-by-side with other Americans in the Armed Forces in every conflict 
since World War I. In battle, the sacrifice, blood, and life of Puerto 
Ricans is equal to that of other Americans, but in peace, at home, 
Puerto Ricans are second class citizens unless they move to the 
States--which we can freely do as U.S. citizens. In fact, almost three 
out of every 10 Puerto Ricans alive has obtained equality and statehood 
through an airline ticket simply by moving to the State. And there are 
1.2 million more people of Puerto Rican origin in the States than there 
are people of any origin in the islands.
    For decades, Puerto Ricans have been told to come back to 
Washington when they decided what they wanted among the possible 
options for the islands' status. Now, in a free, fair, open, and 
democratic election called by elected representatives, the people of 
Puerto Rico have voted to replace the territory status misleadingly 
known as ``Commonwealth'' and petition for a beginning of the 
transition to the equality and permanence of statehood. It is incumbent 
upon this Congress to act to ensure that the colonial status of Puerto 
Rico--inconsistent with American values--is finally replaced.

    Exhibits 1-2 have been retained in committee files.
                                 ______
                                 
   Statement of the Board of Puerto Ricans in Minnesota,** Edina, MN
    Our organization, PR MN, a political-cultural association was 
formed in the Twin cities of Minneapolis, St Paul, to engage in the 
process of discussion and negotiations underway in Congress in respect 
to the political status of Puerto Rico.
    We favor Independence with close ties to USA or a sovereign form of 
government, such as Associated Republic or enhanced commonwealth. The 
term soberanista incorporates those options.
    We have participated in past failed attempts to solve this issue, 
e.g. the ``Young bill'' in the 1990's and others.
    We hope that in light of the recent plebiscite of November 2012 and 
the Presidential Task force recommendations, that Congress will enact 
legislation to move forward in resolving this issue that has engaged 
Puerto Rico for 115 years, taking away time, energy and resources from 
solving our very pressing economic and social issues.
    We have the following positions on the current issue being 
discussed in the Senate and that will be subject of hearings in the 
House of Representatives when HR2000 is reviewed. We present these 
recommendations in a spirit of collaboration towards the solution of 
this old issue. We are very aware that Puerto Rico is facing great 
challenges in economic and social issues as well and that solution of 
this status issue will greatly resolve some of these, as they are in 
some ways a consequence of the stalemate in solving this status issue.
    We ``Puerto Ricans in Minnesota'' want to be part of the political 
process occurring in Congress. The form of involvement of the Puerto 
Ricans living in the USA should be specified early on the negotiations 
and should be a high priority part of all discussions and legislations 
There are almost 4 million Puerto Ricans or Puerto Rican descendants 
outside the island, possibly 20,000 living throughout the state of 
Minnesota. Most of us have family there; many have real estate 
properties and are clear all Puerto Ricans in USA will be also affected 
by any status change. PR has been dealing with this issue for 115 years 
since we became an unincorporated territory as a result of the Spanish 
American War of 1898. The President's Task Force on Puerto Rico's 
Status, acknowledges, together with a series of official statements by 
U.S. authorities over the past 20 years, that Puerto Rico is an 
unincorporated territory of the United States under the sovereignty of 
the United States.
    We all feel the recent status plebiscite results are being 
distorted and misrepresented as showing the statehood choice won when 
in reality, as compared to 1998, this options lost 2 %.(Data can be 
provided on request)
    We support the independentista/soberanista options and oppose 
statehood. We feel statehood will cause severe economic, cultural, and 
linguistic disruption of a very homogeneous Latin-American culture and 
nationality unsurpassed in its determination to prevail. We recognize 
and appreciate USA assistance in solving some of our social, 
educational and health problems but we feel it is imperative to move 
out of the current state of dependency and take responsibility for all 
our affairs and open the way for other options of relating to this 
globalize world we live in the following ways: international commerce 
away from the current Cabotage laws, more economic and political 
relations with Latin America and other benefits that will open up. The 
current colonial form of commonwealth has no power in Congress to 
legislate, and the Resident Commissioner has no vote on issue that 
affects us. The recent vote was clearly against this form Of 
Commonwealth.
    We recognize status options that will include two sovereign nations 
agreeing to share resources in an equal basis and have equal rights, 
e.g. Canada and the UK, and other international options to be reviewed. 
These forms.will be included under the umbrella term of soberanistas 
and can take forms such as Associated Republic or enhanced commonwealth 
and need to be defined clearly prior to any referendum and through a 
constitutional assembly to be convened.
    We feel the Congress has eluded its responsibility to sponsor a 
process of decolonization and should act now to address this matter of 
status without further delay
    We strongly favor a constitutional Assembly in Puerto Rico with 
participation of US Puerto Ricans as the best process to clearly define 
the formulas to be negotiated and to delineate the transition process 
to enact the options, especially the independence/soberanista one and 
then submitting these to a final island wide referendum including USA 
Puerto Ricans. The final referendum should be UN supervised with 
international observers specially from Latin-American countries...
    We believe that Puerto Ricans have as much right to obtain support 
from the international community on its quest for independence/
soberania as the US had to get support from other countries in its own 
Independence movements. Many times in the last 115 years the Latino 
Americans diverse political organization, e.g. COPPAL, i.e. Permanent 
conference of Latin American Political parties, and recently the 
Congress of Latin American and Caribbean states (COPAL) have expressed 
support for this option and in the words of President Martin Torrijos 
of Panama, the keynote speaker at the Latin American and Caribbean 
Congress in Solidarity with Puerto Rico's Independence held in Panama 
City in November 2006:

          ``The basic problem is that Puerto Rico is the only Hispanic 
        American nation that remains under a colonial regime. For Latin 
        Americans, forever correcting this anomaly must be a matter of 
        principle and a priority of continental proportions. What 
        remains is to agree on whatever is necessary to concrete the 
        Puerto Rican right to constitute an independent republic.''

    We are available to fully participate in the process under way and 
look forward to further interactions through the Congressional offices 
of our representatives from our state of Minnesota.
    We further request that this statement be included in the official 
record of the committee on energy and natural resources scheduled for 
hearing on Aug 1, 2013
            Respectfully submitted,
                                            Miguel E. Fiol,
                                                     coordinator,**
                                           Elsa Perez Vega,
                                                       coordinator,
                                              Alan Panelli,
                                            Mari Isa Perez,
                                              Myrna Suarez,
                                      Juan Ruas and others.
                                 ______
                                 
  Statement of Dennis O. Freytes, American Veteran, former Professor 
   (PMS) and Department Director University of Puerto Rico, VP NAUS-
 American Veterans SE Region, Community Servant, National Association 
 for Uniformed Services, Vice-President SE Region (FL, GA, SC, AL, MS, 
                             MO, AR, & PR)
    As a Patriotic statutory US Citizen, I thank this Honorable Body 
for allowing my factual based Testimony that strikes at the heart and 
essence of our American Democracy-Federal ``consent of the governed''; 
just representation!
    On behalf of millions of disfranchised loyal Americans (including 
American Veterans)--we respectfully ask the Federal Government to do 
right--promptly move to end the political oppression of 2d Class US 
Citizens and Veterans (mainly residing in the US Territory of Puerto 
Rico)--that don't have full human individual civil rights, and 
benefits; are facing institutional discrimination--to include no 
Federal Vote, just representation or un-permanent US Citizenship while 
under the will of Congress.
    We fight for hard working and loyal patriotic US Citizens that 
includes my Mother-Gloria E. Gonzalez-Marrero (School Teacher & Social 
Worker), late Father-Celio Freytes Menendez (a Borinqueneer Angel) who 
has the Combat Infantrymen's Badge w/Star (WW-II & Korea)--fought with 
the brave Hispanic segregated US 65th Infantry Regiment 
(Borinqueneers); Family, and Friends--that want a Federal Government 
that applies equally our ``We the People'' US Constitution; ends 
institutional Voter discrimination and segregation; is honest, fair and 
does right for all!
    We (as other Americans) yearn for truth, equality, justice, and 
dignity as we pursue the American dream! Now, is the time for American 
Patriots (of true grit) to move Congress to enact a sanctioned 
Plebiscite: HR 2000-Puerto Rico's Status Resolution Act (a Statehood 
YES or NO Vote); redress this terrible wrong against the Soul of our 
American democracy! The straight facts (without political spins) are:

          ``Canto claro como un Gallo de Manati!''

    The complex US Territory of Puerto Rico's equal rights quandary, 
that affects millions of discriminated US Citizens, is not only about a 
``Group'' Vote on the status question, but, more important, it's about 
protecting individual civil rights in our representative democracy-
where the US Citizen should be the epicenter of our Republic, not the 
US Government's un-democratic territorial control of the land & People. 
All Federal Laws and US Constitution are supreme in PR. (The Federal 
Government controls or oversees the currency, economy, security, 
borders, shipping, taxes, benefits. . . and all local laws.)
    Our factual history states: in 1898, the U.S invaded Puerto Rico 
(PR), as part of the Spanish American War, and forcefully took it as a 
spoil of combat. . .made it a US Territory (Colony) that for 115+ 
years, falls under the absolute un-democratic control of the Federal 
Government (per the *U.S. Constitution Article 4, trite Territorial 
Clause that states: ``The Congress shall have power to dispose of and 
make all needful Rules and Regulations respecting the Territory. . .or 
property belonging to the U.S.'')
    In 1917, Congress erred in imposing on PR-a statutory ``2d Class US 
Citizenship'' (without all rights responsibilities, & benefits) that 
doesn't permit loyal US Citizens (including fighting US Veterans) to 
vote in Federal elections (to include for their US President-Head of 
State) nor have just representation in the Congress that determines 
their destiny nor permanent US Citizenship, under our noble USA Flag--
actions that conflicts with the spirit of our democracy; constitutional 
civil rights equality amendments!
    During 1901-1922, the ``Insular Cases'' were decided by Federal 
Courts (in a racist era) that supported a biased Congress/ Federal 
Government contention that Puerto Rico was an ``un-incorporated'' US 
Territory (more foreign than domestic. . .); was a possession or 
property that belonged to the US. Thus, Congress had the un-democratic 
power to not fully apply the US Constitution to Puerto Rico! Till 
today, this unequal and un-democratic application of our Constitution 
results in institutional discrimination, and Voter segregation of US 
Citizens, depending on where US Citizens reside under our noble US 
Flag! The ``un-incorporated'' term is not found in our Constitution. It 
is a historic fact that some Congressmen and Federal Judges (of the 
time) as they coined this term--made outrageous racist and biased 
comments, e.g., ``Because of different origin and language. . . Puerto 
Ricans were inferior mestizos; could not govern themselves. . .''--
which incorrectly is still the basis of Federal governance of the US 
Territory of PR!
    Many of these discriminating insular cases, the most egregious 
Bidwell and Balzac have not been completely overturned, but, have been 
sustained in modern Federal Court decisions that still uphold the right 
of Congress to ``differentiate'' (discriminate) when applying the US 
Constitution to PR! Where is the Patriotic outcry against an aged 
wrong; and where is our Federal Government (to include our US President 
and the US Justice Department) that have taken no action to protect 
individual civil rights for all? Are US Citizens from Puerto Rico-still 
seen to be less worthy than other US Citizens?
    Former Chief Judge Torruella (US 1st Circuit Court of Appeals) in 
his Book-has critiqued the judicial system and compares the ``Insular 
Cases'' (1901-1922), that defined the status of Puerto Rico to Plessy 
v. Ferguson (separate but equal doctrine to justify racial segregation) 
that was overturned with Brown v Board of Education (1954)--to Puerto 
Rico's case of un-democratic inequality (2d Class US Citizenship).
    Judge Torruella states, ``The Supreme Court continues to cling to 
this anachronistic remnant of the stone age of American constitutional 
law notwithstanding that the doctrines espoused by the ``Insular 
Cases'' seriously curtail the rights of several million citizens... of 
the US.'' Reflecting on over 115+ years of US un-democratic control of 
Puerto Rico, Torruella further says: ``the disparity of rights that 
result from this relationship has in my opinion for too long been 
relegated to the back burners of American constitutional thought and 
dialogue...'' and ``whatever the future holds for this island, its 
people should strive for the equality which has too long eluded them''.
    Current US District Judge GELPI, in 2008, stated in a decision: ``. 
. .The unequal and discriminatory fiscal treatment given to Puerto 
Rico. . .is conspicuous and egregious. More so, it is not an isolated 
incident of the federal government disparately treating Puerto Rico and 
the nearly four million United States citizens living in or moving to 
this territory.''

  <bullet> Under the Insular Cases doctrine (Balzac vs Porto Rico-
        1922), the court determined that Puerto Rico was an 
        unincorporated territory (more foreign than domestic); only 
        fundamental constitutional rights extended to unincorporated 
        United States territories apply, others can be denied by 
        Congress. . .In an unincorporated United States territory 
        Congress can also differentiate (discriminate) against the 
        territory and its citizens so long as there exists a rational 
        basis for such disparate treatment. Califano v. Torres, (1984); 
        Harris v. Rosario (1980).

    Per US Constitution--PR can only be: a State or Territory under the 
sovereignty of the US. Besides, the only Non-Territorial Statuses are: 
Statehood or Independence, period. But, some distort the truth to fool 
people--by referring to PR's Status as ``Commonwealth'' or translated 
in Spanish-ELA (Free Associated State). These terms are not found in 
the US Constitution! They are (no meaning) political names for a local 
regulated government (with some broad powers) allowed under the control 
of Congress.
    The PR Resident Commissioner represents about 4 million US Citizens 
(that proportionally is equal to six US Representatives and two US 
Senators)--with no vote in Congress. This is not democracy!
    This iconic American Hispanic civil rights issue that strikes at 
the Soul of our Democracy--``consent of the governed''--has not 
received the National attention it merits! But, now we must act with 
truth & fairness (no political incongruence, rhetoric or spin). . .; 
not stereotype, but, soar above political closet bias to advance our 
democracy; ensure equality; break Puerto Rico's trite Territorial un-
democratic shackles!
    *Note: About 5 million US Puerto Ricans have ``voted with their 
feet''--moved to the States with more on the way. . .To help stem the 
flow, PR's Status issue must be promptly resolved.
    Abraham Lincoln & Martin Luther King (which stood for equality; a 
government by & for the People) would be appalled at PR's un-equal 
Federal status! US President Regan said: it was an ``un-natural'' state 
(favored statehood); is among other US Presidents, Gov. Jeb Bush, Rep. 
Serrano, Attorney General Thornburg. . .and Others that are for ending 
a 2d Class US Citizenship; un-democratic Territorial Status.
    Moving forward, PR held an internal plebiscite (Nov. 2012). 
Results: 54% (958,915) --end Territorial Status; 61+% (824,195) 
Statehood; 5% (74,812) Independence. . . (Voted: 78%-See Notes below.)
    However, the political misinformation, and misinterpretation of the 
results have begun; some are trying to discredit a democratic 
Plebiscite where everyone had the opportunity and duty to vote. These 
crafty Politicians don't want some ballots (left in blank) to count; 
try to impossibly divine how People would vote! The plebiscite results 
were clear--a Non-Territorial Status through Statehood won as duly 
ratified by the PR's Elections Commission. The People's democratic Vote 
(within the law) must be respected by all!
    After 115+ years of non-action, the Federal Government must not 
cloud the truth or give excuses, but, promptly intervene to protect all 
individual civil rights; end an un-democratic Federal Territorial 
Status that goes against the grain of our American democracy; enact HR-
2000 (``Puerto Rico Status Resolution Act''--yes or no vote on 
Statehood); ratify any free majority decision for Statehood; start the 
transition process (which should not take more than 3-5 years) to admit 
Puerto Rico as the 51st State of our Union.
    In the final analysis, the duty of the Federal Government (which at 
times has been benevolent) is to: educate; end political 
discrimination; enact HR 2000 or at least conduct a self-determined 
Plebiscite with honest constitutionally non-territorial defined Options 
(that don't fool people); achieve political equality:

  <bullet> Statehood (US Citizenship & US Constitution; PR State 
        Sovereignty and Identity)
  <bullet> Independence (PR Citizenship & PR Constitution; loss of 
        protection of US Constitution). *Associate Independence: Free 
        Association or ELA Soberano--are forms of Independence because 
        a Nation can't be sovereign or enact a pact when under the 
        loyalty, Citizenship & Constitution of another Nation.)
  <bullet> The US Territory option should not be in play because it is 
        un-democratic; contains a Puerto Rican rejected repressive 
        dinosaur statutory 2d Class US Citizenship; is incongruent/ 
        conflicts with equal civil rights amendments of the US 
        Constitution; our representative democracy.
  <bullet> Let all statutory US Citizens (born in PR) vote (no matter 
        the residency) because the outcome affects them (have 
        ``standing'')--could lose their, under the will of Congress, 
        un-permanent US Citizenship.
  <bullet> A Pact can contain certain benefits. . .; but, it surrenders 
        certain sovereign rights until the Pact is terminated by either 
        side; with no opportunity for Statehood or permanent US 
        Citizenship.
                      macro contributions include
    US Puerto Ricans are the 2d largest US Hispanic segment of our US 
population-about 9 million strong with most residing in the States (5m) 
& 4m in PR--whose Ancestors (roots/ heritage) led to the discovery of 
Florida; brought advance civilization (of the times), Christianity, 
Horses, Cattle, Pigs. . . to the settlement of the USA--107 years 
before the Pilgrims landed. . . Plus, Puerto Ricans supported and 
fought in the US War of Independence with General George Washington; 
Civil War...
    Puerto Rico (with more population than 24 States) is the oldest 
Territory in US History; has bravely defended the US Flag to include 
the US 65th Infantry Regiment (Borinqueneers-since 1898) that suffered 
segregation, discrimination, and un-equal US Citizenship, yet, bravely 
fought for all of us. Its Colors were passed to the PR National Guard 
which is serving, along with other Patriots from PR, in the Global War 
on Terrorism. They loyally sacrifice; fight. . . shed blood in 
defending the US--for the good of all.
    General of the Armies (5 Stars) Douglas MacArthur once said: ``. . 
.the Puerto Ricans. . .of the gallant 65th Infantry on the battlefields 
of Korea by valor, determination and a resolute will to victory give 
daily testament to their invincible loyalty to the United States. . 
.They write a brilliant record of achievement in battle and I am proud 
indeed to have them in this command. I wish that we might have many 
more like them!''
    PR is a valuable US Territory, with an educated bi-lingual Work 
Force, that serves, among other things, as a unique open market that 
fuels about one million American jobs; buys about $21 billion in US 
Goods & Services; is the US world's eighth trading partner, and 4th 
largest purchaser of goods (buys more products from the U.S. mainland 
than many larger countries such as Italy, Russia or China). Also, it's 
an important defense outpost, a big pool for recruiting military 
personnel; a pharmaceutical, Microsoft Computer Programs, and other 
Industries' center of Excellence!
    US Citizens in PR, like other States, are a very complex group of 
people that are legally born US Citizens-part of our US multi-ethnic 
and beautiful ``Tapestry'' of vibrant colors that is united and bonded 
together by loyalty to our US Constitution; common values, a yearn for 
Liberty and pursuit of the American dream. They are very proud of their 
roots, linage, and heritage as part of the shared macro Western 
culture. Plus, as most enlighten US Citizens, they believe in: God, 
love, truth, fairness, justice, democracy, freedom. . .; are hard 
workers, family oriented; community servants. . .--US values engrained!
    Don't align with those that misinform, stereotype, or make biased 
excuses (e.g. culture, language, consensus. . .) or maintain the 
colonial mindset. PR has the same macro-culture as other States. More 
Spanish is spoken in the States than in Puerto Rico! (The US is among 
the largest Spanish Nation in the World; has no official language; is a 
land of Immigrants that comes together for the good of all!)
    Each State has its own sovereignty, identity, diversity, and unique 
customs, so, should Puerto Rico--who's loyal US Citizens, deserve the 
same rights as all! We must stop institutional discrimination; the mal-
interpretation of our modern Constitution. Our Nation is formed by the 
union of States focused on Equality (protected civil rights), Justice, 
Liberty. . .for the good of all!
                             equality now!
    We now own our Constitution; not our fore Fathers! If there are 
constitutional contradictions--conflict between the old un-democratic 
Territorial clause (land domain laws) and the Bill of Rights and other 
equality amendments, the Federal Courts should favor individual civil 
rights. . .; ensure the US Citizen is the focus of our 
democracy...Plus, the 14th Amendment states that you are a US Citizen 
if you are born in a State or Naturalized. (Statehood is the only 
Status that guarantees equal & permanent US Citizenship.)
    The President/Federal Government/Justice Department should move to 
clearly overturn the US Supreme Court Balzac decision (1922) which is 
to US Citizens in Puerto Rico what Plessy v. Ferguson (``separate but 
equal'' doctrine) was to African Americans before Brown v. Board of 
Education. Let's not be incongruent-the US Constitution should equally 
apply to all US Citizens residing in PR; under our grand USA Flag! If 
not, there is discrimination; voter segregation. . .--no Federal 
consent of the governed!
    In the interim, until institutional equality is achieved and the 
Status issue is promptly resolved: Congress must incorporate PR; 
provide more representation, allow six Territory Representatives (TR) 
with full vote in the US House (proportional to the population) which 
isn't prohibited by our Constitution...
    In the long range, amend the US Constitution to ensure it is not 
left to misinterpretation that once you acquire a US Citizenship it 
isn't under the will of Congress, but, under the will of the People's 
US Constitution-with permanency, full rights, responsibilities, and 
benefits! Let us truly set a world shining example of a great Nation 
under a representative democracy for all!
    A representative Government should serve the People, not be their 
Master; unfairly subjugate them with no right to just representation in 
Congress. There is no true democracy without equal representation; 
protected individual civil rights. Even if one US Citizen can't Vote. . 
.it is one too many! The original Territorial Clause was written in 
another biased era. . .when the founding Fathers (with no Women, 
Blacks, or Hispanics participation; some had slaves) brought a wondrous 
general democracy, but, were more focused on uniting sovereign States; 
organizing a Federal Government and US boundaries. . . Thus, based on 
the times, they didn't focus the US Constitution on the US Citizen 
(with equal rights). Now, our democracy has evolved with its 
amendments! Today, US Citizenship equality (per the US Constitution's 
Amendments/ Bill of Rights) is more important. We now own our US 
Constitution; let's make it better!
    Now it's time for bold leadership; Patriots with true grit must 
rise to the occasion! Individual Civil Rights are totemic to our 
democracy; must be protected against ``Federal political oppression'' 
or like former US Patriots said, the ``tyranny of a majority''! 
Territories are undemocratic dinosaurs of our trite colonial past!
    Congress with truth, fairness, & justice must promptly do right: 
ensure equal US Citizenship; per the People's determination--admit the 
US Territory of Puerto Rico as the 51st State of the Union or give them 
Independence! True Patriots shall overcome! Please, ponder this--
    Patriotic Question: If you support the essence of our Democracy-
consent of the governed (just representation); an equal US Citizenship 
& just application of the US Constitution; protected individual civil 
rights; ending political discrimination under our US Flag, then, will 
you heed the truth; take prompt action to end a non-permanent ``2d 
Class US Citizenship'' (that affects millions of US Citizens-including 
fighting American Veterans that can't Vote); end political oppression 
and the trite undemocratic Status of the US Territory of Puerto Rico; 
advance American Democracy; ensure equal US Citizenship?
    THANKS for the great things you do for the good of all: Family, 
Community, USA, and Humanity!
                               * summary
    Based on the facts, (e.g. Insular Cases-Balzac; Harris vs Rosario; 
other Cases; Reports):

          1. Based the racist Insular Cases: Congress can differentiate 
        (discriminate); not apply equally the US Constitution to the US 
        Citizens in PR. . .which goes against the grain of our 
        representative democracy.
          2. The US Supreme Court hasn't decided a case or Congress 
        hasn't written any clear laws to refute: Puerto Rico is an un-
        incorporated (foreign) US Territory...
          3. US Citizens born in Puerto Rico are not covered by the 
        14th Amendment. . . Thus, they don't have a permanent US 
        Citizenship. (Naturalization may only be applied in a State, 
        not on foreign land of an un-incorporated Territory which 
        belongs to the US but it is not a part of it...) Individuals 
        born in Puerto Rico are not US Citizens by virtue of the 
        Constitution of the US, instead they are 2d Class US Citizens 
        by revocable laws of the US Congress.
          4. A Future Congress can revoke the Laws or is not bind by a 
        previous Congress, thus the US Citizenship permanency of all 
        born in Puerto Rico is in question. . .
          5. Most US Citizens born in Puerto Rico have a statutory 2d 
        Class non-permanent US Citizenship, no matter where they reside 
        under our American Flag. . .

    Enclosures* (Facts & Back-up Notes follows.)
---------------------------------------------------------------------------
    * Enclosures have been retained in committee files.
---------------------------------------------------------------------------
                                 ______
                                 
                  Statement of Emilio Pantojas-Garcia
---------------------------------------------------------------------------
     Senior Researcher and Professor of Sociology, Center for Social 
Research, University of Puerto Rico, Rio Piedras. 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="63060e0a0f0a0c4d13020d170c090210231613114d0607164d">[email&#160;protected]</a> Thanks to my research assistant, Luis J. 
Cintron Gutierrez, of the Graduate Program in Sociology at University 
of Puerto Rico, R!o Piedras.
---------------------------------------------------------------------------
     the puerto rico status question: can the stalemate be broken?
---------------------------------------------------------------------------
     Paper presented at the 38th Annual Conference of the Caribbean 
Studies Association, Panel 15 A, What future for the Non-Sovereign 
Caribbean?, Grenada, W.I. June 7, 2013.
---------------------------------------------------------------------------
          The result of what has been said is that while in an 
        international sense Porto Rico was not a foreign country, since 
        it was owned by the United States, it was foreign to the United 
        States in a domestic sense, because the island had not been 
        incorporated into the United States but was merely appurtenant 
        thereto as a possession. Justice Edward Douglas White U.S. 
        Supreme Court, 1901\1\
---------------------------------------------------------------------------
    \1\ Quoted in Christina Duffy Burnett and Burke Marshal (eds.), 
Foreign in a Domestic Sense: Puerto Rico, American Expansion and the 
Constitution (Durham, London: Duke University Press, 2001), 13.

          Finally, at the Herat of this Report and central to the lives 
        of many Puerto Ricans, is the issue of the political status of 
        Puerto Rico. I am firmly committed to the principle that the 
        question of political status is a matter of self-determination 
        the people of Puerto Rico...Both the President and Congress 
        have roles to play to help Puerto Rico settle its future 
        status; I am committed to working with Congress to ensure that 
        a fair, clearly defined and transparent process is available 
        for the people of Puerto Rico to decide on their future for 
        themselves.
          George W. Bush
          Report by The President's Task force on the Puerto Rico 
        Status. March 2011

    Since the United States invasion of Puerto Rico on July 25, 1898, 
the Island experienced several changes in its political system from a 
military government to the current Estado Libre Asociado (Free 
Associated State), known in English as Commonwealth. Yet, as the above 
quotes--one hundred and ten years apart--reveal, the Island continues 
to be a possession of the United States: an unincorporated territory 
that belongs to, but it is not part of that nation. While the United 
States sought to present the creation of a ``Commonwealth'' as an act 
of political self determination and was able to remove Puerto Rico from 
the United Nations' list of non-independent territories, the status 
question continues to be the key axis of Puerto Rican politics and 
U.S.--Puerto Rico relations.
    This essay shall address three issues: why does the status question 
continue unresolved; what is the current status of the ``status 
question''; and finally, can the stalemate on this issue be surmounted.
                     a brief historical background
    Puerto Rico became a colony of the United States as a result of the 
Spanish-Cuban-American War of 1898. Along with Puerto Rico, Cuba and 
the Philippines came under American sovereignty. From 1898 to 1900 
Puerto Rico was ruled by a military government.
    In 1900, with the passage of the Foraker Act (officially the 
Organic Act of 1900), Puerto Rico was afforded a civilian government. 
The U.S President appointed a civilian governor, all cabinet members 
and a Resident Commissioner to the U.S. Congress. An 11 member 
Executive Council was established. All members of the Council were 
appointed by the U.S. President: five individuals were selected from 
Puerto Rico residents while the rest were from those in top cabinet 
positions, including the Island's attorney general and the chief of 
police. The Act provided for a House of Representatives with 35 members 
elected from the local political parties. A Judicial system with a 
Supreme Court was also established, with all judges appointed by the 
U.S. President. All federal laws of the United States were to be in 
effect on the Island and thus a United States (Federal) District Court 
was also established. Puerto Rican citizenship was created thus making 
Puerto Ricans ``foreign in a domestic sense.''
    In 1917, the Jones Act provided a new legal framework to Puerto 
Rico U.S.--relations. American citizenship was granted to Puerto 
Ricans, an elected Senate was created and the Resident Commissioner 
would now be elected as well. The Act also provided a Bill of Rights 
and maintained the elected House of Representatives. As Puerto Ricans 
became U.S. citizens by statute, they could be conscripted into the 
U.S. armed forces but could not run for president, even if they resided 
in the United States.
    No major changes to the Jones Act were made until 1946. With the 
creation of the United Nations and the imminent decolonization 
processes to dismantle the old empires after WWII, the United States 
President Harry S. Truman appointed the first Puerto Rican governor and 
later Congress passed a law allowing for the election of the Puerto 
Rican governor, which came in effect in 1948. Thus by 1948 the basis of 
the ``Commonwealth'' status formula was in place: locally elected 
government with a republican form (three branches), U.S. citizenship 
and a bill of rights. Between 1950 and 1952 the U.S. Congress dealt 
with the Puerto Rican status question by enacting a new ``Federal 
Relations Act'' (Public Law 600) that replaced the Jones Act, and 
providing for a process for Puerto Ricans to form a Constitutional 
Assembly in order to write a local constitution fashioned after, and 
subject to, the Constitution of the United States and the approval of 
Congress. After changes were made by the U.S. Congress, a referendum 
was held on March 3, 1952 and eighty-one percent of the electorate 
supported the creation of the Estado Libre Asociado and the new 
Constitution.
    Much has been said about the fact that the Nationalist Party, which 
opposed Commonwealth as a ``colonial ploy'' to free the United States 
from United Nations supervision on Puerto Rico, was repressed previous 
to the 1952 plebiscite. The fact of the matter is that many nationalist 
were imprisoned and a ``gauge law'' was passed prohibiting seditious 
speech previous to the Commonwealth plebiscite in 1952. The 
participation rate in this plebiscite was 54.7 per cent; the lowest in 
any status consultation. In 1953, the United States government informed 
the UN that Puerto Rico had exercised its right to self determination. 
Following the report, UN resolution 748 (VIII) recognized Puerto Rico 
as an autonomous, non dependent territory with self government and 
associated to the United States, thus removing the Island from the list 
of non-independent territories and exempting the United States from 
reporting on its status and affairs.
    A special issue of The Annals of the American Academy of Political 
and Social Science was published in January 1953 to present and 
celebrate this new form of government as a showcase for democracy for 
the world's ``dependent areas''. The volume included contributions by 
major academic and political figures involved in the making of 
Commonwealth such as: Governor Luis Munoz Marin, head of the Economic 
Development Administration Teodoro Moscoso, Economist John K. Galbraith 
and Harvard law professors Karl Friedrich and Rupert Emerson, among 
others.\2\ In his article ``Puerto Rico and American Policy toward 
Dependent Areas'' Emerson stated:
---------------------------------------------------------------------------
    \2\ The volume concluded with the text of the Constitution of the 
Commonwealth of Puerto Rico.The ANNALS of the American Academy of 
Political and Social Science January 1953, 285.http://ann.sagepub.com/
content/285/1.toc

          [T]he most distinctive element is that they [the Puerto Rican 
        people] now have for the first time in their history given 
        themselves a constitution and given their consent to their 
        relationship to the United States (...) It is arguable that the 
        status which they now have does not differ greatly in substance 
        from that which they had before; but to press that argument too 
        far would be to ignore the great symbolic effect of entering 
        into a compact with the United States and governing themselves 
---------------------------------------------------------------------------
        under an instrument of their own fashioning. . .(p. 10)

                             the stalemate
    Within seven years of the creation of Commonwealth, the very 
government that fashioned it was requesting ``cosmetic'' changes to Law 
600. In spite of all the maneuvers, the world and many Puerto Ricans 
continued to denounce the Island status as colonial. The Fernos-Murray 
Bill was introduced in Congress in 1959 to enact those cosmetic 
changes. This would be the first of over a dozen bills that throughout 
the years ``died'' in Committee or were rejected by one of the chambers 
of Congress not making it to the next.
    Since 1959 there have been three noteworthy initiatives in 
Washington to modify the Puerto Rico status. Two of these initiatives 
came from the U.S. President and occurred in the context of major 
shifts on inter-American policy. The first Came from the Kennedy 
Administration and was linked to the Alliance for Progress. The 
Alliance was a policy shift to counter the potential spread of 
socialist revolutions throughout Latin America. At a White house 
reception held on March 13, 1961 to announce the initiative to Latin 
American Diplomats and members of Congress Kennedy stated:

          As a citizen of the United States let me be the first to 
        admit that we North Americans have not always grasped the 
        significance of this common mission, just as it is also true 
        that many in your own countries have not fully understood the 
        urgency of the need to lift people from poverty and ignorance 
        and despair. But we must turn from these mistakes--from the 
        failures and the misunderstandings of the past--to a future 
        full of peril but bright with hope.

          [. . .]Therefore I have called on all the people of the 
        hemisphere to join in a new Alliance for Progress--Alianza para 
        [el] Progreso--a vast cooperative effort, unparalleled in 
        magnitude and nobility of purpose, to satisfy the basic needs 
        of the American people for homes, work and land, health and 
        schools--techo, trabajo y tierra, salud y escuela.

          [. . .]To achieve this goal political freedom must accompany 
        material progress. Our Alliance for Progress is an alliance of 
        free governments-and it must work to eliminate tyranny from a 
        hemisphere in which it has no rightful place. Therefore let us 
        express our special friendship to the people of Cuba and the 
        Dominican Republic--and the hope they will soon rejoin the 
        society of free men, uniting with us in our common effort.\3\
---------------------------------------------------------------------------
    \3\ Modern History Sourcebook: "President John F. Kennedy: On the 
Alliance for Progress", 1961.http://www.fordham.edu/halsall/mod/
1961kennedy-afp1.html (May 16, 2013).

    This event took place a month before the failed Bay of Pigs 
invasion, and a few years before the second American invasion of the 
Dominican Republic. The treaty creating the Alliance for Progress was 
signed in Punta del Este, Uruguay in August 1961. In November of that 
year, Teodoro Moscoso (the architect of Puerto Rico's Operation 
Bootstrap) was appointed coordinator of the Alliance and Regional 
Administrator for Latin America of the United States International 
Agency for Development (USAID). On December 1961, after breaking 
relations with Cuba, President Kennedy traveled to Latin America to 
promote the Alliance, visiting San Juan, Caracas and Colombia. Governor 
of Puerto Rico Luis Munoz Marin was a key to Kennedy's new Latin 
American policy, being part of what at the time was called ``the 
democratic left'' in Latin America.
    As a reward for the services of the Government of Puerto Rico in 
launching the Alliance, President Kennedy sent the following message to 
Governor Munoz Marin for the celebration of the tenth anniversary of 
Commonwealth on July 25, 1962.\4\
---------------------------------------------------------------------------
    \4\ Note that the date of the creation of Commonwealth coincides 
with the day of the U.S. invasion of Puerto Rico, July 25. All dates 
quoted previously come from: New York Times Chronology, 1961.http://
www.jfklibrary.org/Research/Research-Aids/Ready-Reference/New-York-
Times-Chronology/Browse-by-Date/New-York-Times-Chronology-December-
1961.aspx (May 16, 2013).

          The achievements of the Puerto Rican people in this short 
        period have been remarkable. Puerto Rico has furnished an 
        example to the world of the benefits that can be achieved by 
        close collaboration between a larger and a smaller community 
        within the framework of freedom and mutual agreement. I am 
        confident that I speak for the people of the United States as 
        well as their government in expressing my pride and pleasure at 
---------------------------------------------------------------------------
        Puerto Rico's achievements.

          I am aware, however, as you point out, that the Commonwealth 
        relationship is not perfected and that it has not yet realized 
        its full potential, and I welcome your statement that the 
        people of Puerto Rico are about to begin the consideration of 
        this with the purpose of moving towards its maximum 
        development. I am in full sympathy with this aspiration. I see 
        no reason why the Commonwealth concept, if that is the desire 
        of the people of Puerto Rico, should not be fully developed as 
        a permanent institution in its association with the United 
        States. I agree that this is a proper time to recognize the 
        need for growth and, both as a matter of fairness to all 
        concerned and of establishing an unequivocal record, to consult 
        the people of Puerto Rico, as you propose to do, so that they 
        may express any other preference, including independence, if 
        that should be their wish.\5\
---------------------------------------------------------------------------
    \5\ John F. Kennedy: "Message to Governor Munoz Marin on the 10th 
Anniversary of the Commonwealth of Puerto Rico." July 25, 1962. Online 
by Gerhard Peters and John T. Woolley, The American Presidency Project. 
http://www.presidency.ucsb.edu/ws/?pid=8787 (May 16, 2013).

    After the assassination of President Kennedy, all hopes for a 
reform of Law 600 and the enhancement of the Commonwealth autonomy 
through Presidential and Congressional action were dampened. This 
eventually led to the 1967 plebiscite as a strategy of Commonwealth 
supporters, who had been in power since 1940, to put pressure for 
change on Washington. Yet, President Lyndon B. Johnson refused to meet 
with the Puerto Rico Secretary of State, who was to deliver personally 
the results of the plebiscite.\6\
---------------------------------------------------------------------------
    \6\ Angel Collado Schwarz, "El mensaje a la metr"polis". El Nuevo 
D!a. 25 de Octubre de 2012. http://www.elnuevodia.com/columna-
elmensajealametropolis-1370349.html (May 16, 2013).
---------------------------------------------------------------------------
    The second major Washington initiative to resolve the Puerto Rico 
status question came from President George H.W. Bush in 1989. In the 
context of the Enterprise of the Americas Initiative which eventually 
became the Free Trade Areas of the Americas (FTAA) initiative. In his 
first State of the Union Address President Bush called on Congress to 
act on Puerto Rico's political future.

          There's another issue that I've decided to mention here 
        tonight. I've long believed that the people of Puerto Rico 
        should have the right to determine their own political future. 
        Personally, I strongly favor statehood. But I urge the Congress 
        to take the necessary steps to allow the people to decide in a 
        referendum.\7\
---------------------------------------------------------------------------
    \7\ George H.W. Bush, "State of the Union Address," February 9, 
1989. http://stateoftheunion.onetwothree.net/texts/19890209.html (May 
16, 2013).

    The President's request resulted in the introduction on April 4, 
1989 of the ``Puerto Rico Status Referendum Act'' (S. 712). As chair of 
the Senate Committee on Energy and Natural Resources, which is charged 
to deal with issues relating to the U.S. possessions, Senator Bennett 
Johnston held extensive hearings. For the first time since the 
enactment of Law 600 and the creation of Commonwealth, Congress 
embarked in a process of hearings and substantial deliberations on the 
Puerto Rico status question. The process was so inclusive that the 
leader of the Puerto Rican Independence Party expressed great 
satisfaction with the fact that Congress provided for the first time in 
history a viable and mutually agreeable definition of independence. 
Various books were later written about what was termed the process of 
negotiations and consultations of 1989-1990.\8\ In reality these were 
Congressional Hearings, but not accustomed to openness and exchange of 
views with members of Congress, the local politicians and pundits 
thought they had participated in ``consultations and negotiations.'' 
They were promptly disabused as the bill was not approved in the 101st 
Congress. Reintroduced as in the Senate as S. 244 in the 102nd 
Congress, the bill ``failed to approve'' in the Committee of Energy and 
Natural Resources, never making it to the Senate floor or the House.
---------------------------------------------------------------------------
    \8\ Cf. Ruben Berrios-Martinez, Nacionalidad y Plebiscito (San 
Juan: Editorial Libertad, n.d.), 133; Juan M. Garcia Passalacqua and 
Carlos Rivera Lugo, Puerto Rico y los Estados Unidos: El Proceso De 
Consulta Y Negociacion de 1989 y 1990 (San Juan: n.p., 1991), 2 Vols.
---------------------------------------------------------------------------
    The last noteworthy attempt to provide for a congressionally 
sanctioned solution to the Puerto Rico status question was the 
introduction of the ``United States-Puerto Rico Political Status Act'' 
by Alaska Republican Don Young (H.R. 3024 in the 104th Congress and 
H.R. 856 in the 105th congress). Although the bill was passed in the 
House 209 to 208 votes; it was referred to the Senate (S. 472) and 
never made it to the Senate's floor.
             the 2012 plebiscite: prospects for a solution?
    The latest of the four status plebiscites sent two clear messages: 
(1) the majority of Puerto Ricans are dissatisfied with Commonwealth; 
(2) there is a growing number of Puerto Ricans--although still a 
minority--that favor a ``sovereign free associated state'' or a more 
autonomous Commonwealth. The ballot for this plebiscite was divided in 
two parts. On the first part voters were asked: Do you agree that 
Puerto Rico should continue to have its present form of territorial 
status? The results were 54 per cent ``no'' and 46 per cent ``yes'', a 
clear rejection of the current status. But when given three choices on 
the second part of the ballot, statehood, independence and sovereign 
free associated state (``sovereign Commonwealth''), the results did not 
yield a clearly favored alternative. Table 1 summarizes the results of 
the four plebiscites and puts in perspective the difficulty of solving 
the status question.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 1967 Commonwealth has consistently lost support. Although it 
got the majority vote in 1993 it failed to reach the 50 percent mark. 
The 1998 and 2012 plebiscites were organized and held under the pro 
statehood governments of the New Progressive Party (NPP). Pro 
Commonwealth leaders argue that the definitions crafted by the PNP 
legislature for that formula were distorted in order to favor 
statehood; hence, the ``unfavorable'' results in the last two 
plebiscites for Commonwealth. In 1998, pro Commonwealth and pro 
independence voters formed a coalition that introduced the alternative 
``none of the above'' to the ballot, thus rejecting the maneuvers of 
the NPP government to tilt the vote in favor of statehood. The former 
proved to be the winning alternative, garnering 50.3 percent of the 
vote, thus sending the message to Congress that the Puerto Rican 
electorate was not sure of what it wanted but that it was not 
statehood, which got 46.5 percent of the vote.
    The 2012 plebiscite suffered from similar maneuvering. Arguing that 
Commonwealth was merely a territorial status, the ballot was split as 
we explained earlier. As the plebiscite was held on the same day of the 
general elections, the status campaign overlapped with that of the 
political parties vying for office. The leader of the pro Commonwealth 
Popular Democratic Party (PPD) thus asked its supporters to vote 
``yes'' on the first part of the ballot (supporting Commonwealth) and 
to leave blank the second part as a sign of protest. The results of the 
election were a victory for the PPD over the NPP. On the plebiscite, 
the current form of Commonwealth was rejected while statehood achieved 
a pyrrhic victory.
    Although statehood got the most votes of any alternative on the 
second part of the ballot, 44.4 percent, the blank votes combined with 
the votes for ``sovereign free associated state'' amounted to 50.7 
percent. Moreover, the share of votes for statehood decreased by 2.1 
percent from 1998. The pro statehood leadership argued to no avail that 
statehood had won by 61 percent, as the blank votes for the second part 
of the ballot should not be counted to certify the results. Yet, as 
these were ``protest votes'', they became part of the calculations in 
spite of the protestations of the NPP leadership.
    Chart 1* better illustrates the tendencies in the four plebiscites. 
There are two steady tendencies, one at the bottom of the chart, 
independence, and another at the top of the chart, statehood. Neither 
has grown much in the 46 years since the 1967 plebiscite. Statehood 
went form an initial 39 percent in 1967, to a high 46.5 percent in 
1998, and down to 44.6 percent in 2012. Independence hovers at the 
bottom and has never reached the 5 percent mark. Commonwealth is 
clearly loosing support, as the results of the first part of the 2012 
plebiscite demonstrate, but ``sovereign Commonwealth'' seems to be on 
the rise, gathering 24.2 percent of the vote, up form 0.3 percent in 
1998.
---------------------------------------------------------------------------
    * Chart has been retained in committee files.
---------------------------------------------------------------------------
    In the absence of a clearly favored alternative, the U.S. Congress 
and President remained silent on the 2012 plebiscite. Finally, on April 
2013 the White House announced the allocation of ``$2,500,000 for 
objective, nonpartisan voter education about, and a plebiscite on, 
options that would resolve Puerto Rico's future political status, which 
shall be provided to the State Elections Commission of Puerto Rico: 
Provided, that funds provided for the plebiscite under the previous 
proviso shall not be obligated until 45 days after the Attorney General 
notifies the Committees on Appropriations that he approves of an 
expenditure plan from the Commission for voter education and plebiscite 
administration, including approval of the plebiscite ballot; Provided 
further, that the notification shall include a finding that the voter 
education materials, plebiscite ballot, and related materials are not 
incompatible with the Constitution and laws and policies of the United 
States [sic].''\9\
---------------------------------------------------------------------------
    \9\ ``Puerto Rico Status Vote Proposed by White House'', The 
Huffington Post. April 10, 2013. http://www.huffingtonpost.com/2013/04/
10/puerto-rico-status-vote_n_3056579.html (May 16, 2013).
---------------------------------------------------------------------------
    Following the President's action, Puerto Rico's Resident 
Commissioner to the House of Representatives and NPP leader, Pedro 
Pierliusi presented the bill HR 2000 the ``Puerto Rico Status 
Resolution Act'', proposing a statehood ``yes'' or ``no'' plebiscite. 
After loosing face with the claim that statehood ``won'' the 2012 
plebiscite with 61 percent of the vote, the statehood leader and new 
president of the NPP, seems to be willing to ``roll the dice'' in an 
all or nothing gamble. As Puerto Rican Congressman Jose Serrano warned, 
if a vote for statehood is lost, this alternative will be sidetracked 
for at least a generation.
    But given the fact that Congress has not acted on any of the more 
than a dozen status bills presented since 1952, this gamble may prove 
to be superfluous. Moreover, Republicans hold the majority in the House 
and they have traditionally opposed statehood for Puerto Rico because: 
(1) the Island is culturally a Latin American Spanish speaking nation, 
merely 10 percent of the Puerto Ricans living on the Island are fully 
bilingual according to the 2010 U.S. Census; (2) the political 
allegiance of Puerto Ricans is to the Democratic Party, which would add 
two Senators and five or six Representatives for that party. To these 
reasons, new ones have been added: The government of Puerto Rico is 
nearly bankrupt; the Island's GDP has dropped over 10 percent in the 
past decade; unemployment was 16 percent in 2012; migration to the 
mainland is at a rate of 35,000 annually and the population dropped by 
2 percent between the 2000 and 2010 population censuses. Some pundits 
argue that Puerto Rico would be a ``beggar state'' and a burden to 
Federal finances at a time of fiscal duress.
    It is reasonable to conclude that, with these measures, both 
President Obama and Resident Commissioner Pierluisi are simply 
posturing to satisfy political promises made to their constituents. It 
is unlikely that Congress will act on any of these two proposals, and 
the stalemate shall continue.
                                 ______
                                 
     Society for American Values and Enlightenment in Puerto Rico, 
                              San Juan, PR
                             (introduction)
    My name is Jose Garriga-Pico and I appear in representation of the 
Society for American Values and Enlightenment in Puerto Rico (SAVE PR), 
a non-partisan civil society group of citizens committed to the 
protection and promotion of American values and interests in Puerto 
Rico. Currently, I am professor of Political Science at the University 
of Puerto Rico where I have taught since 1979 with brief interludes at 
the National Autonomous University of Mexico, Boston University and 
Northeastern University. From 2005 to 2008, I was at large state 
senator in Puerto Rico. I am a Toll Fellow of the Council of State 
Governments. I currently do not occupy any political office.
          (the importance of the november 6, 2012 plebiscite)
    The protection of American values and interests in Puerto Rico 
requires that the Senate acts forthrightly on the results of the 
November 6, 2012 Plebiscite which elevated the question of the status 
of Puerto Rico to the national agenda. Said results were a clear 
victory for the ``NO'' option in the first part of the ballot. (See 
Appendix 1.)* The meaning of such a vote is that the American citizens 
living in Puerto Rico have rejected the continuation of the territorial 
condition to which they consented by referendum in 1951.
---------------------------------------------------------------------------
    * Appendix 1-2 have been retained in committee files.
---------------------------------------------------------------------------
    In 1776, our forefathers declared the independence of our original 
thirteen colonies based on the fact that King George III had violated 
the principle of government by the consent of the governed. The Puerto 
Rican electorate served notice last November that they do not wish to 
continue being governed in the way and through the institutions and 
laws that, by their own accord, govern them currently. That is the 
American way of bringing about political change. The Senate of the 
United States, taking the respect for the wishes of the electorate as a 
core American political value, has a duty to act expeditiously to 
insure that these democratically expressed wishes are respected and 
implemented. Anything short of that would not live up to our blessed 
principle of government by consent of the governed.
    The request for the end of the current status, of course, Brings us 
to the question of what it should be substituted with. The wish of the 
American citizens who voted on this question was clear: Congress should 
admit Puerto Rico in the Union on an equal footing with all the other 
states. That has been historically the American way with all the 
territories that have been under the American flag for more than a 
hundred years. That is what the hundreds of thousands of Puerto Ricans 
who have fought side by side with their fellow American citizens in all 
our wars of the twentieth and twenty first century deserve. Simply put, 
statehood, for American citizens, is the American way.
        (the ideologies of the political sectors in puerto rico)
    There should be no dispute in this Senate or in Puerto Rico that in 
response to the results of the plebiscite, this Senate should proceed 
to approve an enabling act to admit Puerto Rico to the Union but I 
would be professionally remiss if I failed to recognize that there are 
persons in Puerto Rico that do not consider themselves Americans and 
hence do not favor statehood.
    There is a diversity of groups of this persuasion. Some simply hate 
the USA, and, will take sides with any party that attacks our country 
and its institutions. Unfortunately, as the events in the mainland have 
made well aware, there are many non Puerto Rican persons and groups all 
across our great nation that also feel and act that way. And yet, we 
still respect their freedom of expression and their right to the 
protection of their civil rights. That is the American way.
    Other groups and persons (in Puerto Rico as in other territories 
and states), even when they are citizens, they don't feel or identify 
themselves as Americans but cherish the identity of the ``old 
country''. In the mainland, these persons form ghettos, in Puerto Rico 
they favor independence and are a very small part of the population.
    A somewhat larger group of voters do not favor statehood because of 
the language barrier yet fear greatly losing their American citizenship 
and the economic consequences of not being part of the American 
economy. Hence they favor continuation of the current status or free 
association in the style the Republic of Palau, an option which most of 
the public fail to comprehend in all aspects. For example, the 
promoters of free association and even those of independence claim that 
they will retain American citizenship, American currency, American 
military protection and free access to jobs and schools in all the 
states even after Puerto Rico becomes sovereign.
    The majority of the population feels that Puerto Rico should become 
a state as reflected in the plebiscite results and other independent 
polls because as Puerto Rican Americans they want they Island to be 
forever part of the Union.
                            (the objections)
    Persons and groups who do not identify themselves with America and 
its values object the results of the plebiscite mostly because they do 
not believe that the status of Puerto Rico should decided by means of a 
plebiscite not only because they do not share American democratic 
values but because they realize that they do not have the support of 
the majority of voters. Hence they promote the Constitutional Assembly, 
an instrument made popular in Latin America by Hugo Chavez to promote 
political change. And yet, whenever they have had the opportunity to 
legislate such assembly they have shrunk from doing because, 
ultimately, they do not want any change in the present territorial 
condition.
    It is for this very same reason that they do not want the Congress 
to legislate to sponsor a plebiscite in Puerto Rico regarding status 
options. This also explains why they want complicated ballots with many 
alternatives which tend towards stalemate and inconclusive and even 
contradictory results. It is for this reason that they try to confound 
the interpretation of the results of the November 6, 2012 plebiscite.
    Whatever they allege regarding these results on fact is clear: 
Statehood obtained more votes than any other option. Indeed it obtained 
a hefty majority among those who casted a vote among the status options 
in the second part of the ballot. They argue, however, that contrary to 
the American tradition unmarked ballots should be counted as favoring a 
particular option, the status quo, which is politically unacceptable 
and juridically void. But even accepting for the sake of argument their 
allegation that these non-votes should be counted as part of the base, 
it would be un-American to make the loser a winner arguing that the 
real winner only attained a plurality. By all counts, statehood won.
                       (rules of interpretation)
    In part the confusion created based on the plebiscite results is 
due to a lack of firm principles of interpretation of the results in 
the local law that mandated it. To try to prevent confusion, even 
before the plebiscite, I appeared in representation of LULAC in front 
of members and staff of the Presidential Task Force on the Status of 
Puerto Rico and presented them a ``Suggested Interpretation and Action 
Policy Regarding the Possible Results of The Plebiscite on Puerto 
Rico's Status of 2012''. (See Appendix 2) After the plebiscite, I again 
returned to the Task Force, representing LULAC, to interpret the result 
according to the criteria I had proposed before the event. (See 
Appendix 3) My conclusions were that same what I am presenting here: 
The People of Puerto Rico voted for change in their status; they 
selected statehood as their preferred options for change. It is now up 
to the Congress to pick up the ball and continue the process of 
ascertaining how that change will occur.
                              (conclusion)
    Affirming that statehood won the plebiscite is a different question 
from saying that the Congress has to admit Puerto Rico to the Union 
without further consultation. In the American history and tradition 
admission of states has been the product of political processes of 
negotiation between the citizens in the territory and the Congress. 
What the victory of Statehood in the plebiscite means is that the 
American citizens in Puerto Rico are ready to begin negotiating the 
terms of admission. In this process, Congress should ask the People of 
Puerto Rico to confirm their choice of statehood in a federally 
mandated referendum to vote statehood up or down. I feel that HR2000 
(Pierluisi Bill) in the house is an adequate model to do this. The 
Senate should promptly introduce and consider a similar bill to begin 
the process of hearings on the matter.
                                 ______
                                 
 Statement of the Alliance for Sovereign Free Association (Alianza pro 
            Libre Asociacion Soberana); referred to as ALAS
    the rightful representative of the free association alternative
    The Alliance for Sovereign Free Association (Alianza pro Libre 
Asociacion Soberana or ALAS) is a non-partisan citizens organization 
dedicated to the decolonization of Puerto Rico, via the adoption of a 
treaty of free association between Puerto Rico and the United States of 
America. In 2012 ALAS was certified by the Puerto Rico Elections 
Commission to represent the option Sovereign Free Associated State 
(Estado Libre Asociado Soberano or ELA Soberano) in the Puerto Rican 
status plebiscite held on November 6, 2012. In the aforementioned 
process, the ELA Soberano was defined as a free association in 
accordance with Resolution 1541(XV) of the United Nations, and within 
the legal framework of the concept as treated in the 2011 Presidential 
Task Force Report on Puerto Rico's Status.
    The CENR has opened verbal participation in the Status Hearing only 
to the political parties that represented an alternative within the 
plebiscite. Hence, not being a party, ALAS was not invited. This 
exclusion was unwarranted. In the plebiscite, the free association 
alternative obtained 454,768 votes (33.34%). ALAS has therefore been 
entrusted by these voters with the legal, political and moral right to 
continue representing them in all matters related to the final status 
of our country, particularly as it pertains to free association. None 
of the parties invited to the Status Hearing can legitimately claim 
this representation.
    CENR's actions with respect to ALAS might be construed as an 
unintentional oversight, but many view it as disrespectful--or at the 
least, inconsiderate--towards the only organization that has official 
recognition as the defender of Free Association, an option that may 
very well become the status preference of the majority of Puerto 
Rican's, and probably of considerable political convenience for the 
United States of America as well. I stress this point because future 
congressional actions may require the representation of the free 
association option and, at present, that representation falls upon 
ALAS. This fact should not be overlooked by the CENR if its procedures 
are truly to be dressed in the cloth of democracy.
                           the status problem
    Puerto Rico has been a non-incorporated territory of the United 
States of America since 1898. As such, it is subject to the absolute 
powers of Congress over USA territories and possessions. In fact, 
although Puerto Ricans have been American citizens since 1917, while 
residing in PR they cannot vote for the President nor can they elect 
voting representatives to Congress.
    In 1952 the Island gained a certain degree of self-government with 
the creation of the Commonwealth of Puerto Rico, but its colonial 
nature --or territorial character, if this language suits better--went 
unchanged. Since its creation, the Commonwealth of Puerto Rico has not 
evolved towards greater autonomy. On the contrary, federal laws and 
policies have encroached upon all walks-of-life on the Island, leaving 
local government with even less authority to manage its own affairs. It 
is true that during the 50s and 60s the Commonwealth was able to 
attract outside investment capital, mostly from USA manufacturing 
companies, to stimulate growth and modernize the Island. However, since 
the late 1970s PR has actually stopped growing in real terms.
    Most Puerto Rican economists equate PR's economic transition --from 
an agriculture-based society to an industrial-based society--to the 
stimuli provided by the extraordinary USA economic expansion during the 
postwar years. A higher educational level achieved during the same 
period added to that development. But conditions have changed. The 
world moved towards greater international cooperation and free 
commerce. As the USA opened its commercial borders to other countries, 
PR lost one of its principal competitive advantages: unique access to 
the USA market. Also, PR's fiscal autonomy was impaired since its 
powers to impose commercial tariffs to imported goods --to protect 
agriculture and other emerging economic activities--was infringed by 
several free-trade agreements negotiated by the USA, not necessarily 
taking PR's best interest into account. In addition, Section 936 of the 
USA Tax Code was repealed in order to terminate federal tax exemptions 
to American companies established in PR. Gradually, the islands' 
industrial base diminished. The default, however, was not compensated 
by new economic activities but rather by an unhealthy increase in 
federal transfers. From PR's perspective little else could be done, 
since the development of a self-sustaining economy required the 
exercise of sovereign powers, not at its disposal.
    We will not enter into the details of the social and economic 
crisis of Puerto Rico since it is well documented in other writings, 
and certainly known to the members of the Senate Committee on Energy 
and Natural Resources. Suffice it to say that it is linked to the 
political status of PR, thus making the solution of the status problem 
a critical necessity.
    The relation between the deteriorated conditions of PR and its 
territorial status is not a simple allegation of ALAS. In fact, it has 
been plainly acknowledged by the White House Task Force on Puerto 
Rico's Political Status. In its 2005 report to President Obama, the 
Task Force clearly states that ``. . . the status question and the 
economy are intimately linked. . . And although there are a number of 
economic actions that should be taken immediately or in the short term, 
regardless of the ultimate outcome of the status question, identifying 
the most effective means of assisting the Puerto Rican economy depends 
on resolving the ultimate question of status.''
                    puerto rico's political response
    Most Puerto Rican professionals and the middle working class object 
to the policy of dependency--fostered by all USA Administrations--
whereby PR's poor receive social aid through many federal programs, but 
the Island's economic system is left to fend on its own. As a result, 
dependency grows and development stalls. Some see this situation as 
stemming from a lack of adequate federal attention on Puerto Rican 
affairs. Others see it as a result of federally imposed dispositions 
approved without regard to PR's needs and economic realities, crippling 
its capabilities for self-sustained development. As a result, two 
conflicting paradigms have emerged. One looks upon continued U.S. 
federal intervention as a solution, the other seeks self-sufficiency 
through the exercise of sovereign powers.
    The group in favor of more USA intervention may be divided into 
status quo defenders and advocates for federal statehood. The former 
argue that with assured federal aid and adequate economic policies hard 
times will eventually subside. The latter speak of acquiring political 
equality with fellow Americans, through Statehood, while sharing the 
responsibilities of American citizenship. But their emphasis is on 
financial matters, disregarding cultural and political complexities. 
They sustain that the immediate effect of Statehood is a leap in 
federal funds and that over 80% of Puerto Ricans will not have to pay 
federal taxes because of their limited incomes. Therefore, Statehood is 
actually favored on the basis of extending the already ignominious 
system of dependency.
    Another group, which includes ALAS, departs from that view. They 
argue that PR's economic strategies must arise from its particular 
realities (language and cultural affinity to Latin America, geographic 
location, technological capabilities, per capita income, etc.), which 
are not all similar to those of the USA. Within federal statehood PR 
would be forced to operate in direct competition with other states from 
a disadvantaged starting point. The best option is to transform PR into 
a sovereign state. And, from ALAS's perspective, since the vast 
majority of Puerto Ricans wish to conserve their American citizenship 
and collaborative ties with the USA, the best move is not towards 
traditional independence but towards a sovereign freely associated 
state.
                      the november 2012 plebiscite
    In search of a resolution for our status question, several 
plebiscites have been held; the latest on November 6, 2012. That 
plebiscite posed two questions related to the political status problem. 
The first required the voters to state whether or not they were 
satisfied with the present territorial condition. The second asked them 
to state their preference for Statehood, Independence or a Sovereign 
Free Associated State, regardless of how they voted on the first 
question.
    Appendix 1 and Appendix 2* summarize the results for Question 1 and 
Question 2, respectively. Two perspectives are presented for Question 
2. One includes only correctly marked ballots. The other accounts for 
blank votes, since, as we explain below, they are actually protest 
votes and should not be ignored.
---------------------------------------------------------------------------
    * Appendix 1-2 have been retained in committee files.
---------------------------------------------------------------------------
    The voting list contained 1,879,202 voters, a turnout of 78% of all 
qualified voters and a uniquely high percentage for a plebiscite or 
referendum in Puerto Rico. On the first question, 54% of the valid 
votes said NO. In fact, one may assume that many more would have voted 
NO had it not been because the Popular Democratic Party (PPD) --the 
party that actually won the general elections held on the same day of 
the plebiscite--was against the plebiscite and asked the voters to vote 
YES, as a form of protest. The PPD also asked its followers to leave 
the second question unanswered. Its aim was to cancel the validity of 
the vote on that question, since their favored alternative, Enhanced 
Commonwealth, was not included as an explicit option\1\. Some pro 
independence groups were also in favor of boycotting the plebiscite.
---------------------------------------------------------------------------
    \1\ The PPD considered the wording of the first question to be 
unfairly biased against Commonwealth, to favor Statehood. Also, it 
claimed that the plebiscite was a strategy of the governing New 
Progressive Party to confuse the political issues in play during the 
general elections. To counter this, PPD leaders asked voters to oppose 
the strategy by voting ``Yes'' to Question 1 and abstaining from voting 
on Question 2.
---------------------------------------------------------------------------
    Excluding null and blank votes, Statehood obtained 61% of the vote; 
Sovereign Free Association, 33%; and Independence 6%. It would seem 
that Statehood was the clear victor. But following the PPD's 
suggestion, 26% of total participants left the second question blank. 
There is overall agreement that these voters are not in favor of 
Statehood, but rather inclined towards Independence, Sovereign Free 
Association or some kind of enhanced Commonwealth. Therefore, when the 
blank votes are factored in as protest votes, the absolute majority 
(55%) is actually against Statehood.
    Contrary to the protest votes in the second question, only 4% of 
plebiscite voters abstained from answering the first, so the plea for 
not continuing as a territory, that is, the call for decolonization of 
PR is valid and must be addressed by the USA. But, which is the 
preferred alternative? As we have seen, that question has not yet been 
answered in a clear-cut fashion, certainly not by an absolute majority 
of the voters. But it ought to be. And the USA has a political and 
moral obligation to pave the way so the people of PR can decide.
           the responsibility of the united states of america
    Until very recently the USA could cope with the political status 
problem of PR by arguing that the majority of Puerto Ricans actually 
favored the status quo; that is, the Commonwealth status. Not anymore. 
The November 2012 plebiscite shows that an absolute majority is not 
satisfied with continuing under a territorial status. The argument is 
proven wrong.
    At this moment both Statehood and Sovereign Free Association have a 
noticeable group behind them. But both paradigms are dependent on the 
willingness of the USA towards their fulfillment. It is time for 
Congress to step in and speak truthfully and clearly to the people of 
PR as to what the USA is willing to concede. Honesty will pave the way 
to a quick and decisive decision on the part of PR.
    One can argue that from the standpoint of the USA, statehood for PR 
has two overwhelming problems to overcome. First, there is the cultural 
situation. Puerto Rico is a Latin American nation in its own right and 
Spanish is its mother language. Can the USA integrate such a nation 
into itself without risking its own national cohesion and identity or 
will it insist on PR's cultural assimilation as a precondition to 
Statehood? The other problem is economical. Will the USA Congress 
require PR to achieve an economy comparable at least to the poorest USA 
state so that PR can share the tax burdens of Statehood, or will it 
grant federal statehood regardless of actual economic conditions? If 
the latter, how will Congress convince the other states that this will 
not be unfair to them? Clearly it would be better for the USA if it did 
not have to face these excruciating questions. To do so, the USA would 
have to steer public opinion in PR towards an alternative other than 
Statehood.
    At present, strictly based on electoral results, Independence 
cannot pose as a solution either. But the recent plebiscite shows the 
opening of a new door: Sovereign Free Association. The United Nations 
acknowledges the status of free association as a means for 
decolonization and so does the USA. In fact, Congress' recognition and 
validation of the political viability and significance of this status 
is exemplified by its approval of three Compacts of Free Associations 
between the USA and several Pacific island/nations\2\. This is a 
fortunate situation for both PR and the USA since it opens an avenue 
for decolonization that avoids the cultural and economic inconveniences 
of statehood for PR and, for most Puerto Ricans, the unfounded notion 
of full Independence as an unacceptable risk. A clear message from the 
USA stating that it is willing to support a compact of free association 
with PR, upholding American citizenship, would pave the way.
---------------------------------------------------------------------------
    \2\ These Pacific islands were Strategic Trusteeships administered 
by the USA under the United Nations supervision. The trusteeships were 
superseded by these Free Association compacts.
---------------------------------------------------------------------------
    The USA is expected to act, not only from a domestic perspective 
but an international one as well. When in 1953 the United Nations took 
note of the creation of the Commonwealth of Puerto Rico and considered 
it to be an adequate measure of self-government, it expressed its 
understanding that the newly created political entity was an 
association open to change. Specifically, in item 9 of UN Resolution 
748 (VIII)--1953, the following is stated:

          [The United Nations] expresses its assurance that, in 
        accordance with the spirit of the present resolution . . ., due 
        regard will be paid to the will of both the Puerto Rican and 
        American peoples in the conduct of their relation under the 
        present political statute, and also in the eventuality that 
        either of the parties to the mutually agreed association may 
        desire any change in the terms of this association. (Emphasis 
        added.)

    The USA favored the resolution in all its parts. In fact, Henry 
Cabot Lodge II, at the time USA ambassador to the UN, openly said that 
the USA would respond positively to any petition of Puerto Rico to 
modify its political status in the future. Therefore, one can argue 
that, among others, the cited resolution gives rise to a legal 
obligation under International Law whereby the USA is required to 
respond to the will of the Puerto Rican people, in terms of 
facilitating their self-determination.
    Has the USA responded to its obligation to the people of Puerto 
Rico? Has it taken appropriate steps to facilitate a fair and 
legitimate act of self-determination so PR can overcome its colonial or 
territorial limitations? Clearly it has not. But it can, and it should.
                        procedural alternatives
    Two White House task forces especially convened to study the 
political status problem of Puerto Rico, one under President George 
Bush\3\--reports submitted in 2005 and 2007--and the other under 
President Barack Obama--report submitted in 2011. Both task forces 
concluded that the present Commonwealth is a non-incorporated 
territory, still under congressional authority, by virtue of the 
Territory Clause of the United States of America Constitution. This is 
the root-cause of the status problem. Therefore, only alternatives that 
have the effect of taking Puerto Rico out of the Territory Clause are 
appropriate. For this purpose, two major mechanisms have been 
recognized as having the highest probability of success in the case of 
PR: (1) A legally binding plebiscite with definitions approved by 
federal statute followed by self-executing administrative and legal 
actions to implement the winning alternative; (2) A Status 
Constitutional Assembly elected in PR with legal powers to negotiate a 
status solution with the federal government.
---------------------------------------------------------------------------
    \3\ The President's Task Force on Puerto Rico's Status was 
initially created by President Clinton in 2000.
---------------------------------------------------------------------------
    Locally sponsored plebiscites to gage peoples' preferences have 
their usefulness, but they also have critical limitations. When 
properly and fairly designed they can point in the direction of 
preference of the general population. This knowledge can help both 
countries, Puerto Rico and the United States of America, to gear or 
direct public efforts in a direction that is most likely to produce 
fast results that are of general acceptance. For example, although the 
November 2012 plebiscite is non-binding and, some argue, not very well 
designed, it produced an undeniable and unambiguous result for Question 
1: The present territorial status embodied in the Commonwealth has been 
clearly repudiated by an absolute majority of the voters. This result 
generates a legal, ethical, moral, and political mandate on the USA to 
quickly address the issue.
    But, one must acknowledge that local plebiscites are subject to in-
house political play. The greatest drawbacks have been in the 
arbitrariness of some status definitions or in their representation to 
the voters. This is particularly true for alternatives that require 
acquiescence from the USA. Should people vote for statehood if the USA 
is unwilling to grant it? Or, even if it is willing, should the 
attributes of statehood be liberally determined by the interested 
parties in PR? Is it fair to equate a treaty of sovereign free 
association with a traditional form of independence? Can Puerto Rican 
politicians be allowed to propose enhancements to the present 
Commonwealth to a degree that leaves it under the Territory Clause, but 
denies Congress the exercise of the powers that stem from that 
clause\4\?
---------------------------------------------------------------------------
    \4\ The White House Reports have denied that possibility on 
constitutional grounds, but PPD leaders allege that it is already so 
because of Supreme Court decisions. Who are we to believe?
---------------------------------------------------------------------------
    Clearly, in those circumstances, self-determination is not well 
served. The direct participation of Congress in the definition of these 
options and being honest and forthright in the alternatives that it is 
willing to concede, would go a long way to discard false pretensions 
and coalesce popular opinion into an absolute majority in favor of a 
non-territorial alternative to Commonwealth. This is why most Puerto 
Ricans favor a federally designed self-executing status plebiscite. And 
this is what ALAS also favors.
    ALAS recognizes that there are several ways to channel a federally 
sponsored plebiscite; for example, Bill HR 2000 presented in the House 
of Representatives by our Resident Commissioner, Hon. Pedro Pierluisi. 
According to HR 2000, a YES or NO plebiscite for statehood is to be 
held. If statehood is the victor, Congress is required to design a 
self-executing mechanism that, over a specified period, would culminate 
into statehood for Puerto Rico. But if statehood were rejected, no 
alternative is proposed. In ALAS we favor the statehood YES or NO 
plebiscite, but add that if the NO carries, another plebiscite should 
follow, posing independence against sovereign free association. With 
this mechanism a resolution to the status problem would be definite. In 
lack of said mechanism, HR 2000 fails the requirements of an acceptable 
self-determination process.
    President Barack Obama seems to be taking an intermediate approach. 
The Administration would provide $2.5 Million to finance a locally 
designed plebiscite, but requiring the following: ``The monies could be 
used after the Attorney General has found a Commission plan that 
includes education materials and ballot options to be consistent with 
the Constitution and basic laws and policies of the United States of 
America.''
    The Obama proposal falls short of what was expected, on two 
accounts:

  <bullet> It is financially insufficient. Clearly such an electoral 
        event would require a much higher budgetary assignment, at 
        least double the amount.
  <bullet> It does not lead to a definite solution to the status 
        problem and it does not preclude including the present 
        Commonwealth as an option. The latter is particularly 
        objectionable, for Commonwealth is the very source of the 
        territorial problem, and besides, it has already been rejected 
        in the very recent plebiscite. Given these shortcomings, 
        although ALAS is still open to the President's proposal, our 
        final stand on the matter would depend on the particulars of 
        the referendum once specifically defined. In a letter to the 
        President, dated April 22, 2012, ALAS expressed its position as 
        follows:

                  Thus, we welcome your recommendation. However, as 
                proposed, it falls short as it does not meet the 
                rightful expectation of the people of Puerto Rico to 
                engage in a legally binding and congressionally 
                sponsored plebiscite, with realistic status 
                definitions. Nevertheless, we consider your suggestion 
                as an opportunity to exercise our right to self-
                determination facing status options that meet federal 
                criteria, at least from the point of view of the 
                Executive Branch, and in accordance to international 
                law and agreements.

                  We are convinced that, if definitions of final status 
                options are worked out with legal thoroughness and 
                political honesty and if a rigorous and comprehensive 
                voter education plan is implemented, the proposed 
                plebiscite should provide Puerto Ricans important 
                clarifications and tools to press forward the 
                decolonization process to a relatively rapid 
                resolution.

    The Status Constitutional Assembly (SCA) is another possibility. 
But it too has its implementation complexities. For one, it is not a 
simple matter to determine how it will be constituted; many different 
proposals have been presented, hinting that it would not be a 
straightforward matter. Another difficulty is coordination with the 
USA. Will the USA acknowledge the SCA? Will the SCA negotiate with the 
Executive Administration or Congress? Of course, these details can be 
worked out if there is a will to solve the status problem. Again, the 
USA must be forthright and make its collaboration efforts apparent with 
no ambiguity of purpose.
                            closing remarks
    The alleged popular support for the territorial Commonwealth of 
Puerto Rico has been pierced by the results of the plebiscite 
celebrated in November 2012. The stark reality is that Congress exerts 
its territorial powers over the island against our people's will.
    The United States of America --through the President and Congress--
has a moral as well as a legal obligation to respond democratically, 
effectively, and promptly to this situation. Will it do so as a nation 
true to its beginnings or is it still stuck in the outdated paradigms 
of colonialism?
    The time to act is now.
                                 ______
                                 
 Statement of Hon. Luis Vega-Ramos, Member of the Puerto Rico House of 
     Representatives and Chairman of the House Judiciary Committee
    My name is Luis Vega-Ramos. I am Member of the House of 
Representatives of Puerto Rico elected on behalf of the Popular 
Democratic Party (PDP).
    I also present this statement on behalf of the following elected 
officials of the PDP: the Mayor of San Juan, Hon. Carmen Yulin Cruz-
Soto, the Mayor of Caguas, Hon. William Miranda-Torres, the Mayor of 
Comerio, Hon Jose A. Santiago, the Mayor of Hormigueros, Hon. Pedro 
Garcia, the Mayor of San German, Hon. Isidro Negron, the Mayor of 
Isabela, Hon. Charlie Delgado, representatives Luis Raul Torres, Carlos 
Vargas-Ferrer, Carlos Bianchi, Luisa ``Piti'' Gandara-Menendez and 
Charlie Hernandez-Lopez and the majority leader of the Municipal 
Assembly of San Juan, Marco A. Rigau.
    Last November 6th, along with our general elections, the previous 
pro-Statehood government held a referendum that posed two questions on 
the issue of Puerto Rico's political status. Said plebiscite was held 
with the objections of large segments of our society, including the 
Popular Democratic Party.
    Regrettably, the expression of an overwhelming majority in favor of 
a process to produce changes to the political status of Puerto Rico was 
thwarted as a direct consequence of the timing of the vote and of the 
politically charged language of the first question in the ballot.
    With regards to the second question, an important clarification is 
in order. Puerto Rico's Senate Concurrent Resolution No. 24, recently 
approved by both Houses of our Legislature, correctly states that: 
``Supporters of Estado Libre Asociado (Commonwealth) expressed 
themselves through two protest mechanisms. On one side, the Governing 
Board of the pro-Commonwealth Party adopted a resolution asking voters 
to deposit a blank ballot in protest. On the other side, a significant 
number of pro-Commonwealth leaders openly campaigned in favor of a vote 
for the option called Estado Libre Asociado Soberano (Sovereign 
Commonwealth).''
    The elected officials that file this testimony are among those that 
campaigned and voted against Statehood through the option of Estado 
Libre Asociado Soberano (Sovereign Commonwealth). We present this 
statement on behalf of the more than 454.000 Puerto Rican voters who 
also voted that way. It is our duty to expose the misrepresentation of 
the results of the so-called plebiscite of 2012 by the leaders of the 
pro-Statehood Party. We also want to reiterate our demand that the U.S. 
Government enact now, a binding, self-executing mechanism in 
furtherance of our demands for Puerto Rican self-determination, But in 
the event that Congress and the Administration fail once more in 
providing for such a process during the remainder of this year, we 
inform you that we will advocate for the convening by the Puerto Rican 
Legislature of a special Constitutional Assembly on Status as the best 
way to achieve this purpose.
    To this end, we state for the record the following:

          1. That the economic and social situation of Puerto Rico 
        requires organizing responsibly and diligently the matter of 
        our self-determination to avoid conflict with ongoing recovery 
        efforts, and to substantially accelerate the benefits that the 
        resolution of the issue will bring. There is no contradiction 
        between working for economic improvements today and 
        simultaneously promoting self-determination.
          2. It is misleading to claim that the option of Statehood won 
        last year's plebiscite with a majority of 61% of voters. When 
        you add up the votes of all other participants: Independence 
        (74,894/ 4%), Sovereign Commonwealth (454,768/ 24.3%) and blank 
        ballots (498,604/ 26.5%), the votes cast for Statehood do not 
        surmount its traditional 45% support. The majority of the votes 
        on last November's status plebiscite were cast against the 
        Statehood option.
          3. That to secure democratic validity of any process, it is 
        necessary to include all sectors of the debate. That means 
        properly allowing for the discussion and consideration of all 
        options including, among others, the non-territorial 
        aspirations of those who seek to develop the Commonwealth 
        status through. what former Governor Luis Munoz Marin called in 
        1962, ``the sovereign capacity of the people of Puerto Rico'',
          4. That the Constitutional Status Assembly is the appropriate 
        mechanism to address the issue of political status. We filed in 
        the Puerto Rico's House of Representatives, Bill No, 210, 
        drafted by the Constitutional Development Commission of the 
        Puerto Rico Bar Association, which provides for the convening 
        and functioning of the Constitutional Assembly on Status. 
        Various members of the Puerto Rico Senate have recently stated 
        that they will file a similar bill during this month. The PDP 
        Platform, also approved by voters last November, states the 
        following: ``If after one year, the White House has not 
        fulfilled its pledge, meaning, that the President has not 
        presented a bill before Congress to enact a referendum on which 
        the United States commits to abide by the totality of the 
        decision of the people of Puerto Rico, the Governor will move 
        forward with a Constitutional Assembly to deal with the issue 
        of status. To that end, the Popular Party formally commits to 
        enacting legislation to convene a Constitutional Assembly on 
        Status. Any proposal for a change in status that is recommended 
        as a result of the proceedings of the Constitutional Assembly 
        will have to be presented to voters in a special referendum as 
        an indispensable condition for its approval or rejection.''

    The fate of President Obama's proposal on status included on the 
budget presented to Congress will be known by October 1, when the new 
federal fiscal year begins. In its current form, it falls short of 
being a bill before Congress that would enact a binding plebiscite. But 
even if President Obama's proposal is approved, nothing prevents it 
from being tempered to work within the framework of a Constitutional 
Assembly on Status convened by Puerto Rico. In that regard, we suggest 
that you look into S.2304 filed by Senators Burr, Kennedy, Lott and 
Menendez during the 109th Congress as a starting point.
    There is an additional issue of importance. Last May, Oscar Lopez-
Rivera reached the unacceptable milestone of serving 32 years in 
confinement as a Puerto Rican political prisoner in the U.S. 
correctional system. The call to President Obama advocating for his 
immediate and unconditional release has overwhelming support among 
Puerto Ricans of all political ideologies. Recently, both the House of 
Representatives and the Senate of Puerto Rico passed resolutions 
reiterating this position to the President of the United States. 
Governor Alejandro Garcia-Padilla has also requested this action. We 
bring to your attention that Mr. Oscar Lopez-Rivera's release is an 
important step towards Puerto Rico's self-determination process.
    Thank you very much.
                                 ______
                                 
  Statement of Manuel Rivera, Lobbyist for Puerto Rico's Sovereignty 
Movement, Including But Not Limited To The Following Civil Society Non-
 Political Parties Organizations: Movimiento Independentista Nacional 
  Hostociano (MINH); Accion Democratica Puertorriquena (ADP); Proela; 
Movimiento Seis De Mayo; Alianza Pro Libre Asociacion Soberana (ALAS); 
                 Puertorriquenos Unidos En Accion (PUA)
    Mr. Chairman and Members of the Committee.

    I appreciate the opportunity to present my statement in writing 
before the Senate Committee on Energy and Natural Resources on behalf 
of Puerto Rico's Sovereignty Movement which supports self-determination 
for Puerto Rico and its diaspora participation.
    Much of the public behavior of Puerto Rican politicians in the 
United States suggests that their electorates are located in Puerto 
Rico as well as in the United States. Puerto Rico's political status is 
a primary concern for ``transnational'' politicians such as Congressman 
Luis Gutierrez (Illinois), Congressman Jose Serrano (New York), and 
Congresswoman Lydia Velazquez (New York), together with other issues 
that affect U.S. Latinos, such as bilingual education and immigration 
reform. As recent as the late 1990s and early 2000s, several community 
leaders from New York, Chicago, and other U.S. cities supported the 
``Peace for Vieques'' movement, which sought to end the U.S. Navy's 
presence in Vieques, an offshore municipality of Puerto Rico. Among 
others, the three representatives of Puerto Rican origin were arrested 
during peaceful manifestations against military operations in Vieques. 
On May 1, 2003, due to public pressure on the Island and abroad, the US 
Navy terminated its military exercises in Vieques, following the 
closing of Roosevelt Road's Naval Base in Ceiba. Similarly, the 
diaspora has supported the liberation of Puerto Rican political 
prisoners in U.S. jails. Most recently, the three Puerto Rican 
representatives in the U.S. Congress and Commissioner Resident of 
Puerto Rico, Pedro Perluisi, signed a joint letter mailed to President 
Barack Obama requesting a presidential pardon for Oscar Lopez Rivera, a 
Puerto Rican national in the diaspora who has attained the status of 
political prisoner due to his activism for independence.
    In various ways, the Puerto Rican diaspora has helped shape U.S. 
policies toward the Island. However, past administrations have ignored 
the diaspora's requests to participate in previous plebiscites. Despite 
endless efforts to amend the legislation that authorized the 
celebration of the November 6, 2012 plebiscite on the political status 
of Puerto Rico, the diaspora was barred from participating once again. 
Thus, a viable solution for diaspora participation can be made by a 
Constitutional Assembly. On January 2, 2013, Puerto Rico Legislative 
Representative, Luis Vega Ramos, Chairman of the House of 
Representative of Puerto Rico's Judiciary Committee, introduced a bill 
calling for a Constitutional Assembly; a draft legislation prepared by 
the Comision de Desarrollo Constitutional del Colegio de Abogados de 
Puerto Rico (Commission for Constitutional Development of the Puerto 
Rican Bar). This draft legislation for a Constitutional Assembly allows 
for the participation of our compatriots residing outside the Puerto 
Rican national territory in the exercise of our self-determination.
    Until now, all local elections, referenda, and plebiscites have 
been restricted to Island residents who meet a residency requirement. 
Ironically, the plebiscite held in Puerto Rico on November 6, 2012 
permitted only those that were able to meet the residency requirements 
in the country to vote. This procedure that was in effect for the 
November 6, 2012 plebiscite lacks credibility. Such rules make the 
plebiscite an arbitrary procedure in that individuals disinterested in 
the political future of Puerto Rico, such as non-Puerto Rican 
nationals, were able to participate, and at the same time, the Puerto 
Rican diaspora was excluded merely on geographical terms. For example, 
the eligibility criteria established by the law permitted overseas 
residents living in Puerto Rico for a period of one year to vote in the 
plebiscite. No one denies that many foreigners have integrated to the 
extent that many have adopted our nation's customs and mores. 
Notwithstanding, it is also true, that other foreigners residing on the 
island temporarily do not feel a connection with our nation.
    Puerto Ricans in the United States have reiterated their desire to 
participate in the definition of the political future of our country. 
This trend has attained popular support in Puerto Rico. Judging from 
the available evidence, the ideological preferences of stateside Puerto 
Ricans are similar to those of Island residents. For example, a public 
poll sponsored by the newspaper El Nuevo Dia (2004) found that 48 
percent of Puerto Ricans in central Florida favored the current 
Commonwealth status, while 42 percent preferred the Island's annexation 
as a state of the union and 5 percent supported independence.
    In the 1990s, a group of Puerto Rican leaders in New York, 
including state Senator Jose Rivera, sponsored the first symbolic 
election. The results showed that Independence attained 30% while 
Estado Libre Asociado (Commonwealth) obtained 36% and Statehood, 34%.
    As a result of circular migration for more than a century, 
thousands of Puerto Ricans have developed multiple ``home bases'' in 
the United States as well as in Puerto Rico, allowing them to keep 
strong ties with the Island, even while living abroad for long periods. 
Many people now move routinely between various households, located on 
the Island and in the diaspora, to expand their survival strategies and 
strengthen their kinship networks. This phenomenon requires the 
rethinking of Puerto Rican migration as the spatial extension of family 
ties through an incessant traffic of persons in both directions. A 
dense network of transnational connections means that most Puerto 
Ricans experience migration directly, whether personally or through a 
close relative. Thus, it is increasingly difficult to draw a sharp line 
between the Island and its diaspora, given that a substantial 
proportion of Puerto Ricans spend part of their lives at both poles of 
the migratory circuit.
    The experience of the diaspora suggests that national identities 
may survive and even prosper for long periods in a foreign country. 
Since the late nineteenth century, several generations of Puerto Rican 
migrants have maintained tight links with their country of origin. 
Their community organizations have selectively appropriated discourses 
and practices traditionally associated with Puerto Rican culture. The 
diaspora communities remain tied to the Island through the constant 
circulation of people, money, material and symbolic goods, and cultural 
traditions.
    The Puerto Rican diaspora has often nurtured ``long distance 
nationalism'' by reclaiming an identity rooted in the Island, but 
increasingly disseminated throughout the U.S. mainland. Nowadays, being 
born in Puerto Rico, speaking Spanish, and living on the Island are not 
exclusive markers of Puerto Rican identity.
    In sum, the diaspora has broadened the territorial and linguistic 
borders of the nation. Puerto Rico has become a transnational nation, a 
country crisscrossed by nomadic subjects moving back and forth between 
the Island, the U.S. mainland, and other Caribbean countries, 
especially the Dominican Republic. The crucial challenge posed by the 
dispersal of the Puerto Rican population is imagining a nation whose 
physical and symbolic borders are constantly transgressed and redrawn 
by migration.
      requirement for puerto ricans to qualify as voters overseas
    The present electoral laws and procedures in Puerto Rico are 
antiquated. For example, there are no procedures in place for 
electronic voting and the votes are tallied by hand. This procedure 
exposes the process to major electoral fraud. According to Professor of 
Law Julio Fontanet, and former Electoral Commissioner at the Puerto 
Rico Electoral Commission for the Movimiento Union Soberanista Party, 
the recent changes in the electoral laws approved by the previous 
administration left the current barriers in effect, impeding the 
diaspora's participation in any future self-determination process.
    There are restrictions imposed on Puerto Ricans living outside the 
national territory which affect their ability to participate in a self-
determination process. The ability to vote in Puerto Rico is 
conditioned on the type of activity that is performed overseas (only 
citizens included in predefined categories may qualify). For example, 
voting access is expressly reserved for those who perform official 
functions (like active members of the Armed Forces of the United States 
or the National Guard of Puerto Rico, or notable figures in diplomatic 
service) or perform a certain type of activity outside of the country 
(like agricultural employees executing a contract negotiated by the 
Labor Department or foreign exchange students studying at an accredited 
institution). That is to say, the suffrage guarantee does not include 
all citizens overseas, as there are express limitations associated with 
the type of activity that Puerto Ricans can perform overseas.
    From a comparative international perspective, an increasing number 
of other countries in Latin America and Europe permit its diaspora to 
participate in important electoral contests. However, no other 
applicable legislation in the Latin America region conditions its 
nationals' ability to vote on the time spent outside of the country. 
Therefore, so long as a person can maintain their citizenship he or she 
retains the ability to vote irrespective of the period that individual 
has resided outside of the country. This is significant because the 
Supreme Court of Puerto Rico determined in the case of Miriam Ramirez 
de Ferrer v. Juan Mari Bras that a citizen of Puerto Rico retains the 
right to vote irrespective of whether the person renounced his/her U.S. 
citizenship.
    In order to vote in Puerto Rico it is necessary for qualified 
citizens to have registered previously in the country. In other 
countries, however, it is sufficient that the citizens execute specific 
registry documents or register as voters overseas in order to vote 
outside of their national territory. Further, in other countries there 
are procedures that permit the voter registration process at sites 
specifically authorized to perform this function overseas. In 
principle, the possibility of realizing the registration process 
overseas represents a convenience for the potential overseas voter as 
he/she would not be required to return to the country to register to 
vote.
    For example, in the case of the electoral authority in the 
Dominican Republic, they determined that the voter registry shall only 
occur in certain cities in five countries (Canada, Spain, United 
States, Puerto Rico, and Venezuela), where the major concentration of 
potential voters reside. Honduras, for example, has opted for a very 
limited scope and concentrated on six cities in the United States: 
Houston, Los Angeles, Miami, New Orleans, New York, and Washington, 
D.C.
    Although the deadlines usually average a few months, it is worth 
noting the Dominican Republic for its ample concessions to its voters 
in the city of New York, who for the first time exercised the vote 
overseas in the May 2004 elections. The voter registration process was 
maintained open in that jurisdiction for more than two years, from 
October 2001 until January 2004.
    Puerto Rico breaks from the voter registration process mold of 
other countries, in that there are no sites outside the national 
territory authorized to complete the required registry. In Puerto Rico, 
as previously mentioned, only certain categories of citizens may vote. 
They also must previously register as voters within the country, 
because the process that they are able to perform overseas only 
includes a request to receive and cast a vote by mail--not to register 
as a voter. This request must be submitted directly to a specific 
electoral administrative body in Puerto Rico who can designate it as an 
``absentee vote,'' (this also includes a method of early voting for 
certain voters within the national territory) two months in advance of 
the electoral contest. Moreover, any request for absentee voting from 
overseas must be accompanied by a certification from a competent 
authority (a representative of the institution for whom he/she works), 
who can affirm the conditions of voter eligibility.
    Puerto Rico is different from other countries in Latin America or 
Europe in the way it effectuates overseas suffrage. The usual method 
requires that the eligible voter appear at places specifically 
authorized to effectuate the vote. Traditionally, these places are 
located at the diplomatic or consular headquarters and, when these 
prove to be inadequate or insufficient due to the number of registered 
voters, it is done at other sites that offer better security conditions 
and easily accessible facilities for the casting and counting of 
ballots. In these cases, it is not uncommon for the leasing of schools 
or sports facilities or the anticipated use of certain sites utilized 
by other State-sanctioned functions including commercial centers or 
national companies, as Brazilian law allows. Only in the case of 
Dominican Republic, for political reasons, it was decided that for the 
first presidential election overseas in 2004 it would not assign all 
diplomatic and consular offices as designated overseas voting 
precincts.
    For an overseas voter to participate in Puerto Rico's elections the 
casting of votes overseas is done through paper ballots that are 
received by the voter and must be returned by mail. In order for votes 
by mail to be valid, it is imperative that the voter appear before some 
competent authority overseas (military, diplomatic, or consular 
authority), so that it can certify that the ballot was validly cast in 
secret and personally cast by the authorized voter. The problem with 
the electoral process in Puerto Rico is that the access to voting for 
citizens overseas is expressly reserved, as previously mentioned, for 
those employed in official State functions.
    In order to implement in Puerto Rico a truly democratic self-
determination process, the Puerto Rican diaspora must be allowed to 
participate. A Constitutional Assembly is the way for the people of 
Puerto Rico to achieve self-determination and preserve the principle of 
democracy.
    I would be happy to respond in writing to any question you might 
have.
                                 ______
                                 
    Dear Senator Wyden and Committee Members:

    For the last 50 years I've been involved in a quest for equality 
and full democratic participation in our nation's democratic processes 
for 3.7 million Hispanic Americans in Puerto Rico.
    I read the CRS report on Puerto Rico's political status. As a 
Puerto Rican, as a Hispanic American from Puerto Rico and as an 
American citizen, I feel outraged at the fact that the CRS report 
completely sidesteps the issue of discrimination against Hispanic 
Americans in Puerto Rico. The report completely fails to even mention 
the inequality, the disfranchisement and the denial of full democracy 
to Hispanic Americans in Puerto Rico.
    Discussion of status is a way to ignore and to keep ignoring the 
real issue: denial of voting rights, denial of participating in our 
nation's democratic process and denial of economic equality and 
opportunities for Hispanic Americans in Puerto Rico.
    Our nation is the example and inspiration of democracy throughout 
the world. It was the inspiration on the Chinese demonstrations in 
Tiananmen Square; it was the inspiration in the struggle for democracy 
in the revolution against communist dictatorships in Poland, East 
Germany, the Soviet Union itself and other nations throughout the 
world. However, when it comes to existing prejudice and 
disenfranchisement of 3.7 million Puerto Ricans in our nation's 
process, everyone looks the other way and talks about status instead of 
equality and democracy.
    As American citizen's we in Puerto Rico are entitled to equal 
rights, privileges and benefits as well as equal duties and obligations 
as all other American citizens and as American citizens we are entitled 
to the right to vote for our President and to full representation in 
Congress.
    The Puerto Rican issue is not status. Our real issue is one of 
equality and democracy, and until our nation's Congress and our 
President accept the reality of the discrimination against Hispanic 
Americans in Puerto Rico which has denied us the right to vote and to 
participate in our nation's democratic process during the past 96 
years, our nation lacks the moral authority to preach democracy 
throughout the world. How can Congress and the President justify 
spending billions of dollars and risking the lives of our young men and 
woman by sending them in harm's way to take ``democracy'' to Irak and 
Afganistan, who do not want nor do they fully understand democracy, 
while denying equality and participation in our Nation's democratic 
processes to 3.7 million Hispanic Americans in Puerto Rico, who are 
natural born American citizens?
    Our nation's Congress has the duty to recognize this discrimination 
as it has recognized the discrimination against African Americans, 
against the LGBT groups, and we are presently discussing discrimination 
against Hispanic American immigrants who are not citizens.
    Until the discrimination against the Hispanic Americans in Puerto 
Rico is acknowledged, our nation has no moral authority to preach 
democracy around the world. It is important that the issue of equality 
and democracy for Puerto Rican Americans be addressed NOW.
            Yours truly,
                                     Carlos Romero Barcelo,
                                           Governor of Puerto Rico,
                                                       (1977-1985).

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
